APPENDIX TABLE OF CONTENTS
OPINIONS AND ORDERS
Opinion of the United States Court of Appeals for
the Third Circuit (September 24, 2020) ............ 1a
Memorandum Opinion of the United States
District Court for the Middle District of
Pennsylvania (February 6, 2019)..................... 31a
Memorandum Opinion of the Superior Court of
Pennsylvania (January 11, 2008) .................... 73a
Opinion of the Court of Common Pleas of Monroe
County (May 9, 2006) ...................................... 90a
OTHER DOCUMENTS
Trial Transcript Volume IV—Relevant Excerpts
(May 8, 2006) .................................................. 157a
Jury Instruction Transcript—Relevant Excerpts
(May 9, 2006) .................................................. 216a

App.1a
OPINION OF THE UNITED STATES COURT OF
APPEALS FOR THE THIRD CIRCUIT
(SEPTEMBER 24, 2020)
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
________________________
AARON EDMONDS TYSON,

Appellant,
v.
SUPERINTENDENT HOUTZDALE SCI;
ATTORNEY GENERAL PENNSYLVANIA,
________________________
No. 19-1391
On Appeal from the United States District Court
for the Middle District of Pennsylvania
(D.C. No.: 3-13-cv-02609)
District Judge: Honorable James M. Munley
Before: JORDAN, RESTREPO and
GREENBERG, Circuit Judges.
RESTREPO, Circuit Judge
Aaron Edmonds Tyson handed his gun to Otis
Powell and waited in the getaway car while Powell
shot and killed two men in a stopped van. A jury in
Monroe County, Pennsylvania, convicted Tyson of two
counts of first-degree murder as an accomplice. In
seeking post-conviction relief in state court, Tyson
claimed his trial counsel was ineffective for not

App.2a
objecting to the court’s erroneous instruction, which
he argued allowed the jury to find him guilty without
finding he possessed the requisite intent to kill. After
the state court deemed the claim meritless, Tyson
pursued a habeas petition. The District Court held
the state court reasonably applied federal law in finding
his trial counsel was not ineffective and denied relief.
For the reasons set forth below, we disagree and will
reverse the District Court.
I.

Factual and Procedural Background

The Pennsylvania Superior Court summarized
the facts of this case as follows:
On April 24, 2002, [Tyson], [Powell] and
Kasine George (“George”) were riding in a
vehicle. At some point, [Tyson] exited the
car and, when he returned, stated that two
white boys had just pulled a gun on him.
George described [Tyson] as angry at that
time. [Tyson], who was at that point a passenger in the car, took a 9 millimeter handgun from the center console. He racked the
slide of the gun, thus arming it. [Tyson] told
Powell, who was driving, to pull out from the
location where the vehicle was parked.
[Tyson] pointed to a van and indicated it
was being driven by the two who had pulled a
gun on him. With Powell driving, the three
followed the van to a club. When the two
white men entered that club, Powell gave
George a knife, directing him to puncture the
tires on the van. George did so to at least
one of the tires. When George returned to the
car, [Tyson] was in the driver’s seat. Powell

App.3a
was now a passenger and he asked [Tyson]
for the gun. After five or ten minutes, the
two white men exited the bar, entered the
van and left the location.
With [Tyson] now driving, the three again
followed the van. It eventually stopped due
to the flat tire. At that point, [Tyson] and
his two companions were going to exit the
car, but Powell told the other two to wait.
Powell then walked to the van. As he did so,
[Tyson] backed the car to a point where he
and George could see what was transpiring
at the van. At that point, Powell shot its two
occupants, Daniel and Keith Fotiathis . . . .
He then ran back to the car. Powell, George
and [Tyson] left the scene. [Tyson] drove the
vehicle. The three discussed whether they
should go to New York but eventually
decided to return to their nearby home.

Commonwealth v. Tyson, 947 A.2d 834 (Pa. Super.
2008) (unpublished memorandum) at 6-8, appeal
denied, 605 Pa. 686, 989 A.2d 917 (Pa. 2009).
Brothers Daniel and Keith Fotiathis died from
the gunshot wounds inflicted by Powell. Tyson was
charged with being an accomplice to two counts of
first and third-degree murder and tried by jury in
May of 2006. Kasine George, who was later arrested
on unrelated drug charges, provided information to
the police and testified for the Commonwealth at
trial. Tyson was found guilty as an accomplice to the
first-degree murders of the Fotiathis brothers. In
July 2006, the trial court sentenced him to the
mandatory term of life imprisonment without parole.

App.4a
Under Pennsylvania law, the specific intent to kill
is an element of first-degree murder. Commonwealth
v. Thomas, 194 A.3d 159, 167 (Pa. Sup. Ct. 2018). To
be guilty as an accomplice in Pennsylvania, a person
must act with the same intention of promoting or
facilitating the crime as the principal. 18 Pa. C.S.
§ 306(c), (d). Thus, to be guilty as an accomplice to firstdegree murder, the state must prove the accused
possessed the specific intent to kill. Commonwealth v.
Speight, 854 A.2d 450, 460 (Pa. 2004). See also Everett
v. Beard, 290 F.3d 500, 513 (3d Cir. 2002) (“Pennsylvania law has clearly required that for an accomplice
to be found guilty of first-degree murder, she must
have intended that the victim be killed.”) (abrogated
on other grounds, Porter v. McCollum, 558 U.S. 30,
130 (2009)).
At trial, the Commonwealth’s theory of the case
was that Tyson was guilty because he assisted the
principal, Powell. In his closing argument, the prosecutor stated that the “rule” in Pennsylvania is “if you help
a shooter kill, you are as guilty as a shooter.” A-885.
He expounded on this statement with an analogy:
So in a bank robbery, when there’s a look
out sitting outside the bank and he tells his
friends who are armed now, don’t go shooting
any bank guards. Go and get the money and
come back out. And I am going to stay in the
car and we will drive off and live happily
ever after. And the two friends go in a shoot
a bank guard. Guess what? He is as guilty
as they are even though he told them not to
shoot because the law can sometimes be
sensible, especially with a criminal.

App.5a
A-885-86. The prosecutor concluded the explanation
by stating that “anyone who is with the shooter . . .
either helped to drive a vehicle, providing the vehicle,
handing the gun over, slashing the tire, any of those
acts make those people equally guilty of the criminal
offense as a helper, as an accomplice. That is beyond
any doubt whatsoever.” A-886.
The Commonwealth’s explanation of accomplice
liability was a misstatement of Pennsylvania law. The
court’s jury instruction reinforced this misstatement
and similarly failed to convey that an accomplice to
first-degree murder must possess the intent to kill.
After emphasizing that Tyson was charged as an
accomplice, not the principal, the court defined both
first and third-degree murder by focusing entirely on
the mental state of “the killer.” A-926. In explaining the
elements of first-degree murder, the court mistakenly
identified Powell as the accomplice and told the jury
he committed an intentional killing, stating that “in
this case–not this Defendant–but Otis Powell killed
them as an accomplice with the Defendant, Aaron
Tyson. And this was done with the specific intent to
kill.” A-927. The instruction was further marred by the
court mistakenly naming the elements of first-degree
murder as the elements of third-degree murder.
The court’s instruction for accomplice liability was
general and not tied to either murder charge. Instead,
the court explained that Tyson “is an accomplice if
with the intent to promote or facilitate the commission of a crime he encourages, requests or commands
the other person to commit it or agrees or aids or
agrees to aid or attempts to aid the other person in
planning, organizing, committing it.” A-930 (emphasis
added). The court finished its explanation with a

App.6a
circular statement: “You may find [Tyson] guilty on
the theory that he was an accomplice as long as you are
satisfied beyond a reasonable doubt that the crime
was committed; that [Tyson] was an accomplice of the
person who actually committed the crime.” A-930. The
court failed to mention that, under Pennsylvania
law, an accomplice to first-degree murder must intend
to promote or facilitate a killing.
After the instruction concluded, the court entertained the jury’s request for clarification on the degrees
of murder. It reiterated the elements of first and
third-degree murder, this time correctly, but again
focused entirely on the intent of the “killer” without
citing the requisite mens rea of the accomplice. A-948.
It then practically directed the jury to find for firstdegree murder because, “in this particular case,” the
charge of being an accomplice “almost by definition
. . . encompasses the concept of first degree murder,”
while the charge of accomplice to third-degree murder
is “offered as another possibility even though it does
not fit as well within the confines of the explanation
because counsel agreed you may consider that as a
possibility.” A-950-51.1
Tyson appealed to the Pennsylvania Superior
Court, raising numerous claims not relevant to this
appeal, and the court affirmed his conviction of
two counts of accomplice to first-degree murder. In
November 2010, Tyson filed a timely pro se petition
and accompanying brief in accordance with the PostConviction Relief Act (PCRA) before the trial court.
1 The jury was instructed on third-degree murder after the
court suggested to defense counsel that such an instruction
would be appropriate. A-916-17.

App.7a
In his petition, Tyson stated he was “deprived of his
Constitutional Rights to Due Process and right to
effective assistance of counsel.” A-172. In the accompanying brief, Tyson articulated that Pennsylvania
law requires proof that an accomplice to first-degree
murder possess the specific intent to the kill. A-178.
He alleged that the trial court’s instruction did not
convey this burden of proof to the jury, in violation of
his due process rights under federal law. A-179.
Counsel was appointed and filed an amended
PCRA petition, which expounded upon Tyson’s claim
that, based on federal law, trial counsel was ineffective
for failing to object to the trial court’s instruction.
PCRA counsel argued an objection was warranted
because “[t]he instruction as given could easily have
confused the jury as to what kind of intent must be
shown beyond a reasonable doubt.” A-182.
A PCRA hearing was held before the trial court in
October 2011. Tyson’s post-conviction counsel questioned trial counsel about his failure to object to the
accomplice instruction; trial counsel responded that
he did not remember the charge. A-973. In subsequent
briefing, post-conviction counsel reiterated the ineffective assistance claim, arguing that trial counsel’s
failure to request an instruction on the mens rea
required for accomplice liability “is a tremendously
important point” because the intent to kill “means
the difference between murder in the first degree
and murder in the third degree.” A-188.
The trial court denied Tyson’s PCRA petition
finding that, inter alia, counsel was not ineffective for
failing to object to the jury instruction because it
provided a definition of accomplice liability and the
elements of first-degree murder. Citing portions of

App.8a
the instruction, the court concluded that, on the whole,
it conveyed the Commonwealth’s burden to prove
beyond a reasonable doubt that Tyson possessed “the
shared specific intent to kill the Fotiathis brothers.”
A-151. The court bolstered the denial of the ineffectiveness claim by stating that the evidence presented
to the jury “revealed that [Tyson’s] conduct was willful,
deliberate and premeditated and that he actively
participated in the murders by aiding the shooter.”
A-151.
Tyson appealed to the Pennsylvania Superior
Court, which affirmed the findings of the trial court
and denied post-conviction relief. Adopting the “cogent”
reasoning of the lower court, the Superior Court agreed
that the ineffective assistance claim was meritless
because the instruction sufficiently conveyed the
requisite mens rea for an accomplice to first-degree
murder. A-052. It affirmed the trial court’s denial of
PCRA relief.
In October 2013, Tyson filed a pro se writ of
habeas corpus in the Middle District of Pennsylvania
raising four claims of ineffective assistance of counsel.2
In deciding the instant claim regarding counsel’s failure to object to the accomplice liability instruction, the
District Court found that the Pennsylvania Superior
Court assessed the claim on its merits and it had
therefore been exhausted in state courts. Accordingly,
the District Court applied the standard of review of
2 The District Court stayed Tyson’s habeas petition so that he
could pursue his second and third PCRA petitions in state court,
both of which were denied by the PCRA court as untimely. The
Superior Court affirmed both denials. After the denial of the
third petition, the Pennsylvania Supreme Court denied leave to
appeal.

App.9a
the Antiterrorism and Effective Death Penalty Act of
1996 (AEDPA), 28 U.S.C. § 2254(d)(1), and concluded
that the Superior Court reasonably applied clearly
established federal law in determining that Tyson’s
trial counsel was not ineffective for failing to object
to the accomplice liability instruction. A-12-13.
Tyson appealed to this Court, which granted a
certificate of appealability limited to “his jury instructions claim under both the Fourteenth Amendment’s Due Process Clause, see Estelle v. McGuire, 502
U.S. 62, 72 (1991), and the Sixth Amendment, see
Strickland v. Washington, 466 U.S. 668, 687 (1984).”
A-23. As per the certificate’s instruction, the parties
addressed the District Court’s determination that the
ineffective assistance of counsel claim had been
exhausted in state court and was not procedurally
defaulted. A-22-23.
II.

Exhaustion and Procedural Default

Under AEDPA, a federal court may grant habeas
corpus relief if it concludes the petitioner is in
custody in violation “of the Constitution or laws or
treaties of the United States.” 28 U.S.C. § 2254(a).
Petitioners in state custody may bring a habeas
petition only if they have properly exhausted the
remedies available in state court, assuming such
remedies are available and can effectively redress the
petitioner’s rights. 28 U.S.C. § 2254(b)(1)(A). Exhaustion
requires a petitioner to “fairly present” their federal
claim’s “factual and legal substance to the state
courts in a manner that puts them on notice that a
federal claim is being asserted.” Robinson v. Beard,
762 F.3d 316, 328 (3d Cir. 2014). Because Pennsylvania
law prevents a defendant from raising an ineffective

App.10a
assistance of counsel claim on direct appeal, Commonwealth v. Grant, 813 A.2d 726, 738 (Pa. 2002), a
defendant exhausts an ineffective assistance of counsel
claim in the Commonwealth by raising it in the first
petition for collateral relief under the PCRA, see Bey
v. Superintendent Greene SCI, 856 F.3d 230, 236-37
(3d Cir. 2017).
In his pro se PCRA petition, Tyson asserted that
his counsel was ineffective for failing to object to the
trial court’s erroneous instruction, which violated his
due process rights under the Fourteenth Amendment.
He cited both this Court’s decision in Laird v. Horn,
414 F.3d 419, 430 (3d Cir. 2004), which held that an
instruction that failed to explain that an accomplice
to first-degree murder must possess the intent to kill
violated the accused’s due process rights, and the
Pennsylvania Supreme Court’s decision in Commonwealth v. Huffman, 638 A.2d 961 (Pa. 1994), which
held that the specific intent to kill is an element of
the crime of accomplice to first-degree murder that
must be proven beyond a reasonable doubt in
accordance with the Supreme Court’s decision In re
Winship, 397 U.S. 358 (1970).
Tyson’s pro se pleading, which was later utilized
in his counseled petition, was sufficient to fairly
present his federal ineffective assistance of counsel
claim to the state court. McCandless v. Vaughn, 172
F.3d 255, 261 (3d Cir. 1999) (“To ‘fairly present’ a
claim, a petitioner must present a federal claim’s
factual and legal substance to the state courts in a
manner that puts them on notice that a federal claim

App.11a
is being asserted. . . . Yet, the petitioner need not have
cited ‘book and verse’ of the federal constitution.”)3
The Commonwealth contests this conclusion,
arguing that both the underlying due process claim
and the ineffective assistance claim must be exhausted
before this Court can conduct habeas review.4 It
maintains that Tyson’s due process challenge was
not fairly presented to the state court because it was
not raised on direct appeal. Because the claim would
be deemed waived under Pennsylvania law, the
Commonwealth argues the doctrine of procedural
default prohibits this Court from addressing the alleged
due process violation on habeas review.
3 Upon denial of his claim by the Superior Court, Tyson was not
required to seek review in the Pennsylvania Supreme Court in
order to exhaust his claim. See Pennsylvania Bulletin: Exhaustion of State Remedies in Criminal and Post-Conviction Relief
Cases, 30 Pa. Bull. 2582 (2000) (stating effective immediately,
following adverse order from Superior Court or Supreme Court
of Pennsylvania, petition for rehearing or allowance of appeal
no longer required in post-conviction relief matters to exhaust
state court remedies for purposes of federal habeas proceedings).
4 “The doctrine of procedural default prohibits federal courts
from reviewing a state court decision involving a federal question
if the state court decision is based on a rule of state law that is
independent of the federal question and adequate to support
the judgment.” Fahy v. Horn, 516 F.3d 169, 187 (3d Cir. 2008).
“A state procedural rule is ‘adequate’ if it was firmly established and
regularly followed’ at the time of the alleged procedural default.”
Bey, 856 F.3d at 236 n.18 (quoting Ford v. George, 498 U.S. 411,
424 (1991)). Here, the Commonwealth argues the due process
claim was procedurally defaulted because a rule of Pennsylvania
law would deem it waived on post-conviction review. For the
reasons explained above, this argument is unpersuasive because
the due process claim was raised within the ineffective assistance claim, which a rule of Pennsylvania law found cognizable.

App.12a
We disagree that the due process claim can be
regarded as separate and distinct from the ineffective
assistance of counsel claim. Addressing the claims
independently of one another would require us to disregard the analysis conducted by the state court.
Moreover, because Tyson did not raise the due process
claim on direct appeal, it is only cognizable under
Pennsylvania law through the lens of an ineffective
assistance claim on post-conviction review. The
Superior Court held Tyson’s trial counsel was not
ineffective for failing to object to the court’s instruction
because the instruction did not violate Tyson’s due
process rights. Applying the proper standard of review
under AEDPA, the District Court concluded the
Superior Court’s determination constituted a reasonable
application of clearly established federal law as
announced in Strickland v. Washington, 466 U.S. 668
(1984). It is this conclusion we now review on appeal.
III. Standard of Review
In denying habeas relief, the District Court did
not hold an evidentiary hearing nor engage in independent fact-finding. Accordingly, “we apply de novo
review to its factual inferences drawn from the state
court record and its legal conclusions.” Mathias v.
Superintendent Frackville SCI, 876 F.3d 462, 475
(3d Cir. 2017).
Because we have concluded the state court decided
Tyson’s ineffective assistance claim on its merits, we
review it in accordance 28 U.S.C. § 2254, as amended
by AEPDA.5 Section 2254(d) provides this Court with
5 We recognize, in affirming this finding by the District Court,
that there is a presumption that the state court adjudicated a
claim on the merits “in the absence of any indication or state-law

App.13a
the statutory authority to grant habeas corpus relief
for petitioners in state custody, stating:
An application for a writ of habeas corpus
on behalf of a person in custody pursuant to
the judgment of a State court shall not be
granted with respect to any claim that was
adjudicated on the merits in State court
proceedings unless the adjudication of the
claim—
(1) resulted in a decision that was contrary to,
or involved an unreasonable application of,
clearly established Federal law, as determined
by the Supreme Court of the United States;
or
(2) resulted in a decision that was based on an
unreasonable determination of the facts in
light of the evidence presented in the State
court proceeding.
We are concerned here with whether the Pennsylvania courts’ application of clearly established federal law was unreasonable. That is an objective inquiry.
Williams v. Taylor, 529 U.S. 362, 409 (2000) (“a federal habeas court making the ‘unreasonable application’ inquiry should ask whether the state court’s
application of clearly established federal law was
objectively unreasonable”). Under AEDPA review, “a
procedural principals to the contrary.” Harrington v. Richter,
562 U.S. 86, 99 (2011). The presumption holds even if the state
court did not analyze or even cite Supreme Court decisions in
reaching its conclusion. Even “[w]here a state court’s decision is
unaccompanied by an explanation,” the habeas petitioner has
the burden of proving the state court’s denial of relief was the
result of an unreasonable legal or factual conclusion. Id. at 98.

App.14a
habeas court must determine what arguments or
theories supported or, . . . could have supported, the
state court’s decision; and then it must ask whether
it is possible fairminded jurists could disagree that
those arguments or theories are inconsistent with
the holding in a prior decision of [the Supreme]
Court.” Harrington, 562 U.S. at 102.
Here, the Superior Court found that Tyson’s trial
counsel was not ineffective. In so doing, it applied
Pennsylvania Supreme Court law that counsel is presumed effective unless the appellant proves: 1) the
underlying claim has arguable merit; 2) counsel’s
course of conduct “did not have some reasonable basis
designed to effectuate [the appellant’s] interests;” and,
3) “but for counsel’s ineffectiveness, there is a reasonable probability that the outcome of the challenged
proceedings would have been different.” Commonwealth
v. Fulton, 830 A.2d 567, 572 (Pa. 2003); A-48.
This Court has repeatedly recognized that Pennsylvania’s test for ineffective assistance of counsel is
consistent with the Supreme Court’s decision in
Strickland because it requires “findings as to both
deficient performance and actual prejudice.” Mathias,
876 F.3d at 476. See also Jacobs v. Horn, 395 F.3d
92, 106 n.9 (3d Cir. 2005); Werts v. Vaughn, 228 F.3d
178, 204 (3d Cir. 2000). Here, the Superior Court
found the court’s jury instruction sufficiently conveyed
the Commonwealth’s burden to prove Tyson possessed
the intent to kill. Because the underlying due process
claim was deemed to have no arguable merit, the
court held counsel could not be ineffective for not
objecting to the instruction. The District Court found
this decision constituted a reasonable application of
Strickland. We disagree.

App.15a
IV. Ineffective Assistance of Counsel.
A. Counsel’s Performance
We begin our analysis with the first prong of

Strickland, examining whether the Superior Court’s
decision that counsel acted reasonably was contrary
to clearly established federal law. “To establish deficient
performance, a person challenging a conviction must
show that ‘counsel’s representation fell below an
objective standard of reasonableness.’” Harrington,
562 U.S. at 104 (quoting Strickland, 466 U.S. at 688).
To obtain relief, Tyson must prove the alleged errors
were “so serious that counsel was not functioning as
the ‘counsel’ guaranteed [to him] by the Sixth
Amendment.” Strickland, 466 U.S. at 687. “Generally,
trial counsel’s stewardship is constitutionally deficient
if he or she ‘neglect[s] to suggest instructions that
represent the law that would be favorable to his or
her client supported by reasonably persuasive authority’
unless the failure is a strategic choice.” Bey, 856 F.3d
at 238 (quoting Everett, 290 F.3d at 514).
We recognize that “[e]ven under de novo review,
the standard for judging counsel’s representation is a
most deferential one” and that, under AEDPA review,
that deference is heightened. Harrington, 562 U.S. at
105. “When § 2254(d) applies, the question is not
whether counsel’s actions were reasonable. The question is whether there is any reasonable argument that
counsel satisfied Strickland’s deferential standard.” Id.
See Burt v. Titlow, 571 U.S. 12, 15 (2013) (“When a
state prisoner asks a federal court to set aside a
sentence due to ineffective assistance of counsel . . . ,
our cases require that the federal court use a ‘doubly
deferential’ standard of review that gives both the

App.16a
state court and the defense attorney the benefit of
the doubt.” (quoting Cullen v. Pinholster, 563 U.S.
170, 190 (2011)).
Tyson argues that counsel’s inaction permitted
the court to instruct the jury that they could convict
him of first-degree murder as an accomplice without
finding he possessed a specific intent to kill—in effect,
allowing the Commonwealth to not prove an element
of the crime. The Due Process Clause of the Fourteenth
Amendment requires the government to prove each
element of an offense beyond a reasonable doubt. In
re Winship, 397 U.S. 358, 364 (1970). “This bedrock,
‘axiomatic and elementary’ principle” prohibits a jury
instruction that lessens the prosecution’s burden of
proof. Francis v. Franklin, 471 U.S. 307, 313 (1985)
(quoting In re Winship, 397 U.S. at 363). If the instruction contains “some ‘ambiguity, inconsistency, or
deficiency,’” such that it creates a “reasonable likelihood” the jury misapplied the law and relieved the
government of its burden of proving each element
beyond a reasonable doubt, the resulting criminal
conviction violates the defendant’s Constitutional
right to due process. Bennett v. Superintendent
Graterford SCI, 886 F.3d 268, 285 (3d Cir. 2018)
(citing Waddington v. Sarausad, 555 U.S. 179, 19091 (2009) (internal citations omitted)).
When a habeas petitioner claims the jury instruction was unconstitutional, “we have an independent duty to ascertain how a reasonable jury would
have interpreted the instructions at issue.” Smith v.
Horn, 120 F.3d 400, 413 (3d Cir. 1997) (citing Francis,
471 U.S. at 315-16). We exercise this duty by “focus[ing] initially on the specific language challenged,”
Francis, 471 U.S. at 315, and then considering the

App.17a
“allegedly constitutionally infirm language . . . in the
context of the charge as a whole” to determine
whether there is a reasonable likelihood the jury
applied the instructions in a manner violative of the
accused’s due process rights. Smith, 120 F.3d at 411.
Reading the instant instruction through this
lens, we find a strong likelihood the jury convicted
Tyson as an accomplice to first-degree murder without
finding he possessed the specific intent to kill. Indeed,
we could find no language in the instruction that
would lead the jury to connect the requisite intent to
kill to the role of an accomplice.
The instruction began with the court’s definition
of malice, the mens rea element for murder, as
encompassing “one of three possible mental states
which the law regards as being bad enough to make
a killing a murder.” A-926. It instructed the jury to
find malice “if the killer acts with the intent to kill,
or secondly, with an intent to inflict serious bodily
harm, or third, [with] that wickedness of disposition
. . . .” A-926 (emphasis added). The instruction
therefore conveyed to the jury that the only relevant
mental state was that of the killer; it neither referenced nor explained the requisite mental state of an
accomplice.
The court next provided confusing definitions of
the different degrees of murder, initially identifying
the elements of first-degree as third-degree murder.
From there, the instruction affirmatively informed
the jury that Powell—whom it mistakenly identified
as an accomplice—possessed the intent to kill:
With third degree murder the elements of
the offense . . . that the Commonwealth must

App.18a
prove is that Daniel and Keith Fotiathis are
dead—and I think there’s not a question
that they are dead. . . . Secondly, that in this
case–not this Defendant—but Otis Powell
killed them as an accomplice with the
Defendant, Aaron Tyson. And this was done
with [the] specific intent to kill. Malice. Specifically, specific intent to kill is a fullyformed intent to kill. And one who does so is
conscious of having that intention. But also
a killing with specific intent is killing with
malice. If someone kills in that manner that
is willful, deliberate [and] premeditated like
in this case stalking or lying in wait or
ambush, that would establish specific intent.
A-927 (emphasis added). Defense counsel did not object
to the court’s mistake as to the degree of murder, which
likely confused the jury but arguably did not prejudice
Tyson. The absence of an objection to the court’s
explanation of the mens rea element of first-degree
murder, however, is indefensible. The court inadvertently identified the actual shooter as an accomplice,
and then informed the jury the facts of record established the killings were intentional. The instruction
comes close to identifying Tyson, who the court had
already identified as the alleged accomplice, as presumptively guilty of first-degree murder. The court in
no way conveyed the Commonwealth’s burden to prove
that Tyson acted with the specific intent to kill. It
instead conveyed to the jury that Powell’s presumed
intent to kill would render Tyson guilty as an
accomplice to first-degree murder.
The court’s instruction on third-degree murder
led the jury further astray:

App.19a
In third degree murder the killer must again
act in such a manner that there is malice
[and] that the person who is the victim must
be dead. And, again, the connection with the
person who did the killing is such that there
has to be a direct connection. Remember
what I said about malice? . . . It is a shorthand
way of referring to three different possible
mental states that the killer may have that
the law would regard making a killing a
murder.
A-927 (emphasis added). As with the instruction on
first-degree murder, the court identified the requisite
intent of “the killer” without mentioning the mens
rea of the accomplice. The circuitous reference to an
accomplice as someone with a “connection with the
person who did the killing” implies guilt so long as
the connection is “direct.” But a “direct connection”
does nothing to convey that Tyson and “the killer”
must each have had a specific intent to commit murder.
Instead both instructions imply the jury must only
determine Powell’s state of mind in determining
Tyson’s guilt as an accomplice.
The court’s instruction on accomplice liability only
made it more likely that a reasonable juror would
misapprehend the law. Rather than convey the crucial
point that an accomplice must intend to kill to be
guilty of first-degree murder, the court’s explanation
was general and defined an accomplice as one who
intends to promote or facilitate “a crime:”
You may find the defendant guilty of the
crime without finding that he personally
performed the acts required for the commission of that crime. The Defendant is guilty

App.20a
of a crime if he is an accomplice of another
person who commits the crime. He is an
accomplice if with the intent to promote or
facilitate the commission of a crime he
encourages, requests or commands the
other person to commit it or agrees or aids
or agrees to aid or attempts to aid the other
person in planning, organizing, committing
it.
You may find the Defendant guilty of a
crime on the theory that he was an accomplice
as long as you are satisfied beyond a reasonable doubt that the crime was committed;
that the Defendant was an accomplice of the
person who actually committed the crime.
A-930 (emphasis added). 6 Tyson argues that this
general instruction on accomplice liability directs the
6 This instruction is substantially different than the current
Pennsylvania Suggested Standard Criminal Jury Instructions
for accomplice liability for the crime of first-degree murder,
which reads:
A person can also be guilty of first-degree murder
when he or she did not cause the death personally
when the Commonwealth proves beyond a reasonable doubt that he or she was an accomplice in the
murder. To be an accomplice in a murder, the
defendant must have himself or herself intended
that a first-degree murder occur and the defendant
then [[solicits] [commands] [encourages] [[[[[[[[requests]
the other person to commit it] [or] [[aids] [agrees to
aid] [[[[or] [[[[[attempts to aid] the other person in
planning or committing it].
PA-JICRIM 8.306(B)(4). In the accompanying note, the committee
recognizes that accomplice liability “is offense specific,” meaning
that guilt attaches to the charge if the accomplice had the intent

App.21a
jury to find him guilty of first-degree murder if he
intended to assist with the commission of any crime.
He contends a reasonable juror could have interpreted
this instruction to mean Tyson was guilty as an
accomplice if he intended to confront the victims, but
not kill them, or intended to enable a separate crime,
such as Powell’s illegal possession of a firearm or
threatening the victims with a crime of violence.
We agree. This Court has previously held that,
when a specific intent instruction is required, a
general accomplice instruction lessens the state’s
burden of proof and is therefore violative of due
process. Smith, 120 F.3d at 412-14. As with the instruction in Smith, the trial court here did not
identify the crime to which accomplice liability should
attach; nothing in the charge tied the mental state of
an accomplice to that of a murderer. The result was
an implication that if Tyson was an accomplice to “a”
crime, he was an accomplice to any crime also committed, including first-degree murder. Smith, 120 F.3d
at 414 (instruction violative of due process because it
was reasonably likely jurors convicted Smith of firstdegree murder based on the finding that he was an
accomplice to robbery).7
to assist in the commission of the specific offense. See note, PAJICRIM 8.306(a).
7 Tyson argues the instruction created a “strong likelihood”
that the jury believed “his life as a drug dealer” constituted “a
crime” with regard to his accomplice liability. Appellant’s Br.,
26. However, the court instructed the jury not to infer guilt
from evidence of his drug dealing. It directed jurors to find
Tyson guilty if they believe “he did, in fact, act as accomplice in
the death of Keith and Daniel Fotiathis and not because [they]
believe he is convicted [of] or committed these drug offenses.” A-

App.22a
After the instruction concluded, the jury understandably requested the court to clarify the difference
between first and third-degree murder. In response
to this request, the court reinforced the inference
that Tyson’s mens rea was not relevant in deciding
his guilt:
First degree murder is when a killer has a
specific intent to kill. And there are three
elements. The first is that Keith and Daniel
Fotiathis are dead. . . . And the second is that
the killer actually killed them. That would
not be Mr. Tyson. But the killer actually killed
these people. Mr. Tyson is an accomplice, is
what the Commonwealth charges. And,
thirdly, that these killings were accomplished
with a specific intent to kill and with malice.
A-948-49 (emphasis added). The court distinguished
Tyson’s role from that of “the killer” but omitted the
requirement that the jury find beyond a reasonable
doubt that Tyson intended for the Fotiathis brothers
to be killed. The instruction repeatedly and consistently
instructed that the only relevant inquiry is whether
“the killer” acted with specific intent. It stated that
“[a]ll that is necessary is they have enough time so
the killer does actually form the intent to kill;” and
“[y]ou can infer [the specific intent to kill] from the
evidence if you find the killer used a deadly weapon
in this case.” A-950. The instruction altogether

944. The jury is presumed to follow a court’s instruction and we
therefore conclude the jury did not find him guilty due to evidence of his drug dealing. See Weeks v. Angelone, 528 U.S. 225,
234 (2000) (citing Richardson v. Marsh, 481 U.S. 200, 211 (1987)).

App.23a
eliminated the mens rea element of accomplice liability
for first-degree murder.
Finally, the trial court ended its clarification by
discouraging the jury against finding that the double
shooting constituted the lesser offense of third-degree
murder:
In this particular case because there is a
charge of an accomplice almost by definition
it encompasses the concept of first-degree
murder by its very definition, an accomplice
with the planning and the coordination if
you, in fact, found to be so indicate [sic] that
was first degree murder. But third-degree
murder offered as another possibility even
does not fit well within the confines of the
explanation because counsel agreed you
may consider that a possibility.
A-950-51 (emphasis added). There is a reasonable
likelihood the jury understood this passage as a strong
suggestion by the court to convict Tyson of firstdegree murder, and that finding him guilty of thirddegree murder would be inappropriate. The court
ostensibly urged the jury to find Tyson guilty as an
accomplice to first-degree murder because it believed
the facts supported such a verdict.
We have not found, and the Commonwealth has
not provided, a portion of the charge that corrects
these consistent misrepresentations of the law. The
instruction conveyed that Tyson’s guilt as an accomplice
hinged upon the principal’s mental state until it
finally “removed the discretion that the jury could
have otherwise exercised” and directed it to find Tyson
guilty as an accomplice to first-degree murder. Bey,

App.24a
856 F.3d at 239. Because the instruction eradicated
the prosecution’s burden to prove the mens rea element
of an intentional killing, it plainly violated Tyson’s
due process rights.
In light of the instruction’s profound impropriety,
we conclude that trial counsel acted unreasonably in
failing to object. The failure to object was particularly
glaring given that the prosecutor’s closing argument
contained the same erroneous interpretation of
Pennsylvania law. The prosecutor told the jury that
“whoever was involved in this shooting is a murderer.
Either the shooter, or any helper, who under Pennsylvania law, is an accomplice.” A-885. Through the
analogy of the look-out who told his co-conspirators not
to shoot the bank guards but was still guilty of the
bank guard’s murder, the prosecutor informed the
jury that a “helper” who plainly did not possess the
intent to kill was guilty of murder as an accomplice. Although the counsel’s arguments “‘carry less weight
with the jury’ than the trial court’s instructions,” the
Commonwealth’s blatant misstatement of the law
certainly “increased the likelihood that the jury
interpreted the charge so as to relieve the Commonwealth of its burden of proof.” Bennett, 886 F.3d at
287-88 (citing Sarausad, 555 U.S. at 195) (internal
citations omitted).8
8 The prosecutor’s argument confounded general conspiracy
liability with accomplice liability. To be guilty as an accomplice
under Pennsylvania law, there must be evidence that the
defendant intended to aid or promote the underlying offense,
and that the defendant actively participated in the crime by
“soliciting, aiding, or agreeing to aid the principal.” Commonwealth v. Murphy, 844 A.2d 1228, 1234 (Pa. 2004). To be guilty
as a co-conspirator, a defendant must enter into an agreement
with another to engage in the crime, and he or a co-conspirator

App.25a
Despite the absence of any instruction directing
the jury to find an essential element of an offense
defined by Pennsylvania law, the Superior Court
held the trial court’s charge did not warrant counsel’s
objection. We conclude that this holding constitutes
an unreasonable application of Strickland. While we
recognize there are “countless ways to provide effective
assistance in any given case,” we cannot fathom a
strategic reason for counsel’s failure to object to an
instruction that eliminates the state’s burden to
prove an element of a crime that carries a mandatory
sentence of life imprisonment. Strickland, 466 U.S.
at 689. Even if we “evaluate the conduct from counsel’s
perspective at the time,” we hold his inaction constituted a serious enough error that his representation
fell outside the “‘wide range’ of reasonable professional assistance.” Harrington, 562 U.S. at 104 (quoting
Strickland, 466 U.S. at 689). Given the nature and
circumstances of this particular instruction, the state
court’s finding to the contrary constitutes an unreasonable application of clearly established law.
B. Prejudice
We now turn to Strickland’s prejudice prong. To
establish prejudice, Tyson must prove “a reasonable
probability that, but for counsel’s unprofessional errors,
must commit an “overt act” in furtherance of the crime. Id. at
1238 (citing 18 Pa. C.S. § 903). If a different crime is committed
in furtherance of the agreed-upon crime—for example, if a bank
guard is killed while the agreed-upon bank robbery is underway—
a co-conspirator is liable for the murder. See Commonwealth v.
Strantz, 195 A. 75, 79 (1937). An accomplice in the same circumstance, however, is guilty of murder only if he intended to
aid or promote the shooting of the bank guard and had the same
kind of culpability as the principal. See 18 Pa. C.S. § 306(c)(1) & (d).

App.26a
the result of the proceeding would have been different.
A reasonable probability is a probability sufficient to
undermine confidence in the outcome.” Strickland,
466 U.S. at 694. Counsel’s errors must be “so serious
as to deprive the defendant of a fair trial, a trial
whose result is reliable.” Id. at 687. Under Strickland,
“[t]he likelihood of a different result must be substantial, not just conceivable.” Harrington, 562 U.S.
at 112.
Here, the Pennsylvania Superior Court did not
assess whether Tyson suffered prejudice because it
found counsel’s performance reasonable. Tyson, as a
habeas petitioner, must nonetheless meet his burden
under AEDPA review of “showing there was no reasonable basis for the state court to deny relief.”
Harrington, 562 U.S. at 98; see also id. (AEDPA review
“applies when a ‘claim,’ not a component of one, has
been adjudicated.”). The question is not whether a
finding of no prejudice would have been incorrect, it
is whether such a decision would have been unreasonable, which is “a substantially higher threshold.”
Knowles v. Mirzayance, 556 U.S. 111, 123 (2009).
We have already concluded that counsel’s failure
to object to the court’s instruction led to the likelihood
that the jury interpreted the law in a way that
lessened the Commonwealth’s burden of proof. Tyson
appears to argue that reaching this conclusion is
enough to establish prejudice. But AEDPA review
demands a more comprehensive analysis to determine
whether it would be unreasonable to find the instruction did not render Tyson’s conviction unfair.
Harrington, 562 U.S. at 111-12. We therefore look to
the record to determine whether the instruction
interfered with the jury’s assessment of the evidence

App.27a
to the extent that, but for the incorrect statements of
law, there is a substantial likelihood that a different
verdict would have been reached. Id. at 112.
In denying relief, the Superior Court adopted
the PCRA court’s characterization of the evidence as
“reveal[ing] that [Tyson’s] conduct was willful, deliberate and premeditated and that he actively participated in the murders by aiding the shooter.” A-51.
While the state courts correctly recognized Tyson’s
intent to kill could be proven through circumstantial
evidence, they ignored circumstantial evidence that
could have supported the opposite conclusion. Kasine
George, the only eyewitness to testify, stated that
Tyson handed his gun to Powell at Powell’s request
as they followed the Fotiathis brothers’ van. Once
the van stopped, Tyson stopped the car in a nearby
alley and Powell exited the car with the gun. When
George and Tyson started to join him, Powell stopped
them and told them to wait in the car. Rather than
accompany Powell, George and Tyson stayed behind
while Powell went alone and shot the victims. George
testified that he anticipated a confrontation, but that
neither Tyson nor Powell discussed any intention to
kill the Fotiathis brothers. George stated that, while
following behind the disabled van, they never discussed a plan for when they eventually caught up with
and encountered the victims. From this account, a jury
could have reasonably concluded that Tyson, like
George, anticipated a confrontation of some kind but
that Powell alone possessed the intent to kill.9
9 The lead detective on the case, Detective Richard Wolbert, stated
that Kasine George provided the “best information” regarding
Tyson’s role in the shooting. A-823.

App.28a
At trial, counsel recognized the absence of any
concrete evidence of Tyson’s intention to commit
murder. In moving for a judgment of acquittal on the
accomplice to first-degree murder charge, counsel
argued that George’s testimony failed to establish
“any express or real implied agreement” that the
men were “going to, in fact, kill the Fotiathis brothers.”
A-849. The trial court denied the motion, finding that
an intent to kill could be inferred by the circumstances.10 In light of this exchange, counsel’s failure
to object to the instruction, which did not require the
jury to find any agreement to kill, is inexplicable.
Had counsel requested the court include the mens
rea element of accomplice liability in its instruction,
there is a substantial probability that the jury could
have found that Tyson lacked the intent to kill.
Strickland, 466 U.S. at 693-6. Because the deficient
instruction hindered the jury’s assessment of important
circumstantial evidence, it would be unreasonable to
conclude that Tyson was not prejudiced by counsel’s
failure to object. See, e.g., Bey, 856 F.3d at 244
(finding that Bey was prejudiced by counsel’s failure
to object to a deficient instruction).
This case is distinguishable from our decision in
Mathias, which held a state court’s denial of an
ineffective assistance claim arising from an alleged
erroneous instruction was reasonable under AEDPA
review. The instruction in Mathias, which the petitioner
claimed allowed him to be convicted of first-degree
10 In denying the motion, the court acknowledged George’s
testimony that Tyson gave his gun to Powell prior to the
shooting. The trial court, in rejecting counsel’s argument that
there was no agreement as to what to do with the gun, replied,
“[t]hey were not deer hunting.” A-0850.

App.29a
murder without a finding of specific intent, made inconsistent statements regarding accomplice liability,
with some portions properly instructing jurors to find
shared intent and others incorrectly implying the
principal’s intent to kill was grounds for convicting
the accomplice. Mathias, 876 F.3d at 467, 478. Reading
the instruction as a whole, the state court concluded
that Mathias’ due process claim would not have
succeeded on appeal because portions of the instruction
“properly articulated the specific intent requirement.”
Id. at 478-79. In reviewing this decision under AEDPA,
the Mathias Court found that “tension between”
Supreme Court decisions addressing “ambiguous”
jury instructions meant the denial of the ineffective
assistance claim did not constitute an unreasonable
application of Strickland. Id. at 478-9.
Here, we find no such tension in federal law that
would allow the Superior Court’s denial of Tyson’s
claim to withstand even AEDPA’s deferential review.
The instruction was not ambiguous. It instead provided
a consistently incorrect statement of the law that in
effect absolved the prosecution from having to prove
a key element of the status of an accomplice to firstdegree murder. Unlike the instruction in Mathias, no
portion of the instruction articulated the correct
mens rea. The Commonwealth cited the instruction
at length and stated that accomplice liability instruction
was rooted “within [the] context of the actual charge
of first-degree murder.” Br. Appellee, 14. The plain
text of the instruction, however, shows that the charge
of first-degree murder did not articulate the intent
requirement of the accomplice. Given the likelihood
that the jury here convicted Tyson on the mistaken
belief that the mens rea for first-degree murder did not

App.30a
apply to him, we cannot find the conclusory reasoning
of the state court amounted to a reasonable application of Strickland.
IV. Conclusion
Because the court’s instruction did not require
the Commonwealth to meet its burden of proof, we
find counsel’s failure to object constituted deficient
representation. Tyson established prejudice because
there is a reasonable probability that, but for his
counsel’s inaction, he would not have been convicted
as an accomplice to first-degree murder and sentenced
to life in prison. The profound errors in the instruction
were compounded by the prosecutor’s misguided closing
argument and the inconclusive circumstantial evidence
presented to the jury, rendering the state court’s
finding that counsel was not ineffective to be an unreasonable application of Strickland.
We will therefore reverse the District Court’s
order denying habeas corpus relief and remand with
instructions to grant a conditional writ of habeas
corpus regarding Tyson’s conviction for accomplice to
first-degree murder so that the matter may be
remanded to state court for further proceedings consistent with this opinion.

App.31a
MEMORANDUM OPINION OF THE
UNITED STATES DISTRICT COURT FOR THE
MIDDLE DISTRICT OF PENNSYLVANIA
(FEBRUARY 6, 2019)
IN THE UNITED STATES DISTRICT COURT FOR
THE MIDDLE DISTRICT OF PENNSYLVANIA
________________________
AARON EDMONDS TYSON,

Petitioner,
v.
BARRY SMITH, ET AL.,

Respondents.
________________________
Civil No. 3:13-cv-2609
Before: James M. MUNLEY,
United States District Court Judge.
Petitioner Aaron Edmonds Tyson (“Petitioner” or
“Tyson”), a state inmate currently confined at the State
Correctional Institution at Houtzdale, Pennsylvania,
files the instant petition (Doc. 1) for writ of habeas
corpus pursuant to 28 U.S.C. § 2254, seeking relief
from two convictions of murder in the first degree, as
an accomplice, obtained in criminal case 45-CR-8172003, in the Court of Common Pleas of Monroe
County, Pennsylvania. The petition is presently ripe
for disposition. For the reasons set forth below, the
petition will be denied.

App.32a
I.

Federal Court Procedural History

Tyson accompanied his petition, initially filed on
October 22, 2013, with a motion to stay and hold his
petition in abeyance so that he may complete exhaustion of his available state court remedies. (Doc. 2).
Respondents were directed to respond to the petition
and to Tyson’s motion to stay. Following full briefing
on the matter, on February 28, 2014, the Court issued
an Order (Doc. 15) granting the stay and administratively closing the case. The case was reopened in 2014
(Doc. 19) only to be closed again at Tyson’s request to
present new evidence to the state court. (Docs. 28, 31).
In October 2017, Tyson, through counsel, sought to
“reactivate” his petition and to afford him additional
time to amend his petition. (Doc. 34). Tyson did not
amend the petition but, rather, submitted a brief
(Doc. 39) in support of the petition on January 30,
2018. Following several extensions of time, on May 8,
2018, Respondents filed a Response (Doc. 45) and
Exhibits (Docs. 45-1–45-30). Tyson filed a reply brief
(Doc. 47) on May 25, 2018.
II.

State Court Background

The facts underlying Tyson’s murder convictions
are contained in the February 1, 2013 decision of the
Superior Court of Pennsylvania affirming the denial
of his petition filed pursuant to the Post Conviction
Relief Act (“PCRA”), 42 PA.C.S.A. §§ 9541-9546. (Doc.
45-10). The facts are as follows:
On April 24, 2002, [Tyson], Otis Powell
(“Powell”) and Kasine George (“George”)
[drove to a Stroudsburg, Pennsylvania crack
house that they controlled. [Tyson] left the
car in order to resupply the house with

App.33a
drugs. When [Tyson] returned to the vehicle,
Tyson] stated that two white boys had just
pulled a gun on him. George described Tyson
as angry at that time. [Tyson], who was at
that point a passenger in the car, took a [ninemillimeter] handgun from the center console.
[[Tyson] then] racked the slide of the gun,
thus arming it. [Tyson] told Powell, who was
driving, to pull out from the location where
the vehicle was parked.
[Tyson] pointed to a van and indicated [that]
it was being driven by the two who had
pulled a gun on him. With Powell driving,
the three followed the van to a club. When
the two white men entered that club, Powell
gave George a knife [and directed] him to
puncture the tires on the van. George did so
to at least one of the tires. When George
returned to the car, [Tyson] was in the
driver’s seat. Powell was now a passenger
and he asked [Tyson] for the gun. After five
or ten minutes, the two white men exited the
bar, entered the van and left the location.
With [Tyson] now driving, the three again
followed the van. [The van] eventually
stopped due to the flat tire. At that point,
[Tyson] and his two companions were going
to exit the car, but Powell told the other two
to wait. Powell then walked to the van. As
he did so, [Tyson] backed the car to a point
where he and George could see what was
transpiring [around] the van. At that point,
Powell shot [the] two occupants [of the van],
Danial and Keith Fotiathis. . . . [Powell] then

App.34a
ran back to the car. Powell, George[,] and
[Tyson] left the scene [with [Tyson] driving]
the vehicle. The three discussed whether
they should go to New York[,] but eventually
decided to return to their nearby home.
[Daniel Fotiathis] was shot in the neck, the
lower right chest[,] and the lower right
back. Gunshots struck [Keith Fotiathis] in
the lower right back, [the] right elbow[, and
the] right wrist. Trial testimony established
multiple gunshot wounds as the causes of
death for the victims. The manner of each
death was homicide. Police found eight shell
casings from a [nine-millimeter handgun] at
the scene.
George was later arrested on drug charges.
Thereafter, [George] provided information
to authorities regarding the instant case.
[Tyson] was eventually arrested and charged
with the homicide of both victims.

Commonwealth v. Tyson, 947 A.2d 834 (Pa.
Super. 2008)(unpublished memorandum) at
6-8, appeal denied, 989 A.2d 917 (Pa. 2009).
(Doc. 45-10, pp. 1, 2) (“Appellant” in original substituted
with “Tyson”).
Tyson, represented by trial counsel, Attorney
Brian Gaglione, proceed to a jury trial on May 3,
2006. (Id. at 3). The trial concluded on May 9, 2006.
(Id.) The jury found him guilty of two counts of
murder in the first degree, as an accomplice, in the
murders of Daniel and Keith Fotiathis; on July 17,
2006, the trial court sentenced him to the mandatory

App.35a
term of life in prison without the possibility of parole.
(Id.)
He filed a timely post-sentence motion and raised
a number of claims, including claims that his trial
counsel rendered ineffective assistance of counsel.
(Id.) “Following [Tyson’s] trial, [his] trial counsel
resigned from his position as a special public defender.
As a result, prior to [ ] sentencing, [he] received new
appointed counsel [,David W. Skutnik]. See Trial
Court Order, 6/15/06, at 1.” (Id. at 3, n 1). After the
trial court considered, and rejected, all of Tyson’s
claims on the merits, he filed a timely notice of appeal
to the Pennsylvania Superior Court raising the
following issues: “(1) whether there was sufficient
evidence to support the convictions for first degree
murder; (2) whether the trial court erred by allowing
the Commonwealth to introduce evidence showing
that [Tyson’s] coactor shot the victims even though
the cofactor had been acquitted of the shootings; (3)
whether the trial court erred in refusing to allow
[Tyson] to introduce evidence that his coactor had
been acquitted; (4) whether the trial court erred in
not granting a mistrial or in not dismissing a certain
juror after the juror had contact with a victim’s wife;
(5) whether the trial court erred in not recusing itself
after presiding over the acquittal of the coactor; (6)
whether the Commonwealth committed prosecutorial
misconduct during its closing argument; and (7)
whether trial counsel was ineffective in numerous
ways.” (Doc. 12-4, pp. 1, 2). The Superior Court found
no merit to Tyson’s assertions of error. (Doc. 12-4).
Further, “in accordance with Commonwealth v. Grant,
813 A.2d 726 (Pa. 2002), [the court] dismissed [Tyson’s]
ineffective assistance of counsel claims without pre-

App.36a
judice so that [he] could raise the issues within the
context of a post-conviction collateral relief proceeding.”
(Doc. 45-10, p. 3). The court affirmed Tyson’s judgment
of sentence and, on February 23, 2010, the Supreme
Court of Pennsylvania denied his petition for allowance
of appeal. (Id. at 3, 4, citing Commonwealth v. Tyson,
947 A.2d 834 (Pa. Super. 2008) (unpublished memorandum) at 8-18, appeal denied, 989 A.2d 917 (Pa.
2009)).
As detailed below, Tyson then pursued state
court collateral relief:
On November 19, 2010, [Tyson] filed a timely,
pro se PCRA petition. Following the appointment of counsel, [Michael A. Ventrella]
counsel filed an amended PCRA petition
and claimed that [Tyson’s] trial counsel was
ineffective for, among other things: 1)
“fail[ing] to request a jury instruction which
specifically instructed the jury that[, in
order to find [him] guilty of being an
accomplice to first-degree murder, the jury
must find that [he]] had [the] specific intent
to commit first [-] degree murder;” 2) failing
to object to “the Commonwealth’s purported
[trial] theory[,] that the motive for the
shooting of the Fotiathis brothers was
because they ‘interrupted’ the alleged ‘drug
ring;’” 3) failing to timely and properly
present “the alibi witnesses;” 4) failing to
present Omar Powell as a witness; 5) failing
to object to the jury array; 6) failing to object
to the Commonwealth’s closing argument;
and 7) failing to object to “the introduction of
a photograph of the victim and his daughter.”

App.37a
[Tyson’s] Amended PCRA Petition, 3/31/11,
at 1-4.
The PCRA court conducted an evidentiary
hearing and heard testimony from [Tyson],
[Tyson’s] trial counsel, [Tyson’s] direct appeal
counsel, and a purported witness named
Omar Powell. N.T. PCRA Hearing, 10/4/11,
at 1-55.
On February 1, 2012, the PCRA court entered
an order denying [Tyson’s] PCRA petition
and, on March 22, 2012, the PCRA court
issued a comprehensive 62-page opinion,
discussing the reasons why it denied [Tyson]
post-conviction collateral relief. PCRA Court
Opinion, 3/22/12, at 1-62. Moreover, after
receiving [Tyson’s] court-ordered statement
of errors complained of on appeal. The PCRA
Court authored another 18-page opinion,
further discussing why [Tyson’s] claims were
meritless. [footnote omitted]. PCRA Court
Opinion, 4/17/12, at 1-18.
[Tyson], [represented by Attorney Bradley
Warren Weidenbaum] filed a timely notice
of appeal and now raises the following claims
to this Court:
[1.] It was ineffective assistance of counsel to
fail to request a jury instruction concerning
intent to commit first[-]degree murder.
[2.] It was ineffective assistance of counsel to
allow the Commonwealth to introduce evidence of drug dealing when such evidence
was irrelevant and highly prejudicial.

App.38a
[3.] It was ineffective assistance of counsel to
fail to timely and properly present, serve
notice of, and investigate alibi witnesses.
[4.] It was ineffective assistance of counsel to not
present the witness whose testimony provided
a key reason why [Tyson’s] codefendant was
acquitted.
[5.] It was ineffective assistance to fail to object
to the jury array.
[6.] It was ineffective assistance of counsel to
fail to object to the Commonwealth’s closing
argument which attributed a statement to
[Tyson] that he never made.
[7.] It was ineffective assistance of counsel to
fail to object to prejudicial photographs as
evidence.
[Tyson’s] Brief at 3.
(Doc. 45-10, pp. 4-6 (content of footnotes 2, 3 omitted);
Doc. 12-6; Doc. 12-9). On February 1, 2013, in affirming
the denial of PCRA relief, the Superior Court addressed
the first, second and fourth claims on the merits, but
deemed the third, fifth, sixth and seventh claims
waived. (Id. at pp. 8-16).
As set forth supra, on October 22, 2013, Tyson
filed his habeas petition in federal court, which this
Court stayed to afford Tyson the opportunity to
pursue his second PCRA petition, which he had filed
in state court on September 26, 2013. (Doc. 39, p. 14).
The PCRA court denied the second PCRA as untimely.
(Id. at 15). The Superior Court affirmed that decision.
(Id. citing Commonwealth v. Tyson, 3176 EDA 2013
(Pa. Super. Ct., July 16, 2014).

App.39a
Tyson filed a third PCRA in May 2016, which
the PCRA court also denied as untimely. (Id. at 15).
The Superior Court affirmed the denial. (Id. citing
Commonwealth v. Tyson, 2188 EDA 2016 (Pa. Super.
Ct., Mar. 22, 2017)). Thereafter, the Pennsylvania
Supreme Court denied leave to appeal. (Id. citing
Commonwealth v. Tyson, 317 MAL 2017 (Pa. Aug.
28, 2017)).
III. Issues Presented for Federal Review
Tyson presents the following issues for our
review:
I.

The trial court violated the due process clause
of the Fourteenth Amendment when it failed
to instruct the jury that in order to convict
Mr. Tyson of First Degree Murder as an
accomplice, the Commonwealth was required
to prove beyond a reasonable doubt that he
had specific intent to kill; trial counsel
ineffectively failed to object or correct this
plainly erroneous instruction.

II.

Trial counsel ineffectively failed to object to
the admission of overwhelming amounts of
propensity evidence showing that Petitioner
was a violent drug dealer; some of the evidence was objected to, [h]owever, the trial
court permitted it. In toto, Petitioner [sic]
right to due process of law was violated.

III. Counsel ineffectively failed to present the
testimony of witnesses that were presented
in the Otis Powell trial; said witnesses would
have established that Otis Powell was not
present at the scene of the crime and would

App.40a
therefore have challenged the veracity of
Kasine’s [sic] George’s testimony that Petitioner and Powell were involved in the murders.
IV. Trial counsel ineffectively failed to present
the testimony of two witnesses who would
have presented evidence the Kasine George
admitted that he committed the murders.
V.

Trial counsel ineffectively failed to investigate
and present Petitioner’s alibi, and other exculpatory witnesses, and failed to file a proper
notice of alibi, that resulted in the trial court
striking it.

(Doc. 39, pp. 27-72).
IV. Discussion
A habeas corpus petition pursuant to 28 U.S.C.
§ 2254 is the proper mechanism for a prisoner to
challenge the “fact or duration” of his confinement.
Preiser v. Rodriguez, 411 U.S. 475, 498-99 (1973).
Tyson’s case is governed by the Antiterrorism and
Effective Death Penalty Act of 1996, Pub.L.No. 104-132,
110 Stat. 1214, April 24, 1996 (“AEDPA”). 28 U.S.C.
§ 2254, provides, in pertinent part:
(a) The Supreme Court, a Justice thereof, a
circuit judge, or a district court shall entertain an
application for a writ of habeas corpus in behalf
of a person in custody pursuant to the judgment
of a State court only on the ground that he is in
custody in violation of the Constitution or laws
or treaties of the United States.
(b)

App.41a
(1) an application for a writ of habeas corpus on
behalf of a person in custody pursuant to
the judgment of a State court shall not be
granted unless it appears that—
(A) the applicant has exhausted the remedies available in the courts of the State;
[...]
(d) An application for a writ of habeas corpus
on behalf of a person in custody pursuant to the
judgment of a State court shall not be granted
with respect to any claim that was adjudicated
on the merits in State court proceedings unless
the adjudication of the claim—
(1) resulted in a decision that was contrary to
or involved an unreasonable application of,
clearly established Federal law, as determined
by the Supreme Court of the United States; or
(2) resulted in a decision that was based on an
unreasonable determination of the facts in
light of the evidence presented in the State
court proceeding.
28 U.S.C. § 2254. Section 2254 clearly sets limits on
the power of a federal court to grant an application
for a writ of habeas corpus on behalf of a state
prisoner. Cullen v. Pinholster, 536 U.S. 170, 181
(2011); Glenn v. Wynder, 743 F.3d 402, 406 (3d Cir.
2014). A federal court may consider a habeas petition
filed by a state prisoner only “on the ground that he
is in custody in violation of the Constitution or laws
or treaties of the United States.” 28 U.S.C. § 2254(a).
By limiting habeas relief to state conduct which
violates “the Constitution or laws or treaties of the

App.42a
United States,” § 2254 places a high threshold on the
courts. Additionally, relief cannot be granted unless
all available state remedies have been exhausted, or
there is an absence of available state corrective process,
or circumstances exist that render such process ineffective to protect the rights of the applicant. See 28
U.S.C. § 2254(b)(1).
A. Exhaustion and Procedural Default
Habeas relief “shall not be granted unless it
appears that . . . the applicant has exhausted the
remedies available in the courts of the State,” meaning
a state prisoner must “fairly present” his claims in
“one complete round of the state’s established appellate
review process,” before bringing them in federal
court. 28 U.S.C. § 2254(b)(1)(A); see also O’Sullivan
v. Boerckel, 526 U.S. 838, 845 (1999) (stating “[b]ecause
the exhaustion doctrine is designed to give the state
courts a full and fair opportunity to resolve federal
constitutional claims before those claims are presented
to the federal courts, . . . state prisoners must give
the state courts one full opportunity to resolve any
constitutional issues by invoking one complete round
of the State’s established review process.”); see also
Duncan v. Henry, 513 U.S. 364, 365 (1995); Picard v.
Connor, 404 U.S. 270, 275 (1971); Lambert v. Blackwell,
134 F.3d 506, 513 (3d Cir. 1997). The exhaustion
requirement is grounded on principles of comity in
order to ensure that state courts have the initial
opportunity to review federal constitutional challenges
to state convictions. See Werts v. Vaughn, 228 F.3d
178, 192 (3d Cir. 2000).
A petitioner has exhausted a federal claim only
if he or she presented the “substantial equivalent” of

App.43a
the claim to the state court. Picard, 404 U.S. at 278.
To satisfy this requirement, a petitioner must “fairly
present” his federal claim’s “factual and legal substance
to the state courts in a manner that puts them on notice
that a federal claim is being asserted.” Robinson v.
Beard, 762 F.3d 316, 328 (3d Cir. 2014); see Baldwin
v. Reese, 541 U.S. 27, 29 (2004); see McCandless v.
Vaughn, 172 F.3d 255, 261 (3d Cir. 1999).
1. Due Process Claims
In Ground I, Tyson includes a claim that the
trial court violated the due process clause of the
Fourteenth Amendment when it failed to instruct the
jury that in order to convict Tyson of first-degree
murder as an accomplice, the Commonwealth was
required to prove beyond a reasonable doubt that he
had a specific intent to kill. (Doc. 39, p. 27). Tyson
argues that the claim is fully exhausted because the
state court considered the propriety of the jury
instruction in the context of his ineffective assistance
of trial counsel claim in his initial PCRA proceedings.
Respondents disagree and argue that the state courts’
consideration of the jury instructions in the context
of an ineffective assistance of counsel claim does not
constitute fair presentation of the due process claim.
They urge the Court to conclude that the claim is
procedurally defaulted. (Doc. 45, pp. 7-9).
The case of Mathias v. Superintendent Frackville
SCI, 876 F.3d 462, 479 (3d Cir. 2017), cert. denied
sub nom. Mathias v. Brittain, 138 S. Ct. 1707 (2018),
is keenly instructive. In considering whether Mathias’s
due process claim challenging a first-degree murder
instruction was fairly presented for purposes of
exhaustion, the Third Circuit stated as follows:

App.44a
Here, although [Mathias’s] pro se brief mentioned only a claim of ineffective assistance
in the headers to this argument, Mathias
expressly argued in the text of his brief
before the Superior Court that the firstdegree murder instruction itself violated the
Due Process Clause and cited to the Fourteenth Amendment of the United States
Constitution and to relevant United States
Supreme Court cases, including Francis [v.
Franklin, 471 U.S. 307 (1985)], to support
that argument. Under these circumstances,
and recognizing, as we must, that pro se
petitions are to be construed liberally, Rainey
v. Varner, 603 F.3d 189, 198 (3d Cir. 2010);
Commonwealth v. Eller, 569 Pa. 622, 807
A.2d 838, 845 (Pa. 2002), we are satisfied
that Mathias did fairly present his due
process claim to the Superior Court and
that the Superior Court rejected that claim
on the merits—albeit within its discussion
of the ineffective-assistance-of-counsel claim
and based on state cases that incorporated
the federal standard, See Picard v. Connor,
404 U.S. 270, 277-78, 92 S. Ct. 509, 30
L.Ed.2d 438 (1971); McCandless v. Vaughn,
172 F.3d 255, 261 (3d Cir. 1999).

Mathias 876 F.3d at 480 (footnote omitted).1
1 In a footnote clarifying the limited nature of this holding, the
Third Circuit states: “To be clear, we do not hold today that,
simply because a petitioner brings a claim of ineffective assistance
of counsel or a state court adjudicates that claim, every claim
counsel is allegedly deficient for failing to raise necessarily has
been fairly presented to the state court as a federal claim.

App.45a
Similarly, in his initial PCRA proceedings and
his PCRA appellate brief, Tyson argued that the
defective nature of the jury instructions denied him
his right to a fair trial as guaranteed under the
Fourteenth Amendment and cites to the case of
Baker v. Horn, 383 F. Supp. 2d 720, 771 (2005). (Doc.
12-9, pp. 5, 23; Doc. 45-6, p. 2). And, in considering
the PCRA appeal, the Superior Court discussed the
jury instructions at length, albeit in the context of its
discussion of the ineffective assistance of counsel
claim. Thus, the Court is satisfied that Tyson, like
Mathias, fairly presented his due process claim to
the Superior Court and that the Superior Court
rejected the claim on the merits. Consequently, we
will consider the merits of the claim in accordance
with the deferential AEDPA standard.
In Ground II, Tyson asserts that the trial court’s
admission of prior bad act evidence violated his due
process rights. Respondents also argue that this claim
is procedurally defaulted. Unlike Ground I, Tyson
concedes that the due process argument in this
ground is, in fact, procedurally defaulted because it
was not presented to the state courts. (Doc. 39, pp.
54-57; Doc. 47, p. 10). He argues, however, that “he
can overcome the default of all or portions of each of
those claims via Martinez v. Ryan.” (Doc. 48, p. 3).
Specifically, he argues that “[a]s to the arguably
Indeed, that would effect a novel, gaping, and unwarranted
expansion of federal habeas review, particularly as petitioners
may discuss and state courts may analyze the alleged deficiency
exclusively in terms of state law . . . We hold only that where,
as here, a pro se petitioner has expressly identified the claim
that counsel allegedly failed to raise as a federal constitutional
claim and has briefed the merits of that claim by citing to federal cases, the claim has been properly exhausted.” Id.

App.46a
defaulted grounds in this litigation, owing to the
ineffective assistance of initial post-conviction counsel,
Mr. Tyson has pled “cause” to overcome the default of
these claims . . . .” (Id. at 5).
“When a claim is not exhausted because it has
not been ‘fairly presented’ to the state courts, but
state procedural rules bar the applicant from seeking
further relief in state courts, [as is the case here,] the
exhaustion requirement is satisfied because there is
‘an absence of available State corrective process.’ 28
U.S.C. § 2254(b). In such cases, however, applicants
are considered to have procedurally defaulted their
claims and federal courts may not consider the merits
of such claims unless the applicant establishes ‘cause
and prejudice’ or a ‘fundamental miscarriage of justice’
to excuse his or her default. See Coleman v. Thompson,
501 U.S. 722, 750, 111 S. Ct. 2546, 115 L.Ed.2d 640
(1991).” McCandless, 172 F.3d at 260.
To demonstrate “cause” for a procedural default,
a petitioner must point to some objective external
factor which impeded his efforts to comply with the
state’s procedural rule. See Murray v. Carrier, 477
U.S. 478, 488 (1986). “Prejudice” will be satisfied
only if he can demonstrate that the outcome of the
state proceeding was “unreliable or fundamentally
unfair” as a result of a violation of federal law. See
Lockhart v. Fretwell, 506 U.S. 364, 366 (1993).
The Martinez v. Ryan, 566 U.S. 1 (2010) case
recognized a “narrow exception” to the general rule
that attorney errors in collateral proceedings do not
establish cause to excuse a procedural default. Specifically, Martinez holds that “[i]nadequate assistance of counsel at initial-review collateral proceedings may establish cause for a prisoner’s procedural

App.47a
default of a claim of ineffective assistance at trial.”
566 U.S. at 9, 132 S. Ct. 1309. To successfully invoke
the Martinez exception, a petitioner must satisfy two
factors: that the underlying, otherwise defaulted,
claim of ineffective assistance of trial counsel is “substantial,” meaning that it has “some merit,” id. at 14,
132 S. Ct. 1309; and that petitioner had “no counsel”
or “ineffective” counsel during the initial phase of the
state collateral review proceeding. Id. at 17, 132 S. Ct.
1309; see also Glenn v. Wynder, 743 F.3d 402, 410
(3d Cir. 2014).
With respect to the due process claim contained
in Ground II, because Martinez applies only to
defaulted claims of ineffective assistance of trial
counsel, Tyson’s argument that PCRA counsel’s failure
to raise a due process claim due to trial court error
fails. See Davila v. Davis, ___ U.S. ___, 137 S. Ct.
2058, 2065 (2017) (declining to extend Martinez to
defaulted claims of ineffective assistance of appellate
counsel); Murray v. Diguglielmo, No. 09-4960, 2016
WL 3476255, at *4 (E.D. Pa. June 27, 2016) (“These
claims do not involve ineffective assistance of [trial]
counsel. Martinez does not apply.”). The procedural
default of this claim renders federal review unavailable.
2. Ineffective Assistance of Counsel Claims
In Ground II, Tyson also seeks to excuse the
procedural default of the portion of his ineffective
assistance of counsel claim concerning the admission
of evidence through means other than the testimony
of Detective Wolbert. Review of the Superior Court
opinion reveals that the state court considered the
whole of the introduction of evidence of drug dealing
and did not limit its analysis to Detective Wolbert’s

App.48a
testimony. Consequently, we consider the issue of
counsel’s ineffective assistance of counsel with regard
to allowing the Commonwealth to introduce evidence
of drug dealing when the evidence was irrelevant
and highly prejudicial, to be fairly presented and
exhausted. We will review this issue, infra, as presented
to the state courts and adjudicated on the merits, to
wit, “trial counsel rendered ineffective assistance by
‘allow[ing] the Commonwealth to introduce evidence
of [Tyson’s] drug dealing.’” (Doc. 45-10, quoting Tyson’s
appellate brief).
In his Third, Fourth, and Fifth Grounds, Tyson
contends that trial counsel was ineffective for failing
to present testimony of various exculpatory and alibi
witnesses, including Omar Powell, and for filing an
untimely notice of alibi witnesses. (Doc. 39, pp. 6272). Tyson claims that “[a] claim of ineffectiveness
related to trial counsel’s failure to call Otis Powell
and his ‘clan’ was raised in his initial PCRA proceedings.” (Doc. 39, p. 64). He indicates that trial counsel
testified as to this issue at the PCRA hearing, but
there was no ruling and that that “[i]nitial PCRA
counsel ineffectively failed to correct this testimony
and point out the absence of a court ruling on this
point.” (Id.) Tyson argues that, to the extent that
there is any procedural default, it is due to the
ineffectiveness of PCRA counsel, Attorney Ventrella,
and, therefore, he “overcomes the ostensible default via
Martinez.” (Doc. 39, pp. 64-68, 71; Doc. 47, pp. 12, 13).
The Superior Court stated as follows:
Within [Tyson’s] brief to this Court, [Tyson]
listed a number of other “possible and
important witnesses” that, [Tyson] contends,
could have been called at trial. [Tyson’s]

App.49a
Brief at 27. Yet, with the exception of Omar
Powell, [Tyson] has not explained why counsel
was ineffective for failing to call the listed
witness. See id. Therefore, [Tyson] has only
preserved the claim that counsel was ineffective for failing to call Omar Powell as a
witness. See Commonwealth v. Clayton, 816
A.2d 217, 221 (Pa. 2002) (“it is a well-settled
principle of appellate jurisprudence that
undeveloped claims are waived and unreviewable on appeal”). Further, under this heading,
[Tyson] claims—in passing—that trial counsel
was ineffective for filing an untimely notice
of alibi witnesses. [Tyson’s] Brief at 26. This
claim is completely undeveloped and, thus,
waived. Clayton, 816 A.2d at 221.
(Doc. 45-10, p 15, n 5). With the exception of the claim
raised in Ground IV, that counsel was ineffective for
failing to call Omar Powell as a witness, all of the
claims contained in Grounds III, IV and V were
deemed waived pursuant to a state rule governing
appellate jurisprudence. A state rule is “adequate”
for procedural default purposes if it was “firmly
established, readily ascertainable, and regularly
followed at the time of the purported default.” Szuchon
v. Lehman, 273 F.3d 299, 327 (3d Cir. 2001). These
requirements ensure that “federal review is not barred
unless a habeas petitioner had fair notice of the need
to follow the state procedural rule,” and that review
is foreclosed by “what may honestly be called
‘rules’ . . . of general applicability[,] rather than by
whim or prejudice against a claim or claimant.”
Leyva v. Williams, 504 F.3d 357, 366 (3d Cir. 2007)

App.50a
(quoting Bronshtein v. Horn, 404 F.3d 700, 707 (3d
Cir. 2005)).
There is no dispute that the waiver rule was
firmly established, readily ascertainable, and regularly
followed at the time of the default. The record
demonstrates that Attorney Ventrella presented these
issues in the initial PCRA proceedings. Contrary to
Tyson’s assertion, the procedural default of these
claims is not attributable to PCRA counsel. Rather, it
is directly attributable to the failure of PCRA appellate
counsel, Attorney Weidenbaum, to adequately develop
and preserve the issues for appellate review. Because
Martinez only applies when the petitioner had “no
counsel” or “ineffective” counsel during the initial
phase of the state collateral review proceeding, it
does not provide cause to overcome the default of
Grounds III, IV and V. Consequently, there is no basis
on which to excuse his procedural default of these
claims. With the exception of the ineffective assistance claim asserting the failure to call Omar Powell
as a witness in Ground IV, which will be addressed
below, federal review is precluded as to Grounds III,
IV and V.
B. Claims Adjudicated on the Merits by the
State Courts
Under the AEDPA, federal courts reviewing a state
prisoner’s application for a writ of habeas corpus may
not grant relief “with respect to any claim that was
adjudicated on the merits in State court proceedings”
unless the claim (1) “resulted in a decision that was
contrary to, or involved an unreasonable application
of, clearly established Federal law, as determined by
the Supreme Court of the United States” or (2)

App.51a
“resulted in a decision that was based on an unreasonable determination of the facts in light of the evidence presented in the State court proceeding.” 28
U.S.C. § 2254(d).
“[B]ecause the purpose of AEDPA is to ensure
that federal habeas relief functions as a guard against
extreme malfunctions in the state criminal justice
systems, and not as a means of error correction,”
Greene v. Fisher, 565 U.S. 34, 38 (2011) (internal
quotations and citations omitted), “[t]his is a difficult
to meet and highly deferential standard . . . which
demands that state-court decisions be given the
benefit of the doubt.” Cullen, 563 U.S. at 181(internal
quotation marks and citation omitted). The burden is
on Tyson to prove entitlement to the writ. Id.
A decision is “contrary to” federal law if “the
state court applies a rule that contradicts the governing
law set forth in [Supreme Court] cases” or “if the
state court confronts a set of facts that are materially
indistinguishable from a decision of [the Supreme]
Court and nevertheless arrives at a result different
from [Supreme Court] precedent.” Williams v. Taylor,
529 U.S. 362, 405-06 (2000). “[A] state court decision
reflects an ‘unreasonable application of such law’
only ‘where there is no possibility fairminded jurists
could disagree that the state court’s decision conflicts
with [the Supreme] Court’s precedents,’ a standard
the Supreme Court has advised is ‘difficult to meet’
because it was ‘meant to be.’ [Harrison v.] Richter,
562 U.S. 86, [ ] 102, 131 S. Ct. 770. As the Supreme
Court has cautioned, an ‘unreasonable application of
federal law is different from an incorrect application
of federal law,’ Richter, 562 U.S. at 101, 131 S. Ct. 770
(quoting Williams, 529 U.S. at 410, 120 S. Ct. 1495),

App.52a
and whether we ‘conclude[ ] in [our] independent judgment that the relevant state-court decision applied
clearly established federal law erroneously or incorrectly’ is irrelevant, as AEDPA sets a higher bar.
Williams, 529 U.S. at 411, 120 S. Ct. 1495.” Mathias,
876 F.3d at 476. A decision is based on an “unreasonable determination of the facts” if the state court’s
factual findings are objectively unreasonable in light
of the evidence presented to the state court. Miller-El
v. Cockrell, 537 U.S. 322, 340 (2003).
Finally, Section 2254(e) provides that “[i]n a proceeding instituted by an application for a writ of
habeas corpus by a person in custody pursuant to the
judgment of a State court, a determination of a factual
issue shall be presumed to be correct. The applicant
shall have the burden of rebutting the presumption
of correctness by clear and convincing evidence.” 28
U.S.C. § 2254(e)(1).
1. Ground I
Tyson raises two separate challenges to the jury
instructions in Ground I. He first argues that the trial
court violated the due process clause of the Fourteenth
Amendment when it failed to instruct the jury, in the
original instructions and in the supplemental instructions in response to the jury’s question, that in order
to convict him of first degree murder as an accomplice,
the Commonwealth was required to prove beyond a
reasonable doubt that he had to share with Powell a
specific intent to kill. (Doc. 39, pp. 27, 34, 35, 38-40).
It is his position that the instructions “permitted a
finding that Mr. Tyson had a specific intent to kill if
he had an intent to commit ‘a’ crime—any crime—and
his alleged accomplice (Powell) had a specific intent

App.53a
to kill. This violated due process of law because in
this case, Petitioner could reasonably have been found
to have intent to commit multiple offenses other than
murder in the first degree.” (Id. at 30, 34). In his second
argument, he contends that trial counsel’s failure to
object to the jury instructions constituted ineffective
assistance of counsel in violation of the Sixth Amendment. (Id. at 27, 38-40). He seeks relief on the grounds
that the Superior Court’s decisions on these claims
were contrary to, and involved an unreasonable application of, Supreme Court precedent. (Id. at 43).
The Superior Court addressed the claim as follows:
First, [Tyson] claims that trial counsel was
ineffective for failing to object to the trial
court’s “accomplice liability” jury instruction.
According to [Tyson] the trial court failed to
instruct the jury that, “[i]n order to [convict
[Tyson]] of murder in the first degree as an
accomplice, the Commonwealth [was] required
to show that [Tyson] had the specific intent
to commit first[-]degree murder.” [Tyson’s]
Brief at 8. [Tyson] claims that our Supreme
Court’s opinion in Commonwealth v. Huffman, 638 A.2d 961 (Pa. 1994) [content of
footnote follows] is “exactly on point” and
demands that he receive a new trial. [Tyson’s]
Brief at 8. We disagree. [Our Supreme Court
has since partially overruled Huffman. Within
both Commonwealth v. Daniels, 963 A.2d
409, 429 (Pa. 2009) and Commonwealth v.
Maisonet, 31 A.3d 689, 694 n.2 (Pa. 2011),
our Supreme Court recognized that Huffman
erroneously failed to view the trial court’s
jury instruction as a whole. See Maisonet,

App.54a
31 A.3d at 694 n. 2 (citing Daniels for the
proposition that the high Court “has since
effectively overruled Huffman”).]
Our Supreme Court has held:
It is well-settled that when reviewing the
adequacy of a jury instruction, we must
consider the charge in its entirety to determine if it is fair and complete. The trial
court has broad discretion in phrasing the
charge and the instruction will not be found
in error if, taken as a whole, it adequately
and accurately set forth the applicable law.

Daniels, 963 A.2d at 430 (internal citation omitted).
Before a jury may find a defendant guilty of
first-degree murder as an accomplice, the jury must
find–beyond a reasonable doubt–that the defendant
possessed a specific intent to kill. 18 Pa. C.S.A. § 306(d);
18 Pa. C.S.A. § 2502(a); Commonwealth v. Koehler,
36 A.3d 121, 155 (Pa. 2012). Thus, in Huffman, our
Supreme Court held that it was erroneous for a trial
court to instruct the jury “that they may find an
accomplice guilty of murder in the first degree even if
he did not have the specific intent to kill.” Huffman,
638 A.2d at 962. As the PCRA court has thoroughly
explained, however, the trial court’s jury instructions
in this case—when considered as a whole—“adequately
and accurately set forth the applicable law” regarding accomplice liability. Daniels, 963 A.2d at 430.
Moreover, the instructions indeed informed the jury
that, to convict [Tyson] of first-degree murder as an
accomplice, the jury was required to find that [Tyson]
independently possessed the specific intent to kill. As
the PCRA court explained:

App.55a
The record reflects that the trial [court]
instructed the jury on murder [in] the first
degree . . . [and that this instruction] included
a definition of specific intent. The trial [court]
also instructed the jury on accomplice liability
as follows:
You may find [Tyson] guilty of the crime
without finding that he personally performed the acts required for the commission of that crime. [Tyson] is guilty of a
crime if he is an accomplice of another
person who commits the crime. He is an
accomplice if with the intent to promote
or facilitate the commission of the crime[,]
he encourages, requests or commands the
other person to commit it or agrees or
aids or agrees to aid or attempts to aid
the other person in planning, organizing,
[or] committing it.
You may find [Tyson] guilty of a crime on
the theory that he was an accomplice as
long as you are satisfied beyond a reasonable doubt that the crime was committed
[and] that [Tyson] was an accomplice of
the person who actually committed the
crime. And it does not matter whether
the person who you believe committed the
crime has been convicted of a different
crime or different degree of the crime or
has immunity from prosecution or conviction.
[N.T. Trial, 5/9/06, at 694.]

App.56a
The trial transcript further reflects that
during deliberations, the jury returned to
the courtroom and asked for clarification
on the difference between first and third
degree murder. The trial [court] responded
by restating the elements that must be
established for first degree murder, third
degree murder and accomplice liability.
After restating the elements of first degree
murder, the [trial court repeated and
clarified] the definition [ ] of specific intent.
. . . The [trial court] also instructed the
jury that: “in this particular case because
there is a charge of an accomplice almost
by definition it encompasses the concept
of first degree murder by its very definition, an accomplice with the planning
and the coordination if you, in fact, found
to be so indicate that was first degree
murder.”
[After reviewing these] jury instructions,
as a whole, [it is apparent] that the instructions were sufficient to inform the
jury that in order to find [Tyson] guilty
of first degree murder as an accomplice,
the Commonwealth must [have] establish[ed] beyond a reasonable doubt that
[Tyson] had the shared specific intent to
kill the Fotiathis [b]rothers. Furthermore, the evidence presented to the jury
during the trial revealed that [Tyson’s]
conduct was willful, deliberate[,] and
premeditated and that he actively participated in the murders by aiding the

App.57a
shooter, Otis Powell. [Tyson] identified the
intended victims to Otis Powell and Kasine
George; he told Powell to drive the car in
pursuit of the victims and later drove the
car himself while still following the
victims; he produced the murder weapon,
which he gave to Powell who used it to
inflict fatal wounds to vital areas of the
victims’ bodies; and [,] after the shooting,
he aided Powell in fleeing the scene. The
actions of [Tyson] were overt and clearly
showed [that [Tyson] intended to murder
the victims].
PCRA Court Opinion, 4/17/12, at 6-7
(internal citations omitted).
We agree with the cogent analysis of the
PCRA court and conclude that, since [Tyson’s]
underlying claim has no merit, [Tyson’s] first
ineffective assistance of counsel claim fails.
(Doc. 45-10, pp. 8-11).
We first consider the due process claim. Due
process is violated when a jury instruction relieves
the government of its burden of proving every element
beyond a reasonable doubt. See Waddington v. Sarausad, 555 U.S. 179, 190–91 (2009); Sandstrom v.
Montana, 442 U.S. 510, 521, 99 (1979). Due process
review is governed by the following standards:
Even if there is some “ambiguity, inconsistency, or deficiency” in the instruction, such an
error does not necessarily constitute a due
process violation. Middleton, supra, at 437,
124 S. Ct. 1830. Rather, the defendant must
show both that the instruction was ambiguous

App.58a
and that there was “‘a reasonable likelihood’”
that the jury applied the instruction in a
way that relieved the State of its burden of
proving every element of the crime beyond a
reasonable doubt. Estelle, supra, at 72, 112
S. Ct. 475 (quoting Boyde v. California, 494
U.S. 370, 380, 110 S. Ct. 1190, 108 L.Ed.2d
316 (1990)). In making this determination,
the jury instruction “‘may not be judged in
artificial isolation,’ but must be considered
in the context of the instructions as a whole
and the trial record.” Estelle, supra, at 72,
112 S. Ct. 475 (quoting Cupp v. Naughten,
414 U.S. 141, 147, 94 S. Ct. 396, 38 L.Ed.2d
368 (1973)).

Waddington, 555 U.S. at 190–91 (rejecting a habeas
petitioner’s claim that an accomplice liability instruction
violated due process).
In accordance with applicable Pennsylvania
criminal statutes and caselaw, the Superior Court
stated that “[b]efore a jury may find a defendant
guilty of first-degree murder as an accomplice, the
jury must find—beyond a reasonable doubt—that the
defendant possessed the specific intent to kill.” (Doc.
45-10, p. 8). The Superior Court evaluated the jury
instructions as a whole and determined that they
adequately and accurately set forth the applicable
law regarding accomplice liability, and “indeed informed
the jury that to convict [Tyson] of first-degree murder
as an accomplice, the jury was required to find that
[Tyson] independently possessed the specific intent
to kill.” (Id. at 9, 10). The Superior Court adopted the
PCRA court’s recitation of the evidence presented to
the jury and concurred with the PCRA court’s conclu-

App.59a
sion that “the instructions were sufficient to inform
the jury that in order to find [Tyson] guilty of first
degree murder as an accomplice, the Commonwealth
must have establish[ed] beyond a reasonable doubt
that [Tyson] had the shared specific intent to kill the
Fotiathis [b]rothers.” (Id. at 10). The manner in
which the Superior Court conducted its review is
congruous with, and a proper and reasonable application of, the clearly established Supreme Court due
process test applicable to an analysis of the constitutionality of jury instructions. See Estelle, 502 U.S. at
72. Tyson is not entitled to relief on this claim.
Nor is he entitled to relief on the ineffective
assistance of counsel claim. The Superior Court applied
the following standard of review to its analysis of
Tyson’s ineffective assistance of trial counsel claims:
To be eligible for relief under the PCRA, the
petitioner must plead and prove by a preponderance of the evidence that his conviction
or sentence resulted from “one or more” of the
seven, specifically enumerated circumstances
listed in 42 Pa.C.S.A. § 9543(a)(2). One of
these statutorily enumerated circumstances
is the “[i]neffective assistance of counsel
which, in the circumstances of the particular
case, so undermined the truth-determining
process that no reliable adjudication of guilt
or innocence could have taken place.” 42 Pa.
C.S.A. § 9543(a)(2)(ii).
Counsel is, however, presumed to be effective
and “the burden of demonstrating ineffectiveness rests on [A]ppellant.” [Commonwealth
v.] Rivera, 10 A.3d [1276] at 1279. To satisfy

App.60a
this burden Appellant must plead and prove
by a preponderance of evidence that:
(1) his underlying claim is of arguable
merit; (2) the particular course of conduct
pursued by counsel did not have some
reasonable basis designed to effectuate
his interests; and, (3) but for counsel’s
ineffectiveness, there is a reasonable probability that the outcome of the challenged
proceedings would have been different.

Commonwealth v. Fulton, 830 A.2d 567, 572
(Pa. 2003). “A failure to satisfy any prong of
the test for ineffectiveness will require rejection of the claim.” Id.
(Doc. 45-10, p. 7).
The clearly established Federal law governing
ineffective assistance of counsel claims, as determined
by the Supreme Court of the United States is as
follows:
Ineffective assistance of counsel claims are
“governed by the familiar two-prong test set
forth in Strickland v. Washington, 466 U.S.
668, 104 S. Ct. 2052, 80 L.Ed.2d 674 (1984).”
Shelton v. Carroll, 464 F.3d 423, 438 (3d Cir.
2006) (citing Wiggins v. Smith, 539 U.S.
510, 521, 123 S. Ct. 2527, 156 L.Ed.2d 471
(2003)). For AEDPA purposes, the Strickland
test qualifies as “clearly established Federal
law, as determined by the Supreme Court.”
Williams, 529 U.S. at 391, 120 S. Ct. 1495.
Under Strickland, a habeas petitioner must
demonstrate that: (1) counsel’s representation fell below an objective standard of rea-

App.61a
sonableness; and (2) there is a reasonable
probability that, but for counsel’s error, the
result would have been different. 466 U.S.
at 687, 104 S. Ct. 2052. For the deficient
performance prong, “[t]he proper measure of
attorney performance remains simply reasonableness under prevailing professional
norms.” Id. at 688, 104 S. Ct. 2052. This
review is deferential:
A fair assessment of attorney performance
requires that every effort be made to eliminate the distorting effects of hindsight, to
reconstruct the circumstances of counsel’s
challenged conduct, and to evaluate the
conduct from counsel’s perspective at the
time. Because of the difficulties inherent
in making the evaluation, a court must
indulge a strong presumption that counsel’s conduct falls within the wide range
of reasonable professional assistance. . . .

Id. at 689, 104 S. Ct. 2052
Not every “error by counsel, even if professionally unreasonable, . . . warrant[s] setting
aside the judgment of a criminal proceeding.”
Id. at 691, 104 S. Ct. 2052. “Even if a defendant shows that particular errors of counsel
were unreasonable, . . . the defendant must
show that they actually had an adverse effect
on the defense”; in other words, the habeas
petitioner must show that he was prejudiced
by counsel’s deficient performance. Id. at
693, 104 S. Ct. 2052. To establish prejudice,
“[t]he defendant must show that there is a
reasonable probability that, but for counsel’s

App.62a
unprofessional errors, the result of the proceeding would have been different. A reasonable probability is a probability sufficient
to undermine confidence in the outcome.” Id.
at 694, 104 S. Ct. 2052.
In assessing an ineffective assistance of
counsel claim, “the ultimate focus of inquiry
must be on the fundamental fairness of the
proceeding. . . . In every case the court should
be concerned with whether . . . the result of
the particular proceeding is unreliable because
of a breakdown in the adversarial process
that our system counts on to produce just
results.” Id. at 696, 104 S. Ct. 2052.

Rainey v. Varner, 603 F.3d 189, 197–98 (3d Cir. 2010).
The Third Circuit has specifically held that the very
ineffectiveness assistance of counsel test relied upon
by the Superior Court in this matter is not contrary
to the Supreme Court’s Strickland standard. See
Werts v. Vaughn, 228 F.3d 178, 204 (3d Cir. 2000).
When the state court has decided the claim on
the merits, “[t]he question ‘is not whether a federal
court believes the state court’s determination’ under
the Strickland standard ‘was incorrect but whether
that determination was unreasonable—a substantially
higher threshold.’” Knowles v. Mirzayance, 556 U.S.
111, 123 (2009) (quoting Schriro v. Landrigan, 550
U.S. 465, 473 (2007)). “And, because the Strickland
standard is a general standard, a state court has
even more latitude to reasonably determine that a
defendant has not satisfied that standard.” Id.
Tyson contends that trial counsel was ineffective
for failing to object to the trial court’s “plainly

App.63a
erroneous” accomplice liability jury instruction. (Doc.
39, p. 27). It is evident from the above due process
analysis that the Superior Court reasonably concluded
that the underlying claim challenging the constitutionality of the jury instructions had no merit. Because
“counsel cannot be deemed ineffective for failing to
raise a meritless claim,” the Superior Court’s determination that Tyson was not entitled to relief on the
ineffective assistance of counsel claim was neither
contrary to, nor an unreasonable application of Strickland. See Werts, 228 F.3d at 203.
2. Ground II
The Superior Court also concluded that Tyson
was not entitled to relief on his second ineffective
assistance of counsel claim because the underlying
claim, “that his trial counsel rendered ineffective
assistance by ‘allow[ing] the Commonwealth to
introduce evidence of [Tyson’s] drug dealing.’ [Tyson’s]
Brief at 24[,]” had no merit. (Doc. 45-10, pp. 6, 11). In
citing to state law, the Superior Court recognized the
broad latitude and discretion afforded trial judges in
determining the admissibility of evidence and observed
that such determinations would not be disturbed
absent an abuse of discretion. (Id. at 11). The court
opined that under Rule 404(b) of the Pennsylvania
Rules of Evidence, and according to Pennsylvania case
law, the other act evidence was admissible because,
as explained by the trial court, it was “not used to
show his propensity for committing bad acts, but
rather the bad acts (i.e. his drug dealing) were part
of a chain or sequence of events that formed the
history of the case and were part of its natural development.” (Id. at 12, 13, citing Trial Court Opinion,
2/15/07, at 19 (internal citations omitted)”). The

App.64a
court further noted “that evidence of Tyson’s drug
dealing was also highly relevant to explain the motive
behind the shootings.” (Id. at 13).
This Court cannot review the Superior Court’s
determination that the other act evidence was
admissible as a matter of Pennsylvania law as “it is
not the province of a federal habeas court to reexamine
state-court determinations on state-law questions.”
Estelle v. McGuire, 502 U.S. 62, 67–68 (1991). Further,
when the state court finds the underlying state law
claim meritless and thus, concludes that the petitioner’s
counsel was not ineffective, the federal habeas court
is bound by that ruling. Priester v. Vaughn, 382 F.3d
394, 402 (3d Cir. 2004).
3. Ground IV
In his fourth ground, Tyson claims that trial
counsel was ineffective for failing to present Omar
Powell as a witness. Omar Powell, the brother of the
alleged shooter, Otis Powell, testified at his brother’s
trial that, while they were incarcerated at the Pike
County Jail, Kasine George admitted that he killed
the Fotiathis brothers. (Doc. 39, p. 66). He testified
that during the course of an argument, Kasine George
told him that Otis Powell “was going for my bodies,”
which indicates that Kasine George was the actual
killer. (Id.) Tyson claims that trial counsel was aware
that Omar Powell provided this testimony because
he was in possession of Otis Powell’s trial transcripts
and, that his failure to present Omar Powell as a
witness, constituted ineffective assistance of counsel.
(Id.) He argues that “[i]n any event the state court
finding that counsel was unaware of the existence of
Omar Powell and could not have known of him, was

App.65a
patently unsupported by the state court record and
relief is available per 28 U.S.C. § 2254(d)(2).” (Id. at 68).
In considering the claim the Superior Court relied
on Pennsylvania Supreme Court precedent which
dictates that, in order “[t]o prevail on a claim of
ineffectiveness for failure to call a witness, the appellant must demonstrate that: (1) the witness existed;
(2) the witness was available; (3) trial counsel was
informed of the existence of the witness or should
have known of the witness’ existence; (4) the witness
was prepared to cooperate and would have testified
on appellant’s behalf; and (5) the absence of the
testimony prejudiced appellant. Commonwealth v.
Malloy, 856 A.2d 767, 782 (Pa. 2004).” (Doc. 45-10, p.
13). In rejecting the ineffectiveness claim the court
stated as follows:
At the PCRA hearing, the PCRA court heard
the testimony of Appellant, Appellant’s trial
counsel, and Omar Powell and concluded
that trial counsel neither knew nor could
have known of Omar Powell’s purported
testimony. Indeed, during the PCRA hearing,
Appellant’s trial counsel testified that he
did not remember ever hearing the name of
Omar Powell. N.T. PCRA Hearing, 10/4/11,
at 16. Moreover, Omar Powell testified: “I
don’t think that [Appellant’s trial counsel]
ever knew [about my existence] because
nobody never told him as far as anything
that came out of [Otis Powell’s] case.” Id. at
52. Given this testimony, we agree with the
PCRA court and conclude that Appellant’s
ineffectiveness claim fails, as counsel neither

App.66a
knew nor could have known of Omar Powell’s
purported testimony. Malloy, 856 A.2d at 782.
(Doc. 45-10, pp. 13, 14).
The Superior Court found support on the record
for the PCRA Court’s determination that trial counsel
and Omar Powell, both of whom testified at the
PCRA hearing, were credible and it adopted that determination of the PCRA Court on that basis. After
concluding that “counsel neither knew nor could
have known of Omar Powell’s purported testimony”
the Superior Court denied the ineffective assistance
of counsel claim under Commonwealth v. Malloy, 856
A.2d 767, 782 (Pa. 2004). (Doc. 45-10, p. 13).
PCRA counsel, Attorney Ventrella, elicited the
following testimony from Attorney Gaglione at the
PCRA hearing:
Q.

Speaking of witnesses and the scene and
things like that, the other jury actually was
brought to the scene of the crime to see how
dark it was. And how far the alley went
down and whether the witness could see
everything he said he could see. Why did
you decide not to do that?

A.

I don’t have an answer to that. I felt the
focus of the case was more on the witness
who placed my client there. You know. If
the witness placed my client at the scene is
somebody who was familiar with my client
he was, according to his own testimony, in
the same car as my client. According to this
testimony he discussed the situation with
my client prior to the actual homicide. So I
mean it really was not an issue for me as to

App.67a
whether or not, you know, somebody was
going to believe that, you know, that they
saw what they saw.
If they believed this witness for the prosecution and they bought his word and they
didn’t just discredit him because of the fact
that he was a drug dealer trying to extricate
himself from his own problem, if they
believed him I considered my client was
probably going to go down. And if they
didn’t believe him that is where I was, you
know, where I was basing my trial strategy.
I figured that was the best way to get my
client out of this. Just to try and discredit
the testimony of the many witnesses of the
prosecution, the rollover of the prosecution.
That is the reason.
Q.

Do you believe Omar Powell would have
helped you in that regard with his testimony?

A.

Well, I actually had him subpoenaed and
brought him to the trial. I was thinking
possibly of putting him up there but there
was really nothing of any relevance that I
could not put him up there and say he was
acquitted. You know, it really was not
relevant. And I couldn’t say that he—

Q.

Okay.

A.

—he had indicated that he was at a party at
the time. I just—I didn’t think that was going
to work. The judge was going to exclude it
anyway.

Q.

You are talking about Otis not Omar. Otis.

App.68a
A.

Whatever his name is. Yeah. I don’t know.

Q.

It is Otis Powell. Otis was the one who was
acquitted.

A.

Okay. That is the guy I am talking about.

Q.

And you—

A.

Is that the one you are talking about?

Q.

Not originally but we can talk about him
first. You didn’t call Otis for the reasons
just stated, correct?

A.

Correct.

Q.

Omar. Do you remember Omar Powell?

A.

No.

Q.

Omar had testified that Kasine George had
admitted to the homicides and was a witness
in Otis’ trial helping to get the acquittal; do
you remember that?

A.

I can’t remember who Kasine George is. Was
he the same individual who had testified
against my client?

Q.

Yes.

A.

Yes?

Q.

Yes.

A.

So can you repeat the question? I am not
exactly sure—I didn’t quite follow that.

Q.

Do you remember who Omar Powell was
first of all?

A.

No.

App.69a
Q.

And you didn’t call him as a witness
obviously?

A.

No.

Q.

Did you call the corrections officer from Pike
County who also testified in Otis’ case?

A.

I didn’t call any witnesses.

Q.

Did you call my client as a witness?

A.

I didn’t call any witnesses.

Q.

Okay. And you did not call Louis Davenport
as well?

A.

I think I answered. I didn’t call any witnesses.

(Doc. 45-16, pp. 13-16).
Additionally, Attorney Gaglione testified to the
following when cross-examined by the assistant district
attorney:
Q.

At the time of your investigation to represent
Mr. Tyson did you know who Omar Powell
was?

A.

Omar or Otis?

Q.

Omar.

A.

I can’t remember. I only remember one person
named Powell involved in the case. Again,
we are going back six years. I don’t have the
file in front of me. I can’t remember anybody
other than the one Powell. The name that
sticks out in my head. And that was the
gentleman who was one of the alleged coconspirators in the case. That was the only
Powell that I remember.

App.70a
(Id. at 23, 24).
And Omar Powell testified at the hearing as
follows:
Q.

Were you ever called to testify in Mr. Tyson’s
case?

A.

No.

Q.

Were you subpoenaed?

A.

No.

Q.

So you were not brought in?

A.

I don’t think that Mr. Gaglione ever knew
because nobody never told him as far as
anything that came out of my brother’s case.
I don’t think the prosecutor handed him
over that information.

Q.

So you don’t know if Mr. Gaglione even was
aware of this?

A.

No.

(Id. at 52, 53).
The pertinent testimony at the PCRA hearing,
which included the testimony of trial counsel, Attorney
Gaglione, and Omar Powell, supports the state courts’
interpretation of the PCRA hearing testimony. “The
federal habeas statute provides us ‘no license to
redetermine credibility of witnesses whose demeanor
has been observed by the state trial court, but not by
[us].’” Weeks v. Snyder, 219 F.3d 245, 258 (3d Cir.
2000) (quoting Marshall v. Lonberger, 459 U.S. 422,
434, 103 S. Ct. 843, 74 L.Ed.2d 646 (1983)). Given
counsel’s credited testimony at the PCRA hearing
that nobody informed him of the potential testimony

App.71a
of Omar Powell—and the absence of any evidence,
apart from Tyson’s conclusory statement that trial
counsel possessed the trial transcript and therefore
knew of Omar Powell—the finding that trial counsel
neither knew nor should have known of Omar Powell
was not “an unreasonable determination of the facts
in light of the evidence presented in the state court
proceeding.” See § 2254(d)(2). Federal habeas relief is
not available because the Pennsylvania courts denied
a claim on the basis that counsel cannot be ineffective
for failing to call a witness that counsel neither knew
nor should have known of. See § 2254(d)(1); Werts, 228
F.3d at 204. There is no basis for relief on Tyson’s
ineffective assistance of counsel claim for failure to
call Omar Powell.
V.

Certificate of Appealability

Pursuant to 28 U.S.C. § 2253(c), unless a circuit
justice or judge issues a certificate of appealability
(“COA”), an appeal may not be taken from a final
order in a proceeding under 28 U.S.C. § 2254. A COA
may issue only if the applicant has made a substantial
showing of the denial of a constitutional right. 28
U.S.C. § 2253(c)(2). “A petitioner satisfies this standard
by demonstrating that jurists of reason could disagree
with the district court’s resolution of his constitutional
claims or that jurists could conclude the issues
presented are adequate to deserve encouragement to
proceed further.” Miller-El v. Cockrell, 537 U.S. 322
(2003). Tyson fails to demonstrate that a COA should
issue.
The denial of a certificate of appealability does
not prevent Tyson from appealing the order denying
his petition so long as he seeks, and obtains, a certifi-

App.72a
cate of appealability from the Third Circuit Court of
Appeals. See Fed. R. App. P. 22(b)(1).
VI. Conclusion
For the reasons set forth above, the petition for
writ of habeas corpus pursuant to 28 U.S.C. § 2254
will be denied.
A separate Order will enter.
BY THE COURT:
/s/ James M. Munley
United States District Court Judge
Dated: February 6, 2019

App.73a
MEMORANDUM OPINION OF THE
SUPERIOR COURT OF PENNSYLVANIA
(JANUARY 11, 2008)
IN THE SUPERIOR COURT OF PENNSYLVANIA
________________________
COMMONWEALTH OF PENNSYLVANIA,

Appellee,
v.
AARON TYSON,

Appellant,
________________________
No. 730 EDA 2007
Appeal from the Judgment of Sentence of
July 17, 2006, in the Court of Common Pleas of
Monroe County, Criminal Division at
No. CP-45-CR-0000817-2003
Before: STEVENS, ORIE MELVIN and
COLVILLE, JJ.
This case is a direct appeal from judgment of
sentence. The issues are: (1) whether there was sufficient evidence to support the convictions for first
degree murder; (2) whether the trial court erred by
allowing the Commonwealth to introduce evidence
showing that Appellant’s coactor shot the victims
 Retired Senior Judge assigned to the Superior Court.

App.74a
even though the coactor had been acquitted of the
shootings; (3) whether the trial court erred in refusing
to allow Appellant to introduce evidence that his
coactor had been acquitted; (4) whether the court
erred in not granting a mistrial or in not dismissing
a certain juror after the juror had contact with a
victim’s wife; (5) whether the trial court erred in not
recusing itself after presiding over the acquittal of
the coactor; (6) whether the Commonwealth committed
prosecutorial misconduct during its closing argument;
and (7) whether trial counsel was ineffective in
numerous ways. We dismiss Appellant’s ineffectiveness
claims without prejudice to bring them in a petition
under the Post Conviction Relief Act (PCRA), deny
him relief on his remaining claims, and affirm the
judgment of sentence.
Timeliness
We first must consider whether this appeal is
timely as that matter affects our jurisdiction.
Commonwealth v. Wrecks, 931 A.2d 717, 720 (Pa.
Super. 2007) (Wrecks I ) (stating that this Court has
no jurisdiction to entertain a late appeal). After the
imposition of sentence, a defendant has ten days to
file a post-sentence motion and thirty days to appeal.
Pa. R. Crim. P. 720(A)(1), (A)(3). If the defendant does
file a timely post-sentence motion, the court has one
hundred twenty days to render a decision. Pa. R. Crim.
P. 720 (B)(3)(a). The one-hundred-twenty-day period
may be extended for good cause on motion of the
defendant. Id. at (B)(3)(b).
The filing of a timely post-sentence motion extends
the deadline for appealing. Id. at (A)(2). Specifically,
the thirty-day appeal period runs not from the

App.75a
imposition of sentence but from the entry of the order
denying the post-sentence motion. Id. By contrast, a
late post-sentence motion does not extend the appeal
period, even if the court entertains the motion.
Commonwealth v. Dreves, 839 A.2d 1122, 1126, 112729 (Pa. Super. 2003). Thus, in the case of an untimely
motion, the defendant’s thirty days starts to run
upon the imposition of sentence, just as if no postsentence motion had been filed. Id.
Even still, a defendant who does not file a timely
post-sentence motion may, in some circumstances,
secure permission to file such a motion nunc pro
tunc. Id. 839 A.2d at 1128. In particular, such a
defendant must, within thirty days after sentence is
imposed, request nunc pro tunc rights from the
sentencing court. Id. The defendant must show sufficient cause to excuse the late filing. Id. Thereafter, the
court must consider the request and, if the court
chooses to grant nunc pro tunc rights, must do so
expressly. Id. Absent an explicit order allowing a
nunc pro tunc post-sentence motion, the time for
filing an appeal is not tolled. Id. Additionally, the
court must render its decision within thirty days of
the imposition of sentence. Id. Within the foregoing
parameters, the decision to allow a nunc pro tunc
motion rests within the sentencing court’s discretion.
Id. Where permission to file an otherwise late postsentence motion is properly granted and such a motion
is filed, the thirty-day appeal period runs from the
denial of the post-sentence request. Pa. R. Crim. P.
720(A)(2).
Normally, if an appeal is filed beyond the thirtyday deadline, this Court will quash it for lack of
jurisdiction. Commonwealth v. Wrecks, 934 A.2d at

App.76a
1287, 1289 (Pa. Super. 2007) (Wrecks II). However,
this Court may consider an otherwise late appeal to
be timely, and exercise jurisdiction over that appeal,
if the untimeliness resulted from a breakdown in the
processes of the court system. Commonwealth v.
Coolbaugh, 770 A.2d 788, 791 (Pa. Super. 2001) (entertaining otherwise late appeal where sentencing court
misstated appeal period); Commonwealth v. Braykovich, 664 A.2d 133, 138 (Pa. Super. 1995) (entertaining otherwise late appeal where defendant was
not served with order denying post-sentence motion).
The foregoing principles inform our analysis of
the events in this case. Appellant was sentenced on
July 17, 2006. On July 26, 2006, he filed a motion to
extend the ten-day deadline for filing post-sentence
motions. The notion averred, inter alia, that sentencing counsel did not represent Appellant at trial, that
counsel needed the trial transcript to file post-sentence
motions, that counsel had ordered the trial transcript
from the court reporter, and that the transcript was
being prepared. The sentencing court considered the
motion and, on July 27, 2006, expressly granted
Appellant permission to file post-sentence motions
within thirty days after the filing of the trial transcript. The trial transcript was filed on September 19,
2006. Appellant filed his post-sentence motion on
October 19, 2006.
We observe that, although a request to file postsentence motions beyond the ten-day limit is usually
filed after that limit has already passed, there is no
reason why Appellant should be penalized for anticipating the problem in meeting his deadline and in
filing his request within the ten-day limit. Indeed, it
would be silly to deem his motion a nullity because it

App.77a
was filed nine days after sentencing when that same
motion would have been appropriate if he waited
two more days. Moreover, Appellant’s motion set forth
sufficient cause to excuse the otherwise late (eventual)
filing of his post-sentence motion. Additionally, before
the initial thirty-day appeal period expired, the
sentencing court considered that motion and expressly
granted him permission to file his post-sentence
motion beyond the ten-day limit. Appellant then filed
his motion pursuant to the court’s order—specifically,
within thirty days of when the transcript was filed.
Accordingly, we find Appellant’s post-sentence motion
to be timely. Similarly, the filing of that post-sentence
motion then extended his appeal period to a point
thirty days beyond the eventual denial of that motion.
The court did, in fact, deny Appellant’s motion on
February 15, 2007, within the one-hundred-twenty-day
time limit. He filed his appeal on March 19, 2007,
facially beyond his thirty-day deadline. For the following reasons, however, we will not consider this appeal
to be untimely.
Pursuant to Pa. R. Crim. P. 114(B)(1), the clerk
of courts was required to serve the denial order of
February 15, 2007, on Appellant’s counsel. The docket
contains a verbatim reproduction of the court’s order
but does not indicate that the order was served by
the clerk on counsel. We recognize that the order
itself, and the reproduction on the docket, seem to
indicate that a copy was sent by the court, not the
clerk, to Appellant’s counsel. As we see no evidence
of a Monroe County local rule designating service to
be by the court itself rather than the clerk, service by
the court would not satisfy Pa. R. Crim. P. 114(B)(2).

App.78a
We are also aware that the court order directed
that the clerk serve Appellant himself. Service on
Appellant directly, rather than his counsel, does not
comply with Pa. R. Crim. P. 114(B)(1) because he
was represented at the time the order was issued.
Accordingly, we see no evidence that Appellant
was properly served—that is, served in accordance
with Pa. R. Crim. P. 114—with the order denying his
post-sentence motion. This circumstance represents
a breakdown in the processes of the court, and we
find Appellant is not to be held to the thirty-day
deadline under these facts. Therefore, we properly
have jurisdiction over this matter and will not quash
it as being untimely.
Facts
The trial revealed the following facts. On April
24, 2002, Appellant, Otis Powell (“Powell”) and Kasine
George (“George”) were riding in a vehicle. At some
point, Appellant exited the car and, when he returned,
stated that two white boys had just pulled a gun on
him. George described Appellant as angry at that
time. Appellant, who was at that point a passenger
in the car, took a 9 millimeter handgun from the
center console. He racked the slide of the gun, thus
arming it. Appellant told Powell, who was driving, to
pull out from the location where the vehicle was
parked.
Appellant pointed to a van and indicated it was
being driven by the two who had pulled a gun on
him. With Powell driving, the three followed the van
to a club. When the two white men entered that club,
Powell gave George a knife, directing him to puncture
the tires on the van. George did so to at least one of

App.79a
the tires. When George returned to the car, Appellant
was in the driver’s seat. Powell was now a passenger
and he asked Appellant for the gun. After five or ten
minutes, the two white men exited the bar, entered
the van and left the location.
With Appellant now driving, the three again
followed the van. It eventually stopped due to the flat
tire. At that point, Appellant and his two companions
were going to exit the car, but Powell told the other
two to wait. Powell then walked to the van. As he did
so, Appellant backed the car to a point where he and
George could see what was transpiring at the van. At
that point, Powell shot its two occupants, Daniel and
Keith Fotiathis (“Victim 1” and “Victim 2”). He then
ran back to the car. Powell, George and Appellant
left the scene. Appellant drove the vehicle. The three
discussed whether they should go to New York but
eventually decided to return to their nearby home.
Victim 1 was shot in the neck, the lower right chest
and the lower right back. Gunshots struck Victim 2
in the lower right back, right elbow and right wrist.
Trial testimony established multiple gunshot wounds
as the causes of death for the victims. The manner of
each death was homicide. Police Found eight shell
casings from a 9 millimeter at the scene.
George was later arrested on drug charges.
Thereafter, he provided information to authorities
regarding the instant case. Appellant was eventually
arrested and charged with the homicide of both
victims. He proceeded to a jury trial wherein the
Commonwealth’s theory was that Appellant was an
accomplice to the shootings. The court charged the
jury on accomplice liability, and Appellant was con-

App.80a
victed of first degree murder on both counts. He now
appeals.
Sufficiency
Appellant first argues there was insufficient evidence to sustain his convictions. In particular, he
claims the evidence did not prove he had the intent
required to establish a first degree murder conviction.
Several legal principles are important to our
resolution of this matter. The statute defining first
degree murder provides, in pertinent part, the
following:
§ 2502. Murder
(a) Murder of the first degree.—A criminal
homicide constitutes murder of the first
degree when it is committed by an intentional killing.
[* * * ]
(d) Definitions.—As used in this section
the following words and phrases shall have
the meanings given to them in this subsection:
[* * * ]
“Intentional killing.” Killing by means of
poison, or by lying in wait, or by any other
kind of willful, deliberate and premeditated
killing.
[* * * ]

App.81a
18 Pa. C.S.A. § 2502(a), (d).
The following statutory provisions address accomplice liability:
§ 306. Liability for conduct of another; complicity
(a) General rule.—A person is guilty of an
offense if it is committed by his own conduct or
by the conduct of another person for which he is
legally accountable, or both.
(b) Conduct of another.—A person is legally
accountable for conduct of another person when:
[***]
3)

he is an accomplice of such other person in
the commission of the offense.

(c) Accomplice defined.—A person is an accomplice of another person in the commission of an
offense if:
(1) with the intent of promoting or facilitating
the commission of the offense, he:
(i)

solicits such other person to commit it;
or

(ii) aids or agrees or attempts to aid such
other person in planning or committing
it; . . . .
[***]
(d) Culpability of accomplice.—When causing a
particular result is an element of an offense, an
accomplice in the conduct causing such result is
an accomplice in the commission of that offense,
if he acts with the kind of culpability, if any,

App.82a
with respect to that result that is sufficient for
the commission of the offense.
[***]
18 Pa. C.S.A. § 306(a), (b), (c), (d).
Additionally, this Court discussed accomplice liability in Commonwealth v. Schoff, 911 A.2d 147, 161
(Pa. Super. 2006). Therein, we stated:
[T]wo prongs must be satisfied for a defendant
to be found guilty as an ‘accomplice.’
First, there must be evidence that the defendant intended to aid or promote the underlying
offense, Second, there must be evidence that
the defendant actively participated in the
crime by soliciting, aiding, or agreeing to aid
the principal. While these two requirements
may be established by circumstantial evidence, a defendant cannot be an accomplice
simply based on evidence that he knew
about the crime or was present at the crime
scene. There must be some additional evidence
that the defendant intended to aid in the
commission of the underlying crime, and
then did or attempted to do so. With regard
to the amount of aid, it need not be substantial so long as it was offered to the principal
to assist him in committing or attempting to
commit the crime.

Id. (internal citations omitted).
As to our review of sufficiency claims, we recently
opined as follows:

App.83a
When evaluating a sufficiency claim, our
standard is whether, viewing all the evidence
and reasonable inferences in the light most
favorable to the Commonwealth, the factfinder
reasonably could have determined that each
element of the crime was established beyond
a reasonable doubt. This Court considers all
the evidence admitted, without regard to any
claim that some of the evidence was wrongly
allowed. We do not weigh the evidence or
make credibility determinations. Moreover,
any doubts concerning a defendant’s guilt
were to be resolved by the factfinder unless
the evidence was so weak and inconclusive
that no probability of fact could be drawn
from that evidence.

Commonwealth v. Habay, 934 A.2d 732, 735 (Pa.
Super. 2007) (internal citations omitted).
We also keep in mind that a jury is free to believe
all, some or none of the evidence presented. Id. at
737. Furthermore, even if no single item of evidence
conclusively establishes guilt, this Court will affirm a
judgment of sentence where the totality of the evidence
supports the guilty verdict. Commonwealth v. Lee, 626
A.2d 1238, 1240 (Pa. Super. 1993).
With the foregoing principles in mind, we turn
to the instant matter. The evidence showed that
Appellant, who was angry because two men had pulled
a gun on him, identified the van carrying those men.
He then directed Powell to drive, and later drove the
car himself, thus pursuing the victims. Appellant
produced the murder weapon and supplied it to the
shooter. The shooter then intentionally fired the gun
at both victims, striking them in vital areas and

App.84a
causing their deaths. Appellant drove his companions
from the scene, the three of them discussing where
they should go.
We cannot say that the foregoing evidence is so
weak and inconclusive that no probability of fact can
be drawn therefrom. To the contrary, when viewed
most favorably to the Commonwealth, this evidence
and its reasonable inferences could lead a factfinder
to conclude beyond a reasonable doubt that Appellant
intended to promote the murder of the victims and
that he actively participated in that murder by aiding
the principal (i.e., the shooter) when he (Appellant)
identified the intended victims, told the principal to
drive, drove himself in pursuit of the victims, produced
the murder weapon, supplied it to the principal, and
then helped the principal flee the scene. Thus, there
was evidence that Appellant intended to cause the
shooting death of the victims and that he aided in the
commission of that crime. Accordingly, the evidence
was sufficient to support the convictions for first
degree murder of both victims under an accomplice
theory of liability. Appellant’s sufficiency claim fails.
Evidence of Shooter’s Identity
Appellant raises the question of whether it was
appropriate for the trial court to allow the Commonwealth to introduce evidence that Powell was the
shooter after he had been acquitted of murdering the
instant victims.1 First, we note Appellant could law1 Appellant lists this issue in his statement of questions but
does not develop it in his brief. In fact, in his brief he seems to
concede the Commonwealth was allowed to introduce the evidence
of Powell’s acquittal. Therefore, because Appellant does not
develop this issue, we would normally consider it to be waived.

App.85a
fully be convicted for being an accomplice in the instant
murders even though the principal was acquitted. 18
Pa. C.S,A. § 306(g). Additionally, to prove Appellant
was an accomplice, the Commonwealth quite plainly
needed to prove there was a principal. Moreover, the
acquittal of the principal did not prevent the relitigation, in Appellant’s trial, of the issue of who did the
shooting. See Commonwealth v. Brown, 375 A.2d 331,
334-36 (Pa. Super. 1977) (holding acquittal of one
criminal defendant does not preclude relitigation of
an issue or controversy in the prosecution of another
defendant even though the same transaction is
involved). Accordingly, the Commonwealth was properly permitted to introduce evidence on the issue of
who acted as the principal in the crimes in this case.
Any claim by Appellant to the contrary has no merit.
Preclusion of Evidence re: Powell’s Acquittal
Appellant argues that, because the Commonwealth
was allowed to show that Powell was the shooter,
Appellant should have been able to introduce Powell’s
acquittal into evidence. Appellant is incorrect. A
criminal defendant may not introduce evidence of the
acquittal of another person in connection with the
same episode to create an impression that the defendant is innocent. Commonwealth v. Holloway, 739
A.2d 1039, 1044 supra. 1999).
Appellant briefly contends his claim is somehow
one of first impression in that he bases it on due
Commonwealth v. Hardy, 918 A.2d 766, 771 (Pa. Super, 2007).
Nevertheless, this issue is a simple matter and it relates, to
some extent, to the next claim we will discuss in this memorandum. Therefore, we will consider and decide the question of the
admissibility of evidence regarding the identity of the shooter.

App.86a
process and equal protection concerns. However, he
does not elaborate on this particular contention and
he has simply not persuaded us the trial court committed error. Accordingly, he is entitled to relief.
Juror’s Contact with Victim 1’s Wife
One of the jurors worked at a store in a shopping
mall during the course of the trial. Victim 1’s wife
entered the store to purchase something. The wife
began talking to the juror about the stressful day she
(the wife) had been having. The juror interrupted the
wife, telling her that she (the juror) was on the jury,
and the two women did not discuss the facts of the
case. The juror reported this incident to the court.
When questioned by the court, the juror indicated
the encounter would not cause her to have a fixed
opinion as to whether Appellant was guilty or innocent.
Also, when the court asked her if the incident would
“interrupt [her] decision to judge [the case] solely on
the evidence,” the juror responded, “No, sir.” N.T.,
05/05/06, at 375, 376.
The refusal to grant relief based on juror
misconduct is within the discretion of the trial court.
Commonwealth v. Russell, 665 A.2d 1239, 1243 (Pa.
Super. 1995). Also, the court’s factual findings regarding
alleged misconduct will be upheld absent an abuse of
its discretion. Id. An abuse of discretion is not a mere
error in judgment but, rather, involves bias, prejudice,
partiality, or manifest unreasonableness. Hardy, 918
A.2d at 766.
Here, the court questioned the juror and determined the contact between the wife and the juror did
not result in prejudice to Appellant. The court found

App.87a
the juror interrupted the wife, revealed she was a juror,
reported the incident to the court, and indicated she
would not be influenced by the wife’s limited contact.
We find no evidence of bias, partiality, prejudice, ill-will,
manifest unreasonableness or misapplication of law
in the court’s determinations. Accordingly, there was
no abuse of discretion in failing to order a mistrial
and, similarly, Appellant has not shown there was any
reason to excuse the juror. Appellant’s claim fails.
Recusal
Appellant points to no place in the record showing
he made a motion for the trial court to recuse itself,
and we have found no such motion. In fact, Appellant
argues his trial counsel was ineffective in not making
such a motion. Because this matter was not preserved,
it is waived. See Pa. R.A.P. 302(a) (stating matters
not raised in the trial court are normally waived).
Prosecutorial Misconduct
Appellant claims he is entitled to a new trial
based on certain comments made by the Commonwealth during closing argument. He did not object to
those comments prior to this appeal. (Once again,
Appellant argues his counsel was ineffective for not
raising objections on this issue.) Accordingly, Appellant waived this claim. Commonwealth v. Sasse, 921
A.2d 1229, 1238 (Pa. Super. 2006) (holding that an
appellant waives claim of prosecutorial misconduct
committed during closing argument by not objecting
during the argument).

App.88a
Ineffectiveness of Counsel
Appellant contends trial counsel was ineffective
in failing to move that the trial court recuse itself, in
failing to object to portions of the Commonwealth’s
closing argument, in failing to object to the introduction
of a photograph of Victim 1 and his young daughter,
in failing to object to the Commonwealth’s portrayal
of Appellant as a drug dealer, in failing to file a timely
alibi notice, in failing to interview certain witnesses,
and in failing to review Appellant’s cell phone records.
Normally, claims of ineffective counsel are to be
heard in proceedings under the PCRA rather than on
direct appeal. Hardy, 918 A.2d at 773. However, this
Court may entertain such issues on direct appeal
where the appellant preserved them in the trial
court, the court held an evidentiary hearing at which
those claims were developed, and the court subsequently issued an opinion on those claims. Id.
Here, Appellant filed a post-sentence motion
raising, inter alia, the claims of ineffectiveness that
he now pursues on appeal. The trial court issued an
order stating that the trial testimony had been
transcribed, that the issues raised in the post-sentence
motion required no additional testimony, and that
the parties were to brief the post-sentence issues.
The court later directed the transcription of a
certain pretrial hearing that had involved Appellant’s
alibi notice. At that hearing, which had been
precipitated by the Commonwealth’s request for a
more specific alibi notice, Appellant’s trial counsel
stated on the record, and at some length, his efforts
relating to alibi witnesses. He did not testify but,
rather, merely related his efforts to the court. Thus,

App.89a
counsel was not subject to cross-examination at that
hearing and, in any event, the hearing was simply
not devoted to an ineffectiveness claim.
Eventually, the court denied Appellant’s postsentence motion, including the ineffectiveness claims.
The court did write an opinion addressing the ineffectiveness claims, but it appears there was no evidentiary hearing at which Appellant’s ineffectiveness
claims were developed. There having been no such
hearing, we dismiss Appellant’s ineffectiveness claims
without prejudice to raise them in a PCRA petition.
For the foregoing reasons, we dismiss Appellant’s
claims of ineffectiveness without prejudice to raise
them in a PCRA petition. Appellant’s remaining claims
raised on this appeal fail. Accordingly, we affirm his
judgment of sentence.
Judgment of sentence affirmed.
Judge Orie Melvin concurs in the result.

App.90a
OPINION OF THE COURT OF
COMMON PLEAS OF MONROE COUNTY
(MAY 9, 2006)
COURT OF COMMON PLEAS OF MONROE
COUNTY FORTY-THIRD JUDICIAL DISTRICT
COMMONWEALTH OF PENNSYLVANIA
________________________
COMMONWEALTH OF PENNSYLVANIA,
v.
AARON TYSON,

Defendant,
________________________
No. 817 CRIMINAL 2003
P.C.R.A.
On May 9, 2006, following a jury trial, Aaron Tyson
[hereinafter Defendant] was found guilty of murder
in the first degree as an accomplice in the death of
Keith Fotiathis, and murder in the first degree as an
accomplice in the death of Daniel Fotiathis. On July
17, 2006, Defendant was sentenced to a state correctional institution, as provided by statute, for the term
of his natural life without the possibility of parole.
On July 26, 2006, Attorney David Skutnik filed
a Motion for an Extension to File Post Sentence
Motions on the basis that he needed to obtain the
trial transcripts in order to prepare the motion. This
court granted the request and ordered that Defendant

App.91a
file any post sentence motions within thirty (30) days
of the filing of the trial transcripts. On October 19,
2006, Defendant filed a Post Sentence Motion seeking
acquittal or, in the alternative, a new trial. By
Opinion and Order dated February 15, 2007, this
court denied Defendant’s Post Sentence Motions.
Defendant filed a direct appeal with the Superior
Court on March 19, 2007; and the Superior Court
denied Defendant’s appeal and affirmed the judgment
of sentence on January 11, 2008. On February 19,
2009, Defendant filed a pro se Petition for Allowance
of Appeal Nunc Pro Tunc, alleging that Attorney
Skutnik abandoned him during his direct appeal. On
April 28, 2009, the Supreme Court granted Defendant’s
Petition and directed Attorney Skutnik to file a
Petition for Allowance of Appeal within thirty (30)
days. Attorney Skutnik filed a Petition for Allowance
of Appeal on May 27, 2009, which was denied by the
Supreme Court on February 23, 2010.
On November 19, 2010, Defendant filed a Pro Se
Motion for Post Conviction Collateral Relief, together
with a Brief in Support of the Motion (hereafter
“Deft.’s Pro Se Brief, 11/19/10, p. ___”). By Order dated
November 29, 2010, this court appointed Jason Leon,
Esquire, to represent Defendant in this PCRA proceeding and granted counsel leave to file an amended
petition and a brief by December 29, 2010. Attorney
Leon filed two separate Motions for Extension of
Time to File an Amended Petition, which this court
granted thereby extending the time to file an Amended
Petition to March 31, 2011. Defendant filed a Supplemental PCRA Petition and Motion for Evidentiary
Hearing on March 31, 2011 (hereafter “Supplemental
PCRA, 3/31/11, ¶ ___, p. ___”). The Commonwealth

App.92a
filed an Answer to Defendant’s PCRA Petition on
April 29, 2011. A hearing was scheduled for July 21,
2011; however, due to the delay in transporting
Defendant from a federal prison in California, as
well as a witness from a prison in New Jersey, the
hearing was rescheduled to October 4, 2011. Following
the evidentiary hearing on October 4, 2011, the
matter was taken under advisement. Defendant filed
a Supplemental Brief in Support of his PCRA Petition
on November 14, 2011 (hereafter “Supplemental Brief,
11/14/11, p. ___”), and the Commonwealth filed a
Brief in Opposition on November 30, 2011 (hereafter
“Com.’s Brief, 11/30/11, p. ___”).
In his Motion and Supplemental Motion for Post
Conviction Collateral Relief Defendant raises numerous
issues of trial court error, trial counsel ineffectiveness
and appellate counsel ineffectiveness with respect to
his trial and direct appeal. Specifically, Defendant
raises four (4) issues of trial court error and 12 issues
of trial counsel ineffectiveness. In addition, Defendant
raises seven (7) claims of ineffectiveness against
appellate counsel. We are now ready to dispose of
this matter and will address each issue more specifically
below, combining similar issues where appropriate.
DISCUSSION
Defendant asserts generally that he is innocent
of murder in the first degree as an accomplice and,
therefore, he is entitled to have his conviction vacated.
[Deft.’s Pro Se Brief, 11/19/10, p,55.] In support of
this assertion, Defendant claims that due to trial
counsel incompetence and ineffectiveness, he was not
able to present subpoenaed witnesses who would
have refuted the Commonwealth’s theory of who

App.93a
committed the crime and why it was committed. He
further claims that the trial judge took out of the
hands of the jury the ability to determine the facts
and credibility of the witnesses. [Deft.’s Pro Se Brief,
11/19/10, p.56.] Defendant concludes by arguing that
his trial counsel, Attorney Brian Gaglione, failed to
perform his duties to the best of his ability; that when
you take all of the errors as a whole, the combination
proves that Defendant was denied effective assistance
of counsel, especially when a co-conspirator—the actual
shooter—was acquitted in a separate trial using the
same evidence that was available to Attorney Gaglione.
[Supplemental Brief, 11/14/11, p.8.]
The Commonwealth argues that “Defendant has
failed to demonstrate that he has suffered prejudice”
as a result of the alleged acts or omissions of trial
counsel. [Com.’s Brief in Opposition to Defendant’s
Motion for Post-Conviction Relief, 11/30/11, p.4
(hereinafter “Com.’s Brief, 11/30/11, p. ___”).] The
Commonwealth further argues that the evidence
presented at trial “established that the defendant
acted in concert with two others to kill both Keith
and Daniel Fotiathis.” [Com.’s Brief, 11/30/11, p.4.]
Finally, the Commonwealth argues that in the present
case “the actions of each conspirator individually
reflect the elements of premedication (sic) and
deliberation necessary to prove murder of the first
degree and as such the defendant’s claim of ineffective
assistance of counsel should be dismissed.” [Com.’s
Brief, 11/30/11, p.5.]
In order for a defendant to be eligible for postconviction relief under 42 Pa. C.S.A. § 9543, a defendant
must be able to prove all of the following:

App.94a
(1) That [defendant] has been convicted of a
crime under the laws of this Commonwealth
and is at the time relief is granted:
(i)

currently serving a sentence of imprisonment,
probation or parole for the crime.

(2) That the conviction or sentence resulted
from one of the following:
(i)

A violation of the Constitution of this Commonwealth or the Constitution or laws of the
United States which, in the circumstances
of the particular case, so undermined the
truth-determining process that no reliable
adjudication of guilt or innocence could have
taken place.

(ii) Ineffective assistance of counsel which, in
the circumstances of the particular case, so
undermined the truth-determining process
that no reliable adjudication of guilt or
innocence could have taken place.
(3) That the allegation of error has not been
previously litigated or waived.
(4) That the failure to litigate the issue prior
to or during trial, during unitary review or on
direct appeal could not have been the result
of any rational, strategic or tactical decision
by counsel.
42 Pa. C.S.A. § 9543(a)(1)(i), (2)(i)-(ii), (3) and (4).
Pursuant to 42 Pa. C.S. § 9543(a)(3), “[t]o be
eligible for relief under [the PCRA], the petitioner must
plead and prove by a preponderance of the evidence
. . . [t]hat the allegation of error has not been previ-

App.95a
ously litigated or waived.” “[A]n issue is waived if the
petitioner could have raised it but failed to do so
before trial, at trial, on appeal or in a prior state post
conviction proceeding.” 42 Pa. C.S. § 9544(b), Com. v.
Marinelli, 810 A.2d 1257, 1264 (Pa. 2002). “[A]n issue
has been previously litigated if the highest appellate
court in which the petitioner could have had review
as a matter of right has ruled on the merits of the
issue[.]” 42 Pa. C.S. § 9544(a)(2), Id. at 1266.
With regard to paragraph (a)(1), Defendant is
currently serving a life sentence without the possibility
of parole in a state correctional institution for the
offense of murder in the first degree as an accomplice
in the death of Keith Fotiathis and Daniel Fotiathis.
Therefore, he has met the eligibility requirement of
42 Pa. C.S.A. § 9545(1)(i). However, as will be discussed
below, Defendant has failed to prove that the alleged
errors of the trial court and the alleged ineffectiveness
of trial and appellate counsel, under the circumstances
of his particular case, so undermined the truthdetermining process that no reliable adjudication of
guilt or innocence could have taken place. Several of
the issues raised in Defendant’s PCRA Motions have
been previously litigated or waived. Thus, with respect
to claims of ineffective assistance of trial counsel
(Issue Nos. 3, 5, 6, 8, 9, 10, 11, and 12), which are
identified more specifically later in this discussion,
we find that Defendant has failed to meet the eligibility
requirement set forth in 42 Pa. C.S.A. § 9543(3). We
also find that Defendant has failed to meet the eligibility requirement set forth in 42 Pa. C.S.A. § 9543(4),
in that he has failed to prove that trial or appellate
counsel failed to preserve, raise and litigate the
issues raised in this PCRA Motion in post-trial pro-

App.96a
ceedings, during unitary review or on direct appeal
or that counsel did not have any rational, strategic
or tactical decision for failing to do so. Moreover, a
defendant is only allowed relief under the Post Conviction Relief Act where ineffective assistance of counsel
leads to a conviction or sentence where it is unclear
whether the defendant is guilty. 42 Pa. C.S.A. § 9543
(2)(ii). Furthermore, we find that Defendant is likewise
unable to establish that the alleged ineffectiveness
lead to his conviction or sentence where it is unclear
whether he is guilty. Therefore, we conclude that
Defendant is not entitled to post-conviction relief
based on the reasoning set forth below. Accordingly,
Defendant’s pro se Motion and Supplemental Motion
for Post-Conviction Collateral Relief are DENIED.
After a careful review of the record and the briefs
submitted by the parties, we offer the following analysis in support of this decision.
Defendant asserts for the first time that the trial
court erred in failing to give the proper jury instruction
on “shared specific intent to kill,” which he claims is
required on a charge of first degree murder as an
accomplice. [Deft.’s Pro Se Brief, 11/19/10, p.6.] He
also claims, for the first time, that trial counsel was
ineffective for failing: (1) to object to prejudicial hearsay testimony offered by Detective Wolbert; (2) to
object to prosecutorial misconduct when the prosecutor
“vouched” for the credibility of a witness during closing
arguments; (3) to object to prosecutorial misconduct
when the prosecutor made “improper comments”
about Defendant’s whereabouts during closing arguments; (4) to file a proper Motion to Quash the Array;
and (5) to present Defendant’s subpoenaed witnesses
to the jury, including Omar Powell. [Deft.’s Pro Se

App.97a
Brief, 11/19/10; Supplemental PCRA, 3/31/11, ¶ 6.]
We find that Defendant has waived these issues.
The Pennsylvania Supreme Court in Commonwealth v. Tedford, sets forth the law with respect to
claims that have been waived. The Court held that:
A claim that has been waived is not cognizable under the PCRA. The pre-amendment
PCRA stated that “an issue is waived if the
petitioner failed to raise it and if it could
have been raised before the trial, at the trial,
on appeal, in a habeas corpus proceeding or
other proceeding actually conducted or in a
prior proceeding actually initiated under this
subchapter.” 42 Pa. C.S. § 9544(b) (amended
1995).
Because appellant was represented by new
counsel on direct appeal at a time when counsel could (and did) raise claims of trial counsel
ineffectiveness, any claim that appellant
would now make sounding in trial court error
or ineffective assistance of trial counsel is
waived under the PCRA. See 42 Pa. C.S.
§ 9543(a)(3) (amended 1995). Any such
defaulted claim could be an aspect of a cognizable claim under the PCRA only to the
extent it is posed and developed as a “layered”
claim of ineffectiveness focusing on appellate counsel. In Commonwealth v. McGill, 574
Pa. 574, 832 A. 2d 1014 (2003), this Court
set forth a framework for consideration of
layered ineffectiveness claims, as follows:
[A] petitioner must plead in his PCRA
petition that his prior counsel, whose

App.98a
alleged ineffectiveness is at issue, was
ineffective for failing to raise the claim
that the counsel who preceded him was
ineffective in taking or omitting some
action. In addition, a petitioner must
present argument . . . on the three prongs
of the Pierce test as to each relevant
layer of representation.

Tedford, supra at 13; McGill, supra.
“[T]he inability of a petitioner to prove each prong
of the Pierce test in respect to trial counsel’s purported ineffectiveness alone will be fatal to his layered
ineffectiveness claim.” Id. (citation omitted). On the
other hand, “with layered claims, establishing trial
counsel’s ineffective assistance will demonstrate that
prior appellate counsel’s failure to raise the former’s
ineffectiveness suggests a claim possessing arguable
merit.” Id.
Defendant was represented by new counsel on
direct appeal at a time when counsel could (and did)
raise claims of trial counsel ineffectiveness. However,
direct appellate counsel failed to raise the following
claims as trial court error or trial counsel ineffectiveness. Consequently, we find as follows:
(1) Defendant’s claim sounding in trial court
error for failing to give the proper jury instruction on “shared specific intent to kill”
is waived under the PCRA.
(2) Defendant’s claim sounding in ineffective
assistance of trial counsel for failing to
object to prejudicial hearsay testimony offered
by Detective Wolbert is waived under the
PCRA;

App.99a
(3) Defendant’s claim sounding in ineffective
assistance of trial counsel for failing to object
to prosecutorial misconduct when the prosecutor “vouched” for the credibility of a witness
during closing arguments is waived under
the PCRA;
(4) Defendant’s claim sounding in ineffective
assistance of trial counsel for failing to object
to prosecutorial misconduct when the prosecutor made “improper comments” about Defendant’s whereabouts during closing arguments
is waived under the PCRA;
(5) Defendant’s claim sounding in ineffective
assistance of trial counsel for failing to file a
proper Motion to Quash the Array is waived
under the PCRA; and
(6) Defendant’s claim sounding in ineffective
assistance of trial counsel for failing to
present Defendant’s subpoenaed witnesses
to the jury, including Omar Powell, is waived
under the PCRA.
However, the defaulted claims could be an aspect
of a cognizable claim under the PCRA to the extent
that they are posed and developed as “layered” claims
of ineffectiveness focusing on appellate counsel. Thus,
we will revisit these claims later in this Opinion
under the section dealing with trial counsel ineffectiveness or as a “layered claim” under appellate counsel
ineffectiveness.
We will now address the claims that have not
been waived.

App.100a
TRIAL COURT ERROR
Defendant’s remaining claims of trial court error,
i.e., trial court erred in overlooking conclusive evidence
that supports a claim of “insufficient evidence” to
sustain a conviction; and trial court error in allowing
prejudicial hearsay testimony will be addressed in

seriatim.

Trial Court Erred in Overlooking Conclusive Evidence
Defendant claims that the trial court erred in
overlooking conclusive evidence that supports a claim
of “insufficiency of the evidence” to sustain a conviction
of first degree murder. [Deft.’s Pro Se Brief, 11/19/10,
p.4.] Defendant asserts that the evidence presented
at trial clearly supports third degree murder. He
argues that the evidence shows that heated words
were possibly exchanged, that a gun was drawn by
the victims, and that the shooter “not aiming” recklessly
fired shots while fleeing. [Deft.’s Pro Se Brief, 11/19/10,
p.4.]
The trial court previously addressed this issue
in its Opinion denying Defendant’s Post-Sentence
Motions. At that time, the trial court found “that the
evidence presented by the Commonwealth was sufficient to enable the fact finder to find that all of the
elements of first degree murder and accomplice
culpability were established beyond a reasonable
doubt to support a conviction of first degree murder
as an accomplice.” [Trial Ct. Opinion, 2/15/07, p.6.]
Defendant raised the same issue on direct appeal
wherein he argued that “the evidence did not prove
he had the intent required to establish a first
degree murder conviction.” [Superior Ct. Memorandum,

App.101a
1/11/08, p.8.] After reviewing the evidence presented
at trial, the Superior Court found that “there was
evidence that Appellant intended to cause the shooting
death of the victims and that he aided in the commission of that crime.” [Superior Ct. Memorandum, 1/11
/08, p.12.] The Superior Court concluded that “the evidence was sufficient to support the convictions for
first degree murder of both victims under an accomplice
theory of liability” and therefore, “Appellant’s sufficiency claim fails.” [Superior Ct. Memorandum, 1/11/08,
p.12.]
Presently, Defendant raises the same “insufficient
evidence” claim by asserting a new theory of relief
under the guise of trial court error. Specifically, he
asserts that the trial court erred when it overlooked
conclusive evidence that supports his “insufficient
evidence” claim. In Marinelli , the Pennsylvania
Supreme Court held that “[A] PCRA petitioner ‘cannot
obtain post-conviction relief of claims that were previously litigated by presenting new theories of relief
to support a previously litigated claim.’” Marinelli,
supra at 1264. “[A]n issue has been previously litigated
if the highest appellate court in which the petitioner
could have had review as a matter of right has ruled
on the merits of the issue[.]” 42 Pa. C.S. § 9544(a)(2),
Marinelli, supra at 1266.
Inasmuch as the Pennsylvania Superior Court,
the highest court in which Defendant could have had
review as a matter of right, has ruled on the merits
of Defendant’s “insufficient evidence” claim, we find
that this claim has been previously litigated and found
to be without merit. Moreover, Defendant cannot obtain
post-conviction relief of this previously litigated claim
by presenting it again under the new theory of “trial

App.102a
court error”. Accordingly, Defendant’s claim of trial
court error for overlooking conclusive evidence that
supports a claim of insufficient evidence to sustain a
conviction of first degree murder is dismissed.
Trial Court Erred in Failing to Give Proper Jury
Instruction
Defendant claims, for the first time, that the trial
court erred when it failed to give the proper jury instruction on “shared specific intent to kill” which he
claims is required on a charge of first degree murder
as an accomplice. [Deft.’s Pro Se Brief, 11/19/10, p.6.]
Defendant asserts that “the trial court failed to
instruct them (the jury) as to why they can find the
Petitioner guilty of the charged offense, also only to
focus on the Petitioner as an accomplice; neglecting
the essential elements of the primary charge of murder
in the first degree as relates to the shared specific
intent for the accomplice.” [Deft.’s Pro Se Brief,
11/19/10, p.6. (Clarification added).]
Pursuant to 42 Pa. C.S. § 9543(a)(3), “[t]o be
eligible for relief under [the PCRA], the petitioner
must plead and prove by a preponderance of the evidence . . . [t]hat the allegation of error has not been
previously litigated or waived.” “[A]n issue is waived
if the petitioner could have raised it but failed to do
so before trial, at trial, during unitary review, on
appeal or in a prior state post conviction proceeding.”
42 Pa. C.S. § 9544(b), Marinelli, supra. A review of
the record reveals that Defendant raises this issue
for the first time in the present PCRA petition.
Therefore, because this issue was not raised before
trial, at trial, during unitary review, on appeal or in
a prior state post conviction proceeding, it is waived.

App.103a
Trial Court Erred in Allowing Prejudicial Hearsay
Testimony
In his third allegation of trial court error, Defendant claims that the court erred in allowing prejudicial hearsay testimony to be presented through the
testimony of Detective Wolbert. [Deft.’s Pro Se Brief,
11/19/10, p.9.] Specifically, Defendant asserts that
the trial court erred in allowing Detective Wolbert’s
testimony regarding statements made by Kasine
George and Eve Sherel Mayo, a/k/a Bam, because
“the third party statements was used for identification
and motive, making the Petitioner a desired suspect
in a murder.” [Deft.’s Pro Se Brief, 11/19/10, p.12.]
Defendant also asserts that trial counsel objected to
the hearsay testimony and requested a mistrial; however, the trial judge denied the request for a mistrial
stating: “ . . . as far as hearsay goes not one statement by the officer is a statement which is attributing
to your client in any capacity made by a third party.
So hearsay does not apply.” [Deft.’s Pro Se Brief,
11/19/10, p. 10, citing N.T., Vol. III, 5/5/06, pg. 492,
Line(s) 12-15.]
Defendant argues that “‘[T]he statements were
clearly testimonial in nature, as it was used to establish essential elements of the offense.’” [Deft.’s Pro Se
Brief, 11/19/10, p.11.] He further argues that as a
result of the trial court’s ruling, “[H]is Constitutional
rights to confront his accuser and cross examine
witnesses were stripped.” [Deft.’s Pro Se Brief,
11/19/10, p.11.]
“The admissibility of evidence is solely within
the discretion of the trial court and will be reversed
only if the trial court has abused its discretion.” Com.
v. Hernandez, ___ A.3d ___ (Pa. Super. 2012), 2012

App.104a
WL 549827, citing Com. v. Herb, 852 A.2d 356, 363
(Pa. Super. 2004) (Citations omitted). “An abuse of
discretion is not merely an error of judgment, but is
rather the overriding or misapplication of the law, or
the exercise of judgment that is manifestly unreasonable, or the result of bias, prejudice, or partiality, as
shown by the evidence of record.” Id.
During the direct testimony of Commonwealth
witness, Detective Wolbert, defense counsel raised
an objection based on hearsay. Following an on-therecord sidebar discussion (N.T., Vol. III, 5/5/06, pp.
489-493), the trial judge made the following ruling:
THE COURT: All right. Gentlemen, as far as
hearsay goes not one statement by the officer is
a statement which is attributing to your client in
any capacity made by a third party. So the
hearsay does not apply.
Secondly, the challenge was raised by virtue of
your cross-examination of Mr. George and in
turn the subject matter why and if it was reasonable for him, any reason for him to testify in
this proceeding. And you described some ulterior
motive that was both nefarious and self-serving.
The question is and the testimony has been
oriented around how this officer put together an
investigation and how he did decide to focus on
someone or others. And why that in and of itself
concerns avenues of approach and those whom
he may have spoken to, I don’t see that as being
hearsay compilation. It is not offered for the
truth of your client’s conduct. It shows how he
came to do what he did. It does not fall within
those ranks. And I am not going to grant a
motion for mistrial at this time.

App.105a
[N.T., Vol. III, 5/5/06, pp.489-493.]
We have reviewed the testimony of Detective
Wolbert and we agree with the trial judge that it was
not testimonial in nature and was not offered for the
truth about Defendant’s conduct. Detective Wolbert
was merely testifying as to how he came by certain
information during his investigation, who he spoke
to, and how certain information he received lead him
to other persons who might have information related
to the double homicide; therefore, we find that the
trial court did not commit error when it determined
that the testimony of Detective Wolbert did not
constitute hearsay. Moreover, we find that Defendant
has failed to show that the trial court misapplied the
law, or exercised judgment that was manifestly unreasonable, or that the ruling was the result of bias,
prejudice, ill-will or partiality on the part of the trial
judge. Therefore, Defendant’s claim that the trial court
erred when it overruled the hearsay objection fails.
Next, we will address defense counsel’s motion
for a mistrial based on the alleged hearsay testimony
of Detective Wolbert. Defendant alleges that his
constitutional rights to confront his accusers and
cross-examine witnesses were violated, and as a result,
he as was entitled to a mistrial.
The Pennsylvania Supreme Court has held that
“[A] mistrial may be granted only where the incident
upon which the motion is based is of such a nature that
its unavoidable effect is to deprive the defendant of a
fair trial by preventing the jury from weighing and
rendering a true verdict.” Com. v. Simpson, 754 A.2d
1264, 1272 (PA.2000) (citations omitted). Having
concluded that the testimony of Detective Wolbert
was not hearsay, we find that the motion for mistrial

App.106a
was properly denied. Defendant has failed to prove
that Detective Wolbert’s testimony, upon which the
motion for mistrial was based was of such a nature
that its unavoidable effect was to deprive him of a
fair trial by preventing the jury from weighing and
rendering a true verdict. Consequently, Defendant’s
claim that the denial of his motion for mistrial
stripped him of his constitutional rights to confront
his accusers and confront witnesses is without merit.
For the foregoing reasons, Defendant’s allegation
that the trial court erred in allowing prejudicial
hearsay testimony to be represented through the
testimony of Detective Wolbert is dismissed.
TRIAL COUNSEL INEFFECTIVENESS
Defendant’s remaining claims of ineffective
assistance of trial counsel will be discussed in the
following order: (1) failing to interview eyewitnesses;
(2) failing to review cell phone records of Defendant;
(3) failing to adequate investigate alibi witnesses and
for not filing the proper Notice of Alibi Defense; (4)
failing to object to trial court error in allowing prosecution to portray Defendant as a drug dealer; (5)
failing to file motion to recuse trial judge; (6) failing
to request evidentiary hearing regarding contact
between Juror No. 2 and Commonwealth witness;
and (7) failing to object to introduction of photograph
of victim and daughter. As will be discussed below
many of these claims were raised by Defendant in
post-trial motions and on direct appeal.
The standard of review for ineffective assistance
of counsel is the same under the PCRA. as it is for
direct appeals. Com. v. Kimball, 724 A.2d 326, 330
(Pa. 1999). In order to make out a claim for ineffective

App.107a
assistance of counsel, Defendant must prove: “(1)
that the underlying claim is of arguable merit; (2)
that counsel’s course of conduct was without a reasonable basis designed to effectuate his client’s
interest; and (3) that he was prejudiced by counsel’s
ineffectiveness, i.e., that there is a reasonable probability that but for the act or omission in question the
outcome of the proceeding would have been different.”
Com. v. Ford, 809 A.2d 325, 330-331 (Pa. 2002), cut,
denied 540 U.S. 1150 (S. Ct. 2002) (citation omitted.).
“A failure to satisfy any prong of the test for ineffectiveness will require rejection of the claim.” Com. v.
Miller, 868 A.2d 578, 581 (Pa. Super. 2005). A claim is
of arguable merit where there was an act or omission
of “questionable legal soundness.” Com. v. Hickman,
799 A.2d 136, 140 (Pa. Super. 2002), quoting Com. v.
Davis, 541 A.2d 315, 318 (Pa. 1988). “A PCRA petitioner ‘cannot obtain post-conviction review of claims
that were previously litigated by alleging ineffectiveness of prior counsel and presenting new theories
of relief to support a previously litigated claim.’”
Marinelli, supra at 1264 (Pa. 2002). “A post-conviction claim of ineffective assistance of counsel raises a
distinct legal ground, rather than an alternative
theory in support of the same underlying issue that
was raised on direct appeal, and, thus, ineffectiveness
claims are distinct from previously litigated issues
and may be brought in post-conviction proceedings.”
Com. v. Collins, 888 A.2d 564, 585 (Pa. 2005).
Trial Counsel was Ineffective for Failing to Interview
Eyewitnesses
Defendant claims that trial counsel was ineffective
for failing to interview eyewitnesses at the scene of the
crime. [Deft.’s Pro Se Brief, 11/19/10, p.25; Supple-

App.108a
mental PCRA, 3/31/11, ¶ 6(e)(5), p.2.] Defendant asserts
that trial counsel “failed to obtain vital information
that could have been exculpatory” for him. [Deft.’s Pro
Se Brief, 11/19/10, p.25.]
This issue was previously and thoroughly
addressed in the trial court’s Opinion denying Defendant’s Post-Sentence Motions. At that time, the court
found Defendant’s claim to be without merit. Although
defense counsel may not have interviewed the eyewitnesses prior to trial, he did cross-examine them at
trial. Accordingly, the trial court found that Defendant
“failed to establish that he was prejudiced by counsel’s
failure to interview these witnesses.” [Trial Ct. Opinion,
2/15/07, p.24.]
The Defendant raised the same issue on direct
appeal; however, the Superior Court found that although the trial court had addressed this issue in its
Opinion denying Defendant’s post-sentence motion, it
had not conducted an evidentiary hearing to allow
Defendant to develop his claim. Therefore, the Superior
Court dismissed this ineffectiveness claim without
prejudice to raise it later in a PCRA petition. [Superior
Ct. Memorandum, 1/11/08, p.18.] Inasmuch as the
Superior Court, the highest court in which Defendant
could have had review as of right, did not rule on the
merits of this issue, it has not been previously
litigated. 42 Pa. C.S. § 9544(a)(2), Marinelli, supra at
1266. Therefore, we must proceed to address it at
this time.
Defendant first argues that since there was more
than one person in the group of people on Main
Street at the time of the crime, if counsel had interviewed them, he would have obtained information
that “was vital and pertinent” to his defense because

App.109a
such information “dealt with the identification of the
Petitioner’s vehicle, which was the cause of the Petitioner being a suspect.” [Deft.’s Pro Se Brief, 11/19/10,
p.26.]
The failure to call a particular witness does not
establish ineffectiveness unless there is proof that
the witness would have been beneficial in establishing
the asserted defense. Commonwealth v. Wheatley,
998 Criminal 2000 (Monroe Co. 2005, p.10) (O’Brien,
J.), citing Commonwealth v. Durst, 552 Pa. 2, 559
A.2d 504 (1989); Commonwealth v. Drass, 718 A.2d
816 (Pa. Super. 1998).
The trial court previously noted that “there were
only two groups of witnesses: (1) those in Defendant’s
car, and (2) the group of people on Main Street.”
[Trial Ct. Opinion, 2/15/07, p.24.] The court also noted
that the Commonwealth had offered the testimony of
Kasine George, an occupant in Defendant’s car, and
that of Ahmed Osman, one of the pedestrians on
Main Street and that each of these witnesses were
cross-examined by trial counsel. [Trial Ct. Opinion,
2/15/07, p.24.] Trial counsel, Attorney Brian Gaglione,
testified at the PCRA hearing that he had provided
information to Detective Wilson Miller of the Public
Defender’s Office regarding certain people and he
asked him to try and track them down. Attorney
Gaglione stated that Detective Miller was unsuccessful
in locating, these people because many of those
involved in this case had “sort of dispersed into the
four winds”—they were no longer in Monroe Count.
He further testified that he had the transcript from
the Powell case, plus all of the witnesses’ statements,
but he couldn’t recall specifically talking to anybody
prior to trial.” [PCRA, N.T., 10/4/11, p.20.]

App.110a
Other than the bald assertion that trial counsel
would have obtained information that “was vital and
pertinent” to his defense because such information
“dealt with the identification of the Petitioner’s vehicle,
Defendant has not offered any evidence to support
his claim that the eyewitnesses, whom he does not
identify by name, would have been beneficial in
establishing the asserted defense.
Next, Defendant contends that “[I]t is vital and
pertinent to determine if the group of people can actually see the make and model of the car from its side
doors at night in an alley with no lights, and the fact
that they stood over 200 feet or 60 yards away.”
Defendant claims that it would be “almost impossible
to identify a car from the side at that distance in the
daytime.” [Deft.’s Pro Se Brief, 11/19/10, pp.26-28.]
When asked why he decided not to take the jury to
the scene to “see how dark it was”; “how far the alley
went down”; and “whether the witness could see
everything he said he could see”, Attorney Gaglione
did not have an answer. He stated that his focus was
on the witness who placed Defendant at the scene.
Attorney Gaglione testified that “If the witness that
placed my client at the scene is somebody who was
familiar with my client he was, according to his own
testimony, in the same car as my client.” He further
testified that his trial strategy was “to try and
discredit the testimony of the many witnesses of the
prosecution.” [PCRA, 10/14/11, p.14.]
As the trial court noted, although counsel may
not have interviewed the eyewitnesses prior to trial,
he did cross-examine them at trial. Furthermore, we
believe that Attorney Gaglione’s trial strategy regarding
the eyewitnesses was based on sound legal reasoning.

App.111a
Consequently, we find that Defendant has failed show
that the underlying claim has arguable merit, that
counsel’s course of conduct was without a reasonable
basis designed to effectuate his client’s interest, or
that there is a reasonable probability that the outcome
of his trial would have been any different had trial
counsel interviewed the eyewitnesses prior to trial or
taken them to the scene of the crime. Accordingly,
Defendant’s claim that trial counsel was ineffective
for failing to interview eyewitnesses lacks merit and
is, therefore, dismissed.
Trial Counsel was Ineffective for Failing to Review
Cell Phone Records
In his next claim of ineffective assistance of
counsel, Defendant asserts that trial counsel was
ineffective for failing to review his cell phone records.
[Deft.’s Pro Se Brief, 11/19/10, p.25; Supplemental
PCRA, 3/31/11, ¶ 6(e)(4), p.2.] Defendant alleges that
had Attorney Gaglione researched his cell phone
records it would have led him to the identity of another
alibi witness.
The trial court previously addressed this issue
in its Opinion denying Defendant’s Post-Sentence
Motions. At that time, the court noted that Defendant
had failed to provide the name of any witness that
would have been identified from his cell phone records
or how their testimony would have been beneficial to
his defense. Therefore, the court determined “that no
viable alibi witness could possibly be derived from a
review of Defendant’s cell phone records; thus this
claim also lacks merit.” [Trial Ct. Opinion, 2/15/07,
p.24-25.]

App.112a
The same issue was raised on direct appeal;
however, like the previous claim of ineffective assistance
of trial counsel, the Superior Court found that although
the trial court had addressed this issue in its Opinion
denying Defendant’s post-sentence motion, it had not
conducted an evidentiary hearing to allow Defendant
to develop his claim. Therefore, the Superior Court
dismissed this ineffectiveness claim without prejudice
to raise it later in a PCRA petition. [Superior Ct.
Memorandum, 1/11/08, p.18.] Inasmuch as the Superior
Court, the highest court in which Defendant could have
had review as of right, did not rule on the merits of
this issue, it has not been previously litigated. 42 Pa.
C.S. § 9544(a)(2), Marinelli, supra at 1266. Therefore,
we must proceed to address it at this time.
Defendant argues that “[T]he significance of the
Petitioner’s cell phone records as to his defense: it
proves that the Petitioner was in another state at or
around the time of the offense, and it refutes the
Commonwealth’s principal witness that the Petitioner
was with him in Pennsylvania committing a crime.”
[Deft.’s Pro Se Brief, 11/19/10, p.30.] Defendant also
argues that the cell phone records would have
undoubtedly and unequivocally placed him in New
Jersey at or around the time of the crime; therefore,
“[I]t was pertinent as it clearly refuted the cooperating
witness testimony that he along with the Petitioner
and another codefendant committed the offense and
stayed in Pennsylvania.” [Deft.’s Pro Se Brief, 11/19/10,
p.31.]
When questioned about cell phone records at the
PCRA hearing, Attorney Gaglione stated that he didn’t
remember a conversation with Defendant wherein he
allegedly told him that “the cell phone records showed

App.113a
that he was in New Jersey but the last phone call
was about 10 minutes away” and that “you didn’t
want to use it because he could have gotten there in
10 minutes.” [PCRA, N.T., 10/4/11, p.22.] He stated
that he couldn’t “remember one way or the other if
there were cell phone records that indicated that he
was in New Jersey.” He further stated:
I guess it would depend on whether it was—
whether or not that telephone conversation
took place before or after the alleged time
slot. If it took place afterwards certainly, you
know, Stroudsburg is no more than a matter
of about 10 minutes away from New Jersey.
So that would not necessarily help us. If it
was before, it may have. I really don’t know.
I don’t remember, like I said, one way or the
other whether there was even any issue
with regard to cell phone records.
[PCRA, N.T., 10/4/11, pp.22-23.]
Defendant has once again failed to assert the
identity of any witnesses with whom he may have
had conversations with at the time of the murders.
He merely asserts that the records prove that the he
was in another state at or around the time of the
offense, and that would refute the testimony of
Kasine George, the Commonwealth’s principal witness,
who testified that Defendant was with him in
Pennsylvania committing the crime. As trial counsel
correctly stated, New Jersey is only about 10 minutes
away from the scene of the crime, so such information
would not necessarily be helpful to the defense. The
trial court noted in its post-sentence Opinion: “a
person on the other end of a call made from a cell
phone would illustrate nothing more than that they

App.114a
were not with the Defendant.” [Trial Ct. Opinion,
2/15/07, p. 24.] The trial court also determined that a
person on the other end of a cell phone call “would
not be able to provide credible testimony as to the
whereabouts of Defendant at the time of the murders.”
[Trial Ct. Opinion, 2/15/07, p.24-25.] Based on the
foregoing, we adopt the prior findings of the trial
court that “no viable alibi witness could possibly be
derived from a review of Defendant’s cell phone
records; thus this claim also lacks merit.
Accordingly, we find that Defendant has failed
show that the underlying claim has arguable merit,
that counsel’s course of conduct was without a reasonable basis designed to effectuate his client’s
interest, or that there is a reasonable probability
that the outcome of his trial would have been any
different had trial counsel reviewed his cell phone
records. Failure to satisfy any one of the prongs of
the test for ineffective assistance of counsel requires
dismissal. Accordingly, Defendant’s claim that trial
counsel was ineffective for failing to review his cell
phone records lacks merit and is, therefore, dismissed.
Failure to Adequately Investigate Alibi Witnesses
Defendant claims that trial counsel was ineffective
for failing to properly investigate Defendant’s alibi
witnesses and for not filing the proper Notice of Alibi
Defense (Deft.’s Pro Se Brief, 11/19/11, p.33; Supplemental PCRA, 3/31/11, ¶ 6(c), (e)(5), p.2). Defendant
alleges that trial counsel’s failure to properly investigate
his alibi witnesses whose testimonies “would have
proved that the Petitioner could not have committed
the offense for the reason that he was somewhere else

App.115a
other than the scene of the crime.” [Deft.’s Pro Se
Brief, 11/19/11, p.34.]
The trial court thoroughly addressed this issue
in its Opinion denying Defendant’s Post-Sentence
Motions. At that time, the court noted that “[T]he
contact-information provided to counsel was outdated
and/or insufficient” and that the alleged alibi witness,
Latascha Green, supplied counsel “with two different
versions of the events.” [Trial Ct. Opinion, 2/15/07,
p.23.] The court noted that if counsel had called Ms.
Green to testify at trial, he “would have to knowingly
provide information which he knew was not corroborated by the very witness he was seeking to offer.”
Therefore, the court determined that Defendant had
“failed to show that counsel’s course of conduct was
without a reasonable basis designed to effectuate his
client’s interest or that he was prejudiced by counsel’s
actions regarding the Notice of Alibi. [Trial Ct.
Opinion, 2/15/07, p.24.]
Defendant raised this same issue again on direct
appeal to the Superior Court; however, the Superior
Court found that although the trial court had addressed
this issue in its Opinion denying Defendant’s postsentence motion, it had not conducted an evidentiary
hearing to allow Defendant to develop his claim.
Therefore, the Superior Court dismissed this ineffectiveness claim without prejudice to raise it later in a
PCRA petition. [Superior Ct. Memorandum, 1/11/08,
p.18.] Inasmuch as the Superior Court, the highest
court in which Defendant could have had review as
of right, did not rule on the merits of this issue, it
has not been previously litigated. 42 Pa. C.S. § 9544
(a)(2), Marinelli, supra at 1266. Therefore, we must
proceed to address it at this time.

App.116a
The first part of Defendant’s claim relates to his
allegation that counsel failed to properly investigate
alibi witnesses. Defendant argues that the trial judge
accused him of “attempting to fabricate an alibi that
involves a woman whom he was allegedly engaging
in sex at a particular location which, unfortunately
for the defendant, was not supported when the woman
in question failed to confirm his version of events”
and therefore, “[T]he alibi provided by Latascha Green
was both amorphous and evolving at best.” [Deft.’s
Pro Se Brief, 11/19/10, p.34, citing Trial Ct. Opinion,
2/15/07, p.24.] Defendant asserts that he could not
challenge or refute the Trial Judge’s accusation because
he never received or saw any statement by Ms. Green
that did not confirm his version of the events. He
argues that this is due to defense counsel’s failure to
properly investigate alibi witnesses. [Deft.’s Pro Se
Brief, 11/19/10, p.34.]
Attorney Gaglione testified that as soon as Defendant gave him Latascha Green’s name, whereabouts
and telephone number, he proceeded to investigate
the alibi witness. He stated that after speaking with
Mr. Tyson at length about where he was on the day
in question and what he was doing, all the specifics
surrounding that, he spoke with Ms. Green. Attorney
Gaglione also stated that he asked Ms. Green openended questions to allow her to explain to him “exactly
where she was and how she knew she was there and
how she knew the timeframe and all those things.”
Attorney Gaglione stated that “essentially all of what
she said was diametrically opposed to what he had
told me.” He testified that he did a memo to the file
outlining all of the inconsistencies between her version
of events and Mr. Tyson’s version of events. He

App.117a
recalled that “the inconsistencies were so blaring
(sic) that it was evident that either one or both of
them was not telling me the complete truth.” [PCRA,
N.T., 10/4/11, pp.5-7.]
On cross-examination, Attorney Gaglione testified
that Defendant did not provide him with any other
alibi witnesses other than Ms. Green. He stated that
“[T]he only indication that he gave me was that he
was having sex alone in the car with a woman”; thus
that there would not have been any other alibi
witnesses because “it was a sexual encounter between
him and another woman in the car. It would not have
been seen by other witnesses that he would have been
aware of.” [PCRA, 10/4/11, p.24.]
Based on the foregoing testimony, we find that
Attorney Gaglione’s reasons for not calling Ms. Green
as an alibi witness for Defendant were based on
sound legal reasoning. Inasmuch as her version of
events differed from Defendants, he would have been
suborning perjury if he had called her to the stand.
Furthermore, Defendant did not provide counsel with
the names of any other prospective alibi witnesses
and, as Attorney Gaglione noted, it is unlikely that
there would have been any other persons who could
alibi Defendant for the time of the murders since he
was supposedly engaged in a sexual encounter with
Ms. Green in a car. Therefore, Defendant’s claim that
trial counsel was ineffective for failing to adequately
investigate alibi witnesses lacks merit.
The second part of this claim relates to the filing
of a proper Notice of Alibi Defense. Defendant asserts
that Attorney Gaglione “readily admits he filed the
notice late but stated that he ‘didn’t really think that
the District Attorney’s Office would give me a hard

App.118a
time with regard to filing the alibi a little bit late.”
Defendant contends that this is per se ineffectiveness.
[Supplemental Brief, 11/14/11, p.5, citing T.T., p.6.]
Attorney Gaglione testified that he filed the
Notice of Alibi Defense as soon as Defendant provided
him with the name and whereabouts of Ms. Green.
Attorney Gaglione testified that at the time he met
with Defendant, he was being held on federal charges
and because Ms. Green was apparently named as a
possible co-conspirator in that case, he not “want to
potentially harm her with regard to retaliation by
the feds, if she were to come forward and provide an
alibi in his murder case.” [PCRA, N.T., 10/4/11, p.6.]
Attorney Gaglione stated that Defendant did not provide him with Ms. Green’s contact information until
after the federal investigation was concluded. [PCRA,
N.T., 10/4/11, p.7.] As a result, the Notice of Alibi
Defense was filed late. Attorney Gaglione testified
that he did not believe the District Attorney’s Office
would have a problem with the late filing so long as
it complied with all the other requirements of the
rules relating to adequacy of alibi notices. [PCRA,
N.T., 10/4/11, p.6.]
The record reflects that the Commonwealth filed
a Motion to Quash the Notice of Alibi Defense and
following oral argument, the court granted the
Commonwealth’s Motion and quashed the Notice of
Alibi Defense. Consequently, we find that Attorney
Gaglione was precluded from calling any of the
witnesses named in the Amended and Second Amended
Notice of Alibi. Furthermore, we have reviewed the
trial court’s post-sentence Opinion in light of the
testimony offered by Attorney Gaglione and find that
the court has presented a very thorough and well-

App.119a
reasoned analysis on this issue. [See Trial Ct, Opinion,
2/15/07, pp.19-24.] Therefore, for the reasons stated
by the trial court and based on the PCRA testimony
of Attorney Gaglione, we find that Defendant has
failed to meet his burden of establishing that trial
counsel was ineffective for failing to file the proper
Notice of Alibi Defense. Consequently, this claim
lacks merit.
In accordance with the above, we conclude that
Defendant is not entitled to post-conviction relief
because he has failed to establish that this claim has
arguable merit, that counsel’s course of conduct was
without a reasonable basis designed to effectuate his
client’s interest, or that there is a reasonable probability
that the outcome of his trial would have been any
different had trial counsel conducted a more thorough
investigation into the alibi witness or filed the Notice
of Alibi Defense on time. Accordingly, Defendant’s
claim that trial counsel was ineffective for failing to
adequately investigate alibi witnesses and for not
filing the proper Notice of Alibi Defense is dismissed.
Failure of Trial Counsel to Object to Trial Court
Error in Allowing Prosecution to Portray Defendant
as a Drug Dealer
Defendant asserts that trial counsel was ineffective
for failing to object to trial court’s error in allowing
Prosecution to portray Defendant as a drug dealer
throughout the entire trial. [Deft.’s Pro Se Brief,
11/19/10, p.36.] Defendant claims that defense counsel
allowed him “to be portrayed as a drug dealer through
his entire trial when it was prejudicial and irrelevant,
as the trial was for a non-drug related homicide.”
[Deft.’s Pro Se Brief, 11/19/10, p.36.]

App.120a
A review of the record reveals that Defendant
raised a similar issue in his post-sentence motions
wherein he claimed that trial counsel was ineffective
for failing to object to the Commonwealth’s continued
portrayal of the Defendant as a drug dealer. [Trial
Ct. Opinion, 2/15/07, p.17.] The trial court determined
that the Defendant’s allegation of trial counsel
ineffectiveness for failing to object to the portrayal of
Defendant as a drug dealer was without merit. The
court further opined that “pursuant to Rule 404(b)(2),
such references are permissible for the purpose of
establishing the chain or sequence of events that
formed the history and were part of the natural
development of the case.” [Trial Ct. Opinion, 2/15/07,
p.19.] In reaching this decision, the court noted that
the Commonwealth’s theory of the case was that
“Daniel and Keith Fotiathis were murdered out of
fear of disturbing Defendant’s drug ring.” [Trial Ct.
Opinion, 2/15/07, p.19.]
Again, this same claim was raised by Defendant
on direct appeal and the Superior Court dismissed
the claim without prejudice to be raised in a PCRA
petition. [Superior Ct. Memorandum, 1/11/08, p.18.]
In his PCRA Petition, however, Defendant states his
claim differently. Here, he is asserting an alternative
theory in support of the same underlying issue. Both
the prior claim and the present claim assert allegations
of ineffective assistance of trial counsel that are
related to the Commonwealth’s portrayal of Defendant
as a drug dealer. However, the issued raised in postsentence motions and on direct appeal asserts that
counsel was ineffective for failing to object to the
“Commonwealth’s portrayal” of Defendant as a drug
dealer. In the current claim, Defendant asserts the

App.121a
alternate theory that counsel was ineffective for
failing to object to “trial court error” in allowing the
Commonwealth to portray him as a drug dealer. The
Superior Court, the highest court in which Defendant
could have had review, did not address the merits of
the underlying claim; therefore, we cannot find that
it was previously litigated. Therefore, we must proceed
to address the issue at this time.
In this claim of trial counsel ineffectiveness,
Defendant’s underlying allegation is one of trial court
error. Thus, before we can determine whether counsel
was ineffective for failing to object, we must determine whether the underlying claim of trial court
error is of arguable merit. Defendant contends that
the trial court believes “that the Commonwealth’s
case revolved around the ‘Theory’ that the victims
death ‘was done so in the furtherance of an illegal
drug selling ring.’” [Deft.’s Pro Se Brief, 11/19/10,
pp.36-37, citing Trial Ct. Opinion, 2/15/07, p. 18.] He
argues that such evidence portraying him as a drug
dealer was prejudicial and irrelevant since the trial
was for a non-drug related homicide. [Deft.’s Pro Se
Brief, 11/19/10, p.36.] Defendant’s claim of trial court
error is based on rulings made by the trial court on
post-sentence motions. Specifically, Defendant asserts
that the trial court erred “ . . . when it asserted that
the portrayal of the Petitioner as a violent drug
dealer was ‘part of the case and were part of the
natural development.’” [Deft.’s Pro Se Brief, 11/19/10,
p.36, citing Trial Ct. Opinion, 2/15/07, p.19.] Although
Defendant claims that the trial court erred in its’
ruling, he did not raise a separate claim of trial court
error on this issue.

App.122a
Defendant argues that the purported theory of
the Commonwealth that the motive for the shooting
of the Fotiathis Brothers was that they ‘interrupted’
the alleged ‘drug ring’ is not shown by the evidence.
He contends that this theory “was simply a ruse for
the Commonwealth the (sic) introduce impermissible
evidence of prior bad acts of the defendant in an
effort to prejudice the jury.” [Supplemental PCRA,
3/31/11, ¶ 6(f), p.3.] Defendant also argues that the
probative value of such evidence did not outweigh its
potential prejudice, and that “[T]here is no reasonable
basis to determine that allowing such irrelevant and
prejudicial testimony was in the best interest of the
Petitioner.” Defendant asserts that “[N]othing
prevented defense counsel from objecting or challenging
the violation with a motion to suppress the portrayal
of the Petitioner as a violent drug dealer” (Deft.’s Pro
Se Brief, 11/19/10, p.38); and there is no nexus
between the alleged facts and the motive for the
shootings. [Supplemental PCRA, 3131/11, ¶ 6(f), p.3.]
The Commonwealth argues that “Attorney
Gaglione’s actions were based on a valid trial strategy
that was also reviewed by his client”; therefore, his
present claim of ineffective assistance of counsel should
be dismissed. [Com.’s Brief, 11/30/11, p.9.]
Attorney Gaglione testified at the PCRA hearing
that he recalls the Commonwealth’s theory of the
case being either an “anger situation that occurred
sort of at the spur of the moment at a station prior to
the actual homicide” or “there was also possibly an
overlay where these people may have, the assailants,
may have recognized the victims as potential, . . . drug
dealers that would be honing in on their turf” and
“As a result, they took matters into their own hand

App.123a
(sic) to take care of that,” [PCRA, N.T., 10/4/11, p.10.]
When asked if he thought that evidence of drugs on
either side might have prejudiced the jury, Attorney
Gaglione admitted that it might have, although his
thought process on the whole thing was that he knew
there was going to be a witness “who was going to
admit his own involvement in the crime and was
going to point the finger at my client” and so he had
to explain the relationship between them. [PCRA,
N.T., 10/4/11, p.11.] Attorney Gaglione testified that
he “felt that it would behove (sic) us to actually bring
out evidence of the fact that my client was a drug
dealer and was not a good guy. But so was the
witness who was testifying against him.” He stated
that he believed it was best to show the jury that
because the witness was aware of the drug lifestyle
and how to get himself out of trouble, “[I]t could give
him a reason to fabricate a story against my client.”
[PCRA, N.T., 10/4/11, p.11.]
After reviewing the trial record and considering
trial counsel’s PCRA testimony regarding his trial
strategy, we find, as did the trial court, that the
underlying claim that the Commonwealth’s portrayal
of Defendant as a drug dealer was prejudicial and
irrelevant has no merit. Likewise, the claim that the
trial court committed error by allowing the
Commonwealth to present evidence of Defendant’s
relationship to the drug world is without merit.
Therefore, Defendant has failed to meet the first
prong of the test for ineffectiveness. Failure to satisfy
any prong of the test requires rejection of the claim.
Accordingly, Defendant’s claim that trial counsel was
ineffective for failing to object to trial court error in

App.124a
allowing prosecution to portray Defendant as a drug
dealer is dismissed.
Failure of Trial Counsel to File Motion to Recuse
Trial Judge
Defendant claims that trial counsel was ineffective
for failing to file a Motion to Recuse Trial Judge
based on bias. [Deft.’s Pro Se Brief, 11/19/10, p.39;
Supplemental PCRA, 3/31/11, ¶ 6(e)(1), p.2.] Defendant
asserts that the trial judge’s biasness toward him
was evident. [Deft.’ s Pro Se Brief, 11/19/10, ¶¶ 1-11,
pp.39-41.] In general, he claims that “ . . . the Trial
Judge granted every request and motion made on
behalf of the Commonwealth and denied every request
and motion of the Petitioner’s that would have proven
his innocence. The Trial Judge clearly showed his
personal biasness towards the Petitioner.” [Deft.’s
Pro Se Brief, 11/19/10, ¶ 11, pp.40-41, citing N.T.,
Sentencing, 7/17/06.]
The underlying claim regarding recusal of the
trial judge was previously raised in post-trial motions.
The trial court initially found that the issue is
deemed waived for failure to move for recusal at the
earliest possible moment (Trial Ct. Opinion, 2/15/07,
p.11); however, the trial court went on to address the
claim. The court ultimately denied the claim stating
that “Defendant has failed to allege any facts in support of his claim, and there is nothing on the record
that would indicate any bias, prejudice or any other
disqualifying factors on the part of this judge.” Thus,
the trial court found that “Defendant’s claim of trial
court error based on the failure of the trial judge to
recuse himself is without merit.” [Trial Ct. Opinion,
2/15/07, p.12.]

App.125a
On direct appeal, Defendant raised the issue of
“whether the trial court erred in not recusing itself
after presiding over the acquittal of the coactor.”
[Superior Ct. Memorandum, 1/11/08, p.1.] He also
asserted a claim of trial counsel ineffectiveness for
failing to “move that the trial court recuse itself.”
[Superior Ct. Memorandum, 1/11/08, p.16.] With respect
to the claim of trial court error, the Superior Court
determined that the claim had been waived. Specifically, the Court stated that “Appellant points to no
place in the record showing he made a motion for the
trial court to recuse itself, and we have found no such
motion. In fact, Appellant argues his trial counsel
was ineffective in not making such a motion. Because
the matter was not preserved, it is waived.”
[Superior Ct. Memorandum, 1/11/08, p.16, citing Pa.
R.A.P. 302(a).]
Because the claim of trial court error has been
waived, we are precluded from addressing that issue
in this PCRA. However, because Defendant’s claim of
trial counsel ineffectiveness for failing to move for
recusal was raised on direct appeal, but was not
addressed on its merits, we must address that claim
at this time.
Defendant asserts that “where alleged facts tend
to show bias, interests or other disqualifying factors,
it is proper for the Trial Judge to recuse himself.”
[Deft.’s Pro Se Brief, 11/19/10, p.39.] Defendant argues
that: “defense counsel lacked the good-faith to protect
and defend the Petitioner, . . . ; [h]is neglect to investigate the personal displeasure of the Trial Judge
and file the motion to recuse did not effectuate the
Petitioner’s interest for a fair trial; [r]esults of the
cumulative prejudice that derived from the Trial

App.126a
Judge’s biasness, Petitioner was helpless at defending
himself and was found guilty; [h]ad the defense counsel
raised the motion for the Trial Judge to recuse
himself; the Petitioner stands a strong probability at
defending himself in a fair and impartial tribunal
where the Trial Judge does not have any personal
feelings or opinions on the guilt of the Petitioner.”
[Deft.’s Pro Se Brief, 11/19/10, p.42.]
In support of his claim, Defendant lists, ten (10)
disqualifying factors1 which appear to be the same or
similar allegations which he has asserted in support
of other claims raised in his post-sentence motions,
on direct appeal, and in the present PCRA petition.
Each of the asserted factors was considered with
respect to prior claims of trial court error, prosecutorial
misconduct or ineffective assistance of trial counsel,
and they have been deemed meritless. As the trial
court stated previously, “there is nothing on the
record that would indicate any bias, prejudice or any
other disqualifying factors on the part of this judge.”
[Trial Ct. Opinion, 2/15/07, p.12.] Therefore, we find
that Defendant has failed to show that any of the
underlying claims relating to recusal are of arguable
merit.
We have also reviewed the factors again in the
context of Defendant’s claim that trial counsel was
ineffective for failing to move for recusal and find
that Defendant has failed to establish that there is a
reasonable probability that but for the act or omission
in question the outcome of his trial would have been
different. Thus, Defendant has failed to establish the
1 The alleged disqualifying factors are listed in detail in Defendant’s Pro Se Brief at pages 39-40.

App.127a
“arguable merit” prong and the “prejudice” prong of
the ineffectiveness standard in connection with this
claim. Failure to satisfy any prong of the test requires
rejection of the claim. Accordingly, Defendant’s claim
that trial counsel was ineffective for failing to file a
motion to recuse trial judge is dismissed.
Failure to Request an Evidentiary Hearing Regarding
Contact Between Juror No. 2 and Commonwealth
Witness
Defendant alleges that trial counsel was ineffective
for failing to request an evidentiary hearing to determine the actual contact that was exchanged between
a Commonwealth witness (wife of one of the victims)
and Juror No. 2. [Deft.’ s Pro Se Brief, 11/19/10, p.42.]
Defendant asserts that “defense counsel should have
requested an evidentiary hearing for the reason to
query the Commonwealth’s witness and juror No. 2
to retrieve the entire conversation of the two.”
[Deft.’s Pro Se Brief, 11/19/10, p.42.] He argues that
“[T]he conclusive fact that the Commonwealth’s
witness made any type of comment to a juror demanded
some course of action to protect the Petitioner’s Right
to a Fair and Impartial trial by jury.” [Deft.’s Pro Se
Brief, 11/19/10, p.42.]
Defendant raised this same issue in post-sentence
motions wherein he claimed that “the trial court
erred in not granting a mistrial, or in the alternative,
dismissing Juror No. 2 after it was brought to the
court’s attention that there was incidental contact
between the wife of Daniel Fotiathis and Juror No.
2.” The trial court thoroughly addressed this issue
and determined that “no abuse of discretion or trial
court error with respect to Juror No. 2” had occurred

App.128a
and Defendant’s request for a mistrial was denied.
[Trial Ct. Opinion, 2/15/07, p.10.]
On direct appeal, Defendant raised the same
claim asserting that the trial court erred in not
granting a mistrial or in not dismissing a certain
juror after the juror had contact with a victim’s wife.
[Superior Ct. Memorandum, 1/11/08, p.8.] The Superior
Court thoroughly addressed the claim and determined
that there was “no evidence of bias, partiality, prejudice,
ill-will, manifest unreasonableness or misapplication
of law in the court’s determinations” and, therefore,
“there was no abuse of discretion in failing to order a
mistrial and, similarly, Appellant has not shown
there was any reason to excuse the juror.” “Appellant’s
claim fails.” [Superior Ct. Memorandum, 1/11/08, p.8.]
Presently, Defendant raises the same underlying
claim by asserting a new theory of relief under the
guise of ineffective assistance of trial counsel for
failing to request an evidentiary hearing regarding
the contact between Juror No. 2 and the victim’s
wife. However, inasmuch as the Pennsylvania Superior
Court, the highest court in which Defendant could
have had review as a matter of right, has ruled on
the merits of the underlying claim regarding the
contact between Juror No. 2 and the victim’s wife, we
find that this claim has been previously litigated.
Nevertheless, “a post-conviction claim of ineffective
assistance of counsel raises a distinct legal ground,
rather than an alternative theory in support of the
same underlying issue that was raised on direct
appeal. Thus, ineffectiveness claims are distinct from
previously litigated issues and may be brought in
post-conviction proceedings.” Collins, supra. Even so,
Defendant must still present prove each prong of the

App.129a
test for ineffective assistance of counsel. Since the trial
court and Superior Court have both found Defendant’s claim to be meritless, Defendant cannot establish that the underlying claim is of arguable merit.
Therefore, he has failed to satisfy the first prong of
the test for ineffective assistance of counsel. Failure
to satisfy any prong of the test requires rejection of
the claim. Accordingly, Defendant’s claim that trial
counsel was ineffective for failing to request an evidentiary hearing regarding the contact between Juror
No. 2 and the victim’s wife is dismissed.
Failure to Object to Introduction of Photograph of
Victim and Daughter
Defendant asserts that counsel was ineffective
for failing to object to the introduction of a photograph
of the victim, Keith Fotiathis and his daughter, i.e.,
Commonwealth’s Exhibit No. 4. [Supplemental PCRA,
3/31/11, ¶ 6(e)(3), p.3.] Defendant asserts that the
photograph of victim, Keith Fotiathis, and his daughter
“served no purpose other than to elicit undue emotion
from the jury.” [Deft.’s Supplemental Brief, 11/14/11,
p.8.] Defendant claims that trial counsel failed to
object to the introduction of the picture and “as such,
it prejudiced the jury.” [Deft.’ s Supplemental Brief,
11/14/11, p.8.]
The identical claim of ineffective assistance of
trial counsel was previously addressed by the trial
court in its’ Opinion denying Defendant’s Post-Sentence
Motions. The court found that the admission of the
photograph, Commonwealth No. 4, was not done so
in error. [Trial Ct. Opinion, 2/15/07, p.15.] The trial
court reviewed the testimony of April Fotiathis regarding the photograph of the victim, Daniel Fotiathis,

App.130a
and his daughter and found that “the admission of
this photograph was not accompanied by the highly
irrelevant and emotional testimony about the life the
victims led, their character, reputation, or the loss
that surviving relatives suffered.” [Trial Ct. Opinion,
2/15/07, p.16.] The court stated that “while this testimony may have been mildly irrelevant and emotional,
it does not rise to the level of testimony designed to
inflame the minds and passions of the jurors. Thus,
its admission was not prejudicial.” [Trial Ct. Opinion,
2/15/07, p.17.] The court also stated that “there is no
reasonable probability that the outcome of Defendant’s trial would have been any different had trial
counsel-objected to the admission of Commonwealth’s
Exhibit No. 4.” [Trial Ct. Opinion, 2/15/07, p.17.]
The same issue was raised again on direct appeal;
however, the Superior Court dismissed it without
prejudice to raise in a PCRA petition. [Superior Ct.
Memorandum, 1/11/08, p.18.] Inasmuch as the Superior
Court, the highest court in which Defendant could
have had review, did not address the merits of this
claim, we cannot find that it was previously litigated.
Therefore, we will address the merits of the claim in
the context of a PCRA claim.
Defendant’s only argument in support of this
claim is a self-serving statement that introduction of
the photograph of the victim with his daughter
“served no purpose other than to elicit undue emotion
from the jury.” [Deft.’s Supplemental Brief, 11/14/11,
p.8.] Defendant argues that “[E]vidence introduced to
result in sympathy to the victim’s family, while
having no direct relationship to the facts and circumstances of the crime, is impermissible during the
guilt phase of trial.” [Deft.’s Supplemental Brief,

App.131a
11/14/11, p.8, citing Com. v. May, 898 A.2d 559 (Pa.
2006); Com. v. Story, 383 A.2d 155 (Pa. 1978). The
Commonwealth, on the other hand, argues that the
photograph was introduced “for the very limited purpose of establishing the identity of the victim, it was
not used in a greater attempt to inflame the passions
and prejudice of the jury.” [Deft.’s Supplemental Brief,
11/30/11, p.10.] Attorney Gaglione testified that he did
not remember the introduction of the picture of the
victim and his daughter, although he did not doubt
that it happened. [PCRA, N.T., 10/4/11, p.17.]
We have reviewed the testimony of April Fotiathis
regarding the photograph and, like the trial court; we
do not believe that the admission of this photograph
was accompanied by any highly irrelevant and
emotional testimony about the lives that the victims
led, their character, reputation, or the loss that their
surviving relatives suffered. [Trial Ct. Opinion, 2/15/07,
p.16.] Therefore, we find that that Defendant has
failed to prove that the introduction of the photograph
was prejudicial. Thus, Defendant failed to satisfy
both the “arguable merit” and the “prejudice” prongs
of the test for ineffective assistance of counsel.
Accordingly, Defendant’s assertion that trial counsel
was ineffective for failing to object to the introduction
of the photograph of the victim and his daughter,
Commonwealth No. 4, is dismissed.
APPELLATE COUNSEL INEFFECTIVENESS
Defendant raises an additional eight claims of
ineffective assistance by Appellate Counsel, Attorney
David Skutnik. Following the summary of claims, we
will address each one in seriatim below. Defendant
asserts that appellate counsel was ineffective for: (1)

App.132a
failing to adequately investigate and argue ineffective
assistance of trial counsel on direct appeal; (2) failing
to investigate and properly argue trial court’s failure
to instruct jury on specific intent of accomplice; (3)
failing to properly argue insufficiency of the evidence
in post-sentence motions and on direct appeal; (4)
failing to research and properly argue trial court
error for allowing prejudicial hearsay testimony; (5)
failing to argue prosecutorial misconduct; (6) failing
to research and raise a claim of trial counsel ineffectiveness for failing to file a proper Motion to Quash
Array; (7) failing to raise a claim of trial counsel
ineffectiveness for making an agreement, without
the consent or knowledge of Defendant, allowing
prosecutor to use prejudicial hearsay testimony; and
(8) failing to adequately argue undeveloped issues on
post-sentence motions and direct appeal.
The Commonwealth has failed to provide any specific argument in opposition to Defendant’s claims of
ineffectiveness against appellate counsel, but rather
its arguments focus on Defendant’s claims against
trial counsel.
Appellate Counsel was Ineffective for Failing to Adequately Investigate and Argue Ineffective Assistance
of Trial Counsel on Direct Appeal
Although Defendant titles this claim as “appellate
counsel ineffectiveness for failing to adequate investigate and argue trial counsel ineffectiveness on
direct appeal,” it is actually stated in his Brief as
“appellate counsel ineffectiveness for failing to ‘effectively and vigorously raise United States Constitutional violations, Pennsylvania State Constitutional
violations and non-frivolous claims in Petitioner’s

App.133a
appeal. He also claims that appellate counsel failed
to investigate and adequately argue ineffectiveness of
trial counsel on direct appeal. [Deft.’s Pro Se Brief,
11/19/10, p.45.]
Defendant argues that appellate counsel raised
invalid and weak arguments and ignored other issues
that are constitutional violations that would change
the outcome of the proceedings. [Deft.’ s Pro Se Brief,
11/19/10, p.45.] However, Defendant fails to identify
specifically which arguments were invalid, which
ones were weak and which constitutional violations
were ignored. He simply makes a general assertion of
ineffectiveness which he has failed to fully develop.
“Arguments which are not sufficiently developed are
waived.” Irby, supra at 464. “Issues which are not
supported by citation to appropriate legal authority
are waived.” Treasure Lake POA, supra 480. After
reviewing this claim and Defendant’s arguments, we
find that it is too vague and capricious to merit a
response. Because Defendant has failed to fully develop
this issue and has failed to cite to appropriate legal
authority, we find that the issue is waived.
Appellate Counsel Was Ineffective for Failing to
Investigate and Properly Argue Trial Court’s Failure
to Instruct Jury on Specific Intent of Accomplice
In his second claim of ineffectiveness against
appellate counsel, Defendant claims that appellate
counsel was ineffective for failing to investigate and
properly argue trial court’s failure to instruct the
jury as to “shared specific intent” as a prerequisite
for accomplice liability for murder in the first degree.
[Deft.’s Pro Se Brief, 11/19/10, p.46.]

App.134a
The underlying claim of trial court error for failing
to give the proper jury instruction on “shared specific
intent to kill” is waived under the PCRA because it
was not raised before trial, at trial, or on appeal. 42
Pa. C.S. § 9544(b) (amended 1995). A defaulted claim
may be an aspect of a cognizable claim under the
PCRA only to the extent it is posed and developed as a
“layered” claim of “ineffectiveness” focusing on appellate
counsel. In Tedford, the Court restated the framework
for consideration of a layered ineffectiveness claim as
follows:
[A] petitioner must plead in his PCRA
petition that his prior counsel, whose alleged
ineffectiveness is at issue, was ineffective
for failing to raise the claim that the
counsel who preceded him was ineffective in
taking or omitting some action. In addition,
a petitioner must present argument . . . on
the three prongs of the Pierce test as to
each relevant layer of representation.

Tedford, supra at 13; McGill, supra.
Thus, in order for this claim to be cognizable,
Defendant must plead in his PCRA petition that his
prior appellate counsel, Attorney David Skutnik, whose
alleged ineffectiveness is at issue, was ineffective for
failing to raise the claim that trial counsel, Attorney
Gaglione, who preceded him, was ineffective in failing
to raise a claim of trial court error for failing to give
the proper jury instruction on “shared specific intent to
kill.” Additionally, Defendant must present argument
on the three prongs of the Pierce test (test for ineffective assistance of counsel) as to each relevant layer of
representation. “[T]he inability of a petitioner to prove
each prong of the Pierce test in respect to trial counsel’s

App.135a
purported ineffectiveness alone will be fatal to his
layered ineffectiveness claim.” Id. (citation omitted).
Defendant has not plead a claim that Attorney
Skutnik was ineffective for failing to raise the claim
that trial counsel, Attorney Gaglione, who preceded
him, was ineffective in failing to raise a claim of trial
court error for failing to give the proper jury instruction
on “shared specific intent to kill.” Therefore, we find
that the current claim of appellate counsel ineffectiveness is not cognizable under the PCRA. Accordingly,
Defendant’s claim that appellate counsel was ineffective
for failing to investigate and properly argue trial
court’s failure to instruct jury on specific intent of
accomplice is dismissed.
Appellate Counsel was Ineffective for Failing to
Properly Argue Insufficiency of the Evidence in PostSentence Motions and on Direct Appeal
Defendant’s third allegation of appellate counsel
ineffectiveness states that counsel was ineffective for
failing to properly argue, in post-sentence motions
and on direct appeal, insufficiency of the evidence to
support a conviction for murder in the first degree.
[Deft.’s Pro Se Brief, 11/19/10, p.46.] Defendant argues
that “Appellate attorney did not research and argue
specifically the conclusive facts and evidence that the
shooter in the case did not have specific intent to kill.
The shooter did not aid, nor did he approach the
victims for any reason other than to QUESTION
them.” [Deft.’s Pro Se Brief, 11/19/10, p.46.]
The trial court addressed the underlying claim
of “insufficient evidence” in its Opinion denying
Defendant’s post-sentence motions. The court found
that “the evidence presented by the Commonwealth

App.136a
was sufficient to enable the fact finder to find that all
of the elements of first degree murder and accomplice
culpability were established beyond a reasonable
doubt to support a conviction of first degree murder
as an accomplice.” [Trial Ct. Opinion, 2/15/07, p.6.]
On direct appeal, the Superior Court also addressed the merits of Defendant’s sufficiency claim. After
reviewing the evidence, the Court concluded that
“when viewed most favorably to the Commonwealth,
this evidence and its reasonable inferences could lead
a factfinder to conclude beyond a reasonable doubt
that Appellant intended to promote the murder of
the victims and that he actively participated in that
murder by aiding the principal (i.e., the shooter)
when he (Appellant) identified the intended victims,
told the principal to drive, drove himself in pursuit of
the victims, produced the murder weapon, supplied it
to the principal, and then helped the principal flee
the scene.” [Superior Ct. Memorandum, 1/11/08, p.12.]
Thus, the Court determined that there was sufficient
evidence that Defendant “intended to cause the
shooting death of the victims and that he aided in
the commission of that crime.” Finally, the Court
found that “the evidence was sufficient to support the
convictions for first degree murder of both victims
under an accomplice theory of liability. Appellant’s
sufficiency claim fails.” [Superior Ct. Memorandum,
1/11/08, p.12.]
Since the highest appellate court in which petitioner could have had review as a matter of right, i.e.
the Superior Court, has ruled on the merits of the
underlying issue and found it to be without merit,
appellate counsel cannot be ineffective for failing to
raise and argue such claims. Because this claim lacks

App.137a
merit, Defendant is unable to satisfy the first prong
of the test for ineffective assistance of counsel. Accordingly, Defendant’s claim that appellate counsel was
ineffective for failing to research and properly argue
insufficiency of the evidence in post-sentence motions
and on direct appeal is dismissed.
Appellate Counsel Was Ineffective for Failing to
Research and Properly Argue Trial Court Error for
Allowing Prejudicial Hearsay Testimony
In his fourth claim of ineffective assistance of
appellate counsel, Defendant asserts that appellate
counsel was ineffective for failing to research and
properly argue on direct appeal the trial court’s error
in allowing prejudicial hearsay testimony. [Deft.’s
Pro Se Brief, 11/19/10, p.48.] Defendant argues that
“appellate counsel violated his Due Process on appeal,
when he failed to argue the Trial Court error in the
Petitioner’s direct appeal.” [Deft.’s Pro Se Brief,
11/19/10, p.48.]
The underlying claim for this issue is one of trial
court error for allowing prejudicial hearsay testimony.
The claim of trial court error has been addressed previously in this Opinion and has been found to be
without merit. [PCRA Opinion, supra, pp.12-15.]
In order to make out a claim for ineffective
assistance of counsel, Defendant must prove: “(1)
that the underlying claim is of arguable merit; (2) that
counsel’s course of conduct was without a reasonable
basis designed to effectuate his client’s interest; and
(3) that he was prejudiced by counsel’s ineffectiveness.”
Ford, supra. Failure to satisfy any prong of the test
for ineffectiveness requires rejection of the claim.
Miller, supra. Inasmuch as we have determined that

App.138a
the underlying claim of trial court error lacks merit,
Defendant is unable to satisfy the first prong of the
ineffectiveness test. Counsel cannot be ineffective for
failing to raise a claim that lacks merit; likewise,
counsel cannot be ineffective for failing to research
and properly argue a meritless claim.
Accordingly, Defendant’s claim that appellate
counsel was ineffective for failing to research and
properly argue trial court’s error for allowing prejudicial
hearsay testimony is dismissed.
Appellate Counsel was Ineffective for Failing to Argue
Prosecutorial Misconduct
Defendant’s fifth claim of appellate counsel ineffectiveness states that appellate counsel was ineffective
for failing to argue Prosecutorial Misconduct when
the prosecutor “vouched” for the credibility of a
witness and made “improper comments” during closing
arguments. [Deft.’ s Pro Se Brief, 11/19/10, p.50.]
Defendant claims that “appellate counsel failed to
adequately investigate and properly develop the argument in Petitioner’s direct appeal; prosecutorial
misconduct as it relates to vouching for the credibility
of a witness and improper comments at closing arguments of trial.” [Deft.’s Pro Se Brief, 11/19/10, p.50.]
The underlying claim of trial counsel ineffectiveness for failing to object to prosecutorial misconduct
when the prosecutor “vouched” for the credibility of a
witness during closing arguments is waived under
the PCRA because it was not raised before trial, at trial,
or on appeal. 42 Pa. C.S. § 9544(b) (amended 1995).
Likewise, the Defendant’s claim that trial counsel was
ineffective for failing to object to prosecutorial misconduct when the prosecutor made “improper comments”

App.139a
about Defendant’s whereabouts during closing arguments is waived under the PCRA because it was not
raised before trial, at trial or on appeal. Id. However,
a defaulted claim may be an aspect of a cognizable
claim under the PCRA only to the extent it is posed
and developed as a “layered” claim of “ineffectiveness”
focusing on appellate counsel. In Tedford, the Court
restated the framework for consideration of a layered
ineffectiveness claim as follows:
[A] petitioner must plead in his PCRA petition
that his prior counsel, whose alleged ineffectiveness is at issue, was ineffective for failing
to raise the claim that the counsel who
preceded him was ineffective in taking or
omitting some action. In addition, a petitioner
must present argument . . . on the three
prongs of the Pierce test as to each relevant
layer of representation.

Tedford, supra at 13; McGill, supra.
Thus, in order for this claim to be cognizable,
Defendant must plead in his PCRA petition that his
prior appellate counsel, Attorney David Skutnik, whose
alleged ineffectiveness is at issue, was ineffective for
failing to raise the claim that trial counsel, Attorney
Gaglione, who preceded him, was ineffective in failing
to object to prosecutorial misconduct when the
prosecutor “vouched” for the credibility of a witness
and made “improper comments” about Defendant’s
whereabouts during closing arguments. Additionally,
Defendant must present argument on the three prongs
of the Pierce test (test for ineffective assistance of
counsel) as to each relevant layer of representation.
“[T]he inability of a petitioner to prove each prong of
the Pierce test in respect to trial counsel’s purported

App.140a
ineffectiveness alone will be fatal to his layered
ineffectiveness claim.” Id. (citation omitted).
Defendant fails to plead that appellate counsel
was ineffective for failing to “raise the claim that
trial counsel, who preceded him, was ineffective for
failing to object to the prosecutor’s vouching and
improper comments during closing arguments. Instead,
he pleads ineffective assistance of appellate counsel
for failing “to argue prosecutorial misconduct.” Nevertheless, we believe that the issues are so closely
related that warrant discussion. Therefore, we find
that Defendant has plead a layered claim of ineffective
assistance of trial counsel and appellate counsel with
regard to the issue of prosecutorial misconduct related
to “vouching” and “improper comments” during closing
arguments. Consequently, we find that the defaulted
claims of trial counsel ineffectiveness are cognizable
under the PCRA. Accordingly, we will review the
merits of the underlying claims of trial counsel
ineffectiveness as they relate to the ineffectiveness
claim against appellate counsel.
Initially, we note that these claims of prosecutorial
misconduct are different than the claim that was
previously raised in post-trial motions and on direct
appeal. In post-trial motions, Defendant based his
claim on a specifically identified comment made by
the District Attorney during closing argument, i.e.,
“ . . . I was not there; I didn’t have the car. It was stolen.
I don’t know what you are talking about.” [Post-Trial
Opinion, 2/14/07, p.12, citing N.T. Vol. IV, 5/8/06,
p.677.] The trial court determined that there was “no
reasonable inference that can be made that the statement could prejudice Defendant because he had an
absolute right not to testify.” [Post-Trial Opinion,

App.141a
2/14/07, p.13.] Defendant also raised a claim of prosecutorial misconduct on direct appeal. The Court
determined that Defendant’s claim of prosecutorial
misconduct was waived because “[h]e did not object
to those comments prior to this appeal.” [Superior Ct.
Memorandum, 1/11/08, p.16.] The Court went on to
say that “an appellant waives claim of prosecutorial
misconduct committed during closing argument by
not objecting during the argument.” [Superior Ct.
Memorandum, 1/11/08, p.16, citing Com. v. Sasse, 921
A.2d 1229, 1238 (Pa. Super. 2006).] Presently, Defendant raises the new claims under ineffective assistance
of trial counsel rather than as a claim of prosecutorial
misconduct. Therefore, we will address them in the
context of a PCRA claim of ineffective assistance of
trial counsel.
Unlike his prior claim wherein Defendant asserted
that he was entitled to a new trial based upon
prosecutorial misconduct, Defendant now asserts that
trial counsel was ineffective for failing to object to
the closing arguments made by the District Attorney
who committed prosecutorial misconduct when he
“vouched” for the Commonwealth’s cooperating witness,
Kasine George. [Deft.’s Pro Se Brief, 11/19/10, p.1415.] He contends that “[T]he prosecutor’s vouching
‘undermined fundamental fairness of the trial and
contributed to a miscarriage of justice.’” [Deft.’s Pro
Se Brief, 11/19/10, p.16.]
Defendant contends that when the District
Attorney stated to the jury: “Remember believe all of
his testimony obviously he was there”; he was “assuring
the jury that the witness testimony is credible.”
[Deft.’s Pro Se Brief, 11/19/10, p.16; Supplemental
PCRA, 3/31/11, ¶ 6(e)(2), p.2.] Specifically, Defendant

App.142a
claims that the following comments by the District
Attorney constitute “vouching”:
1)

The agreement says that if he cooperates,
which includes telling the truth, . . . He is up
on the stand knowing when he is testifying
that if he lies, if his testimony is not consistent with what he believes happened, that he
remains at risk because Judge Vican has
not yet sentenced him . . . It is not like this
guy gives some swan song bull you know
what story to Detective Wolbert just to get
out from some charges. And is stupid
enough to think the Commonwealth is just
going to throw him up on the stand with no
consequences whatsoever and expect you to
believe him because I got better things to do
with my time.

2)

Remember believe all of his testimony
obviously he was there.

3)

So you have to at (sic) whether or not and to
what extent there is leverage on Mr. George
when he is testifying because if there is
leverage then it’s more than likely that he
is telling the truth.

[Deft.’s Pro Se Brief, 11/19/10, p.15, citing N.T., Vol.
IV, 5/8/06, pp.658, 663, 665.]
Defendant argues that these statements imply
that the “prosecutor has extra record knowledge and
the capacity to monitor the witness truthfulness.”
[Deft.’s Pro Se Brief, 11/19/10, p.16.] However, the
Commonwealth argues that if a prosecutor’s remarks
are supported by evidence or contain an inference
that is reasonably derived from that evidence, then

App.143a
the remarks are fair. [Com.’s Brief, 11/30/11, p.8,
citing Com. v. Robinson, 877 A.2d 433, 442 (Pa. 2005).]
The Commonwealth further argues that unless the
unavoidable effect of the comments at issue was to
prejudice the jurors by forming in their minds a fixed
bias and hostility toward the defendant, thereby
impeding their ability to weigh the evidence objectively
and render a true verdict, prosecutorial misconduct
does not occur. [Com.’s Brief, 11/30/11, p.8, citing
Com. v. Paddy, 800 A.2d 294, 316 (Pa. 2002).]
Before we can determine whether trial counsel
was ineffective for failing to object to the prosecutor’s
closing argument, we must first determine whether
the underlying claim has merit, i.e. whether the
prosecutor committed prosecutorial misconduct during
his closing argument to the jury. “The prejudicial
effect of a district attorney’s remarks must be evaluated
in the context in which they occurred.” Commonwealth
v. McNeil, 679 A.2d 1253, 1258 (Pa. 1996), citing
Commonwealth v. Smith, 416 A.2d 986 (Pa. 1980). It
is well-settled that a district attorney must have reasonable latitude in fairly presenting a case to the
jury and must be free to present his or her arguments
with logical force and vigor. Id.
Attorney Gaglione testified at the PCRA hearing
that he did not remember whether the District Attorney
“vouched” for the credibility of any witness during
his closing argument to the jury. [PCRA, N.T., 10/4/11,
p.21.] He further testified that he doubted that he
would have objected to anything during the closing
itself, stating that “I may have raised a point after
the closing but I would not have interrupted Mr.
Christine.” [PCRA, N.T., 10/4/11, p.22.]

App.144a
We have thoroughly reviewed the closing argument
of the District Attorney and conclude that he did not
“vouch” for Kasine George’s credibility. Instead he
asked the jury to consider: Mr. George’s agreement to
tell the truth, the fact that Mr. George was present
at the time of the murders, and to weigh these
factors in determining whether or not to believe the
witness. The mention of the plea agreement gives the
jury another factor to consider in determining the
credibility of this witness. The District Attorney did
not ask the jury to believe the witness without question. He asked them to consider these factors in
reaching their determination on credibility. Therefore,
he did not “vouch” for the witness’ credibility; but
rather, he cautioned the jury to use their common
sense, but be very cautious. Remember that these
guys are self-interested and that they only want
something that’s going to offer them sort of benefit.
He described the witnesses, just as Attorney Gaglione
had done, as corrupt and polluted sources and asked
them to look at the testimony, judge it, look at
Kasine George with suspicion and distrust, and be
suspicious, be cautious when you regard the testimony
of Mr. George. [N.T., Vol. IV, 5/8/06, pp.656-657.]
Based on the foregoing, we find that the prosecutor
did not “vouch” for the credibility of Kasine George
during closing arguments. Consequently, the first
part of Defendant’s claim of regarding ineffective
assistance of trial counsel for failing to object to
prosecutorial misconduct is without merit. Accordingly,
trial counsel cannot be found ineffective for failing to
object to the alleged “vouching” by the District Attorney.
Next, Defendant asserts that trial counsel was
ineffective for failing to object to prosecutorial mis-

App.145a
conduct with respect to the Prosecutor’s “improper
comments” about Defendant’s whereabouts during
closing arguments. [Deft.’s Pro Se Brief, 11/19/10,
pp.14, 17; Supplemental PCRA, 3/31/11, ¶ 6(e)(2), p.2.]
This claim relates to comments allegedly made by
the District Attorney concerning Defendant’s whereabouts at the time of the crime. Defendant claims
that “[t]he prejudicial effect of the prosecutor’s remark
“Magically Mr. Tyson is not there. No one knows
where he is.” was overwhelming, more importantly
when it was not supported by evidence on the record.”
[Deft.’s Pro Se Brief, 11/19/10, p.18.] Defendant asserts
that “after being barred from presenting his alibi
testimonies, it was improper to infer to the jury about
the where-abouts (sic) of the Petitioner; violating his
Equal Protection Rights. The prosecutor explicitly
lead (sic) the jury to believe that the Petitioner would
not have been anywhere else other than participating
in the crime.” [Deft.’s Pro Se Brief, 11/19/10, p.17-18.]
Defendant asserts that defense counsel’s failure “to
act or object; to cure or preserve a non-frivolous issue
for the Petitioner” was “insufficient, any competent
attorney should not ignore the professional responsibility to protect their client from prejudicial misconduct.” [Deft.’s Pro Se Brief, 11/19/10, p.18, citing Durn
v. Rozum, 630 F.Supp. 2d 479 (3rd Cir. 2007); Com.
v. Treadwell, 981 A.2d 987 (Pa. Super. 2006).]
We have thoroughly evaluated the District
Attorney’s closing argument in the context in which
it occurred and find that the comments made by the
District Attorney were not improper. Furthermore,
we find that no prejudicial effect resulted from the
District Attorney’s remark during closing argument.
Therefore, this claim lacks merit. Accordingly, counsel

App.146a
cannot be found ineffective for failing to raise a nonmeritorious claim.
Finally, Defendant asserts that the District Attorney “read a quote that was allegedly from the Defendant that had not previously been entered into evidence and which r violated the Defendant’s right to
remain silent.” [Supplemental Brief, 11/14/11, p.7.]
Defendant argues that while this may have been
unintentional, the “statement substantially prejudiced
the Defendant” and “[a]s such, it should have been
objected to by Attorney Gaglione, and a mistrial should
have been requested.” [Supplemental Brief, 11/14/11,
p.7.] Defendant argues that trial counsel’s failure to
object to the reading of a quote allegedly from the
Defendant demonstrates inefficient representation that
demands a new trial. [Supplemental Brief, 11/14/11,
p.7.]
Defendant fails to identify the quoted statement
he is referring to and fails to identify where in the
transcript the alleged quote appears. Arguments
which are not sufficiently developed are waived. Irby,
supra. “Issues which are not supported by citation to
appropriate legal authority are waived.” Treasure
Lake Property Owners Association, Inc. v. Meyer, 832
A.2d 477-480, (Pa. Super. 2003).
For the foregoing reasons, we find that the underlying claims of ineffective assistance of trial counsel
for failing to object to prosecutorial misconduct when
the prosecutor “vouched” for the credibility of a witness
and made “improper comments” during closing arguments are without merit. Furthermore, Defendant has
failed to establish that there is a reasonable probability
that but for the act or omission in question the outcome
of his trial would have been different. Therefore, we

App.147a
find that Defendant has failed to establish “arguable
merit” and “prejudice” prongs of the ineffectiveness
standard in connection with this claim. Accordingly,
Defendant’s layered claim of appellate counsel ineffectiveness for failing to argue prosecutorial misconduct
fails and is, therefore, dismissed.
Appellate Counsel Was Ineffective for Failing to
Research and Raise a Claim of Trial Counsel Ineffectiveness for Failing to File a Proper Motion to Quash
Array
In his sixth claim, Defendant asserts that appellate
counsel was ineffective for failing to research and
raise, in post-sentence motions and on direct appeal,
an ineffective assistance of counsel claim against trial
counsel for failing to file a proper Motion to Quash
the Array, instead of objecting to the improprieties in
the jury selection process. [Deft.’s Pro Se Brief, 11/19
/10, p.52.] Defendant asserts that appellate counsel
“failed to adequately investigate and thoroughly
review the trial transcripts, and argue this issue in
Petitioner’s Post Sentence and Direct Appeal.” [Deft.’s
Pro Se Brief, 11/19/10, p.52.]
The underlying claim of trial counsel ineffectiveness for failing to file a proper Motion to Quash
the Array is waived under the PCRA because it was
not raised before trial, at trial, or on appeal. 42 Pa.
C.S. § 9544(b) (amended 1995). However, a defaulted
claim may be an aspect of a cognizable claim under
the PCRA only to the extent it is posed and developed
as a “layered” claim of “ineffectiveness” focusing on
appellate counsel. After reviewing Defendant’s PCRA
Petition, we find that he has plead a layered claim of
ineffectiveness focusing on appellate counsel. Tedford,

App.148a

supra. Specifically, he asserts that his prior appellate
counsel, Attorney Skutnik, whose alleged ineffectiveness is at issue, was ineffective for failing to
raise the claim that trial counsel, Attorney Gaglione,
who preceded him, was ineffective in failing to file a
proper Motion to Quash Array; therefore, this claim
is cognizable under the. PCRA. Since the underlying
claim of trial counsel ineffectiveness is cognizable,
we will proceed to address the claim on its merits.
In addition to pleading a “layered” claim of
“ineffectiveness”, Defendant must present argument
on the three prongs of the Pierce test (test for ineffective assistance of counsel) as to each relevant layer of
representation. “[T]he inability of a petitioner to prove
each prong of the Pierce test in respect to trial counsel’s
purported ineffectiveness alone will be fatal to his
layered ineffectiveness claim.” Id. (citation omitted).
Defendant alleges that because he is a black man
accused of shooting two white men, “it was imperative
that the jury not be overwhelmingly one race or the
other. However, Defendant asserts that he ended up
with a jury containing only one black person, which
is statistically significant in a county which has a
minority population of approximately 30%.” [Supplemental Brief, 11/14/11, p.7.] Defendant argues that
he is entitled to a new trial because during voir dire,
trial counsel “raised an objection to the cultural
descent of the array, when he feared the Petition (sic)
faced an inherent biasness”; however, an oral objection
is not the proper method to challenge the array of the
jury. [Deft.’s Pro Se Brief, 11/19/10, pp.19.] Defendant argues further that trial counsel “explicitly used
an invalid objection as opposed to the proper vehicle
of Motion to Quash the Array”; thus, trial counsel

App.149a
was “not only ineffective, incompetent but (sic) ‘questionable legal soundness’.” [Deft.’s Pro Se Brief,
11/19/10, p.21.] Defendant contends that the proper
method to object to the racial makeup of the jury
array is “by written objection or petition; however,
Attorney Gaglione did neither.” [Supplemental Brief,
11/14/11, p.7.]
At the start of voir dire, Attorney Gaglione raised
an objection to the cultural descent of the jury array.
He stated that after having “had an opportunity to
look over the array of people that have been chosen
for purposes of voir dire and ultimately picking the
jury,” he noted that “there’s only one person of
African American descent on the array.” He further
noted that “every other person that is in the array is
white.” [N.T., Voir Dire, 5/2/06, p.2.] Attorney Gaglione
argued that he believed “there’s an inherent bias in
this case that is going to be held against my client.
He is black. The two people who were allegedly shot
and killed in the case by him are white. And my concern could raise a prejudicial problem.” [N.T., Voir
Dire, 5/2/06, p.2-3.] The Commonwealth argued that
because the computer picked the names of the
prospective jurors, it is a random pattern and “[T]he
fairness of the jury pool is obvious.” [N.T., Voir Dire,
5/2/06, p.3.]
The trial court agreed with the Commonwealth
that the jury array was randomly selected by computer.
The initial jury venire consisted of more than 200
individuals representing diverse ethnic, racial and
socio-economic backgrounds, including many of African
American descent. The selection process was not
“ . . . initiated by virtue of any aspect of race, gender,
or the marital status, et cetera”; therefore, the court

App.150a
denied counsel’s objection. [N.T., Voir Dire, 5/3/06,
p.3.] Consequently, the claim that the subsequent
jury array consisting of only one African American
would be inherently biased toward Defendant lacks
merit.
However, the issue before us is whether or not
trial counsel was ineffective for failing to file a proper
Motion to Quash the Array. It is clear from the
record that counsel waited until the beginning of jury
selection to raise an objection to the jury array; thus,
one could say that this constituted ineffective assistance of counsel. Even so, the record reveals that during
voir dire trial counsel questioned the prospective
jurors regarding possible racial bias. Attorney Gaglione
questioned the jurors as follows:
MR. GAGLIONE: Now, Mr. Christine has given
you a synopsis of the allegations in this case and
told you that two brothers, Daniel and Keith
Fotiathis, were killed on South 6th Street here.
And he told you that it is his hope to prove my
client’s involvement. And they also charged two
other individuals with regard to their involvement in this case. But I not (sic) not sure he
mentioned that the two brothers, Daniel and
Keith, were both white. And as you can see my
client is black as were the other two individuals
that were charged in this case.
Is there anyone here who has any difficulty-and
I will just put it that way at this point in time-is
there any person here having difficulty sitting in
judgment on this case by virtue of the fact that
the victims were white and the alleged perpetrators were black?

App.151a
(No response.)
[N.T., Voir Dire, 5/3/06, p.45.]
Inasmuch as the jury array was selected at
random by a computer and since Attorney Gaglione
questioned the prospective jurors about possible racial
bias and received a negative (non) response, we find
that the claim is meritless. Counsel cannot be deemed
ineffective for failing to file a motion that would be
denied for lack of merit. Consequently, we find that
the underlying claim of trial counsel ineffectiveness
for failing to file a proper Motion to Quash Array
lacks merit. Furthermore, Defendant has failed to
establish that there is a reasonable probability that
but for the act or omission in question the outcome of
his trial would have been different. Therefore, we find
that Defendant has failed to establish the “arguable
merit” and “prejudice” prongs of the ineffectiveness
standard in connection with this claim. Accordingly,
Defendant’s claim that appellate counsel was ineffective for failing to research and raise a claim of trial
counsel ineffectiveness for failing to file a proper motion
to quash array is dismissed.
Appellate Counsel Was Ineffective for Failing to Raise
a Claim of Trial Counsel Ineffectiveness for Making
an Agreement, Without the Consent or Knowledge of
Defendant, Allowing Prosecutor to Use Prejudicial
Hearsay Testimony
Defendant’s seventh claim alleges that appellate
counsel was ineffective for failing to raise, in postsentence motions and on direct appeal, an ineffective
assistance of counsel claim against trial counsel for
making an agreement, without the consent or knowledge of Defendant, allowing the Prosecutor to use pre-

App.152a
judicial hearsay testimony against Defendant. [Deft.’s
Pro Se Brief, 11/19/10, p.54.]
The underlying merits of trial counsel’s ineffectiveness for allegedly making an agreement without
the consent or knowledge of Defendant, allowing the
prosecutor to use prejudicial hearsay testimony against
Defendant, has been addressed above. [PCRA Opinion,
supra, p.12-15.] Inasmuch as we have determined that
trial counsel was not ineffective for allegedly making
an agreement without the consent or knowledge of
Defendant, appellate counsel cannot be ineffective
for failing to raise this non-meritorious claim. Consequently, Defendant’s claim that appellate counsel
was ineffective for failing to raise a claim of trial
counsel ineffectiveness relating to the allegation of
prejudicial hearsay also lacks merit. Accordingly,
Defendant’s claim of appellate counsel ineffectiveness
for failing to raise a claim of trial counsel ineffectiveness for making an agreement, without the consent
or knowledge of Defendant, allowing the prosecutor
to use prejudicial hearsay testimony is dismissed.
Appellate Counsel Was Ineffective for Failing to Adequately Argue Undeveloped Issues on Post-Sentence
Motions and Direct Appeal
In his eighth claim of ineffective assistance of
appellate counsel, Defendant asserts that counsel
was ineffective for failing to adequately argue undeveloped issues on post-sentence motions and direct
appeal. [Deft.’s Pro Se Brief, 11/19/10, p.55.] Defendant
argues that counsel must show that the violation of
any issue is of arguable merit, then he must show
the prejudice and how absent the ineffectiveness that
there is a reasonable probability that the proceedings

App.153a
would have been different. Defendant claims that
“appellate counsel briefly and inadequately touch (sic)
on certain arguments that are really and very undeveloped.” [Deft.’s Pro Se Brief, 11/19/10, p.55.]
Defendant fails to identify what “undeveloped
issues” he is referring to. “Arguments which are not
sufficiently developed are waived.” Irby, supra at
464. “Issues which are not supported by citation to
appropriate legal authority are waived.” Treasure
Lake POA, supra at 480. Because Defendant has
failed to identify the “undeveloped issues” and has
failed to fully develop his argument with respect to
this claim, we find that this issue is waived.
Cumulative Error
Although Defendant does not state a separate
claim of cumulative error, he does raise this issue in
the Conclusion to his Supplemental Brief in Support
of Defendant’s PCRA. [Supplemental Brief, 11/14/11,
p.8.] Specifically, Defendant states: “[T]his court may
find that any one of these, or even all of these, were
mere ‘drops in the bucket’ and that any individual
one constitutes ‘harmless error’; [H]owever, when
taken as a whole, these drops add up. The bucket is
full. The combination of a number of serious lapses
on the part of the attorney in the aggregate proves
that Defendant was denied effective assistance of
counsel. [Supplemental Brief, 11/14/11, p.8.] Defendant
argues that “[T]his is especially significant when
Defendant’s codefendant—the man actually accused
of doing the shooting—was acquitted with the same
evidence available to Attorney Gaglione.” [Supplemental Brief, 11/14/11, p.8.]

App.154a
Generally, claims of cumulative error have been
rejected in favor of an individualized assessment of
the merits of claimed trial errors. Com. v. Jones, 876
A.2d 380, 387 (Pa. 2005); citing Com. v. Williams,
732 A.2d 1167, 1191 (Pa. 1999). In Com. v. Wilson,
861 A.2d 919, 924 (Pa. 2004), the appellant also
asserted a claim that the “cumulative effect of each
of the asserted errors denied appellant a fair trial.”
In Wilson, the Court held that where no individual
claim has merit, a defendant is not entitled to relief
based upon alleged cumulative effect. Id. at 935. In
Com. v. Rollins, the Pennsylvania Supreme Court
held that “no quantity of meritless issues can aggregate
to form a denial of due process.” Rollins, 738 A.2d
435-452 (Pa. 1999); citing Com. v. Travaglia, 661
A.2d 352, 367 (Pa. 1995).
With respect to the individual claims that we
have determined to be meritless, we find that Defendant is not entitled to relief based on the cumulative
effect of the asserted claims. Accordingly, we find
that Defendant is not entitled to relief based upon
alleged cumulative effect.
CONCLUSION
We note for the record that Attorney Gaglione’s
testimony at the PCRA hearing is supported by the
trial transcripts which clearly show that Attorney
Gaglione provided Defendant with the best possible
defense given the information and evidence that he
had to work with.
Finally, following the evidentiary hearing on
October 4, 2011, this court became aware of a possible
conflict of interest with respect to current appellate
counsel, Michael A. Ventrella, Esq. On January 30,

App.155a
2012, a letter written by Defendant’s cousin, Candida
Martin, dated December 13, 2011, was brought to the
court’s attention. In her letter, Ms. Martin states:
. . . I found out some information regarding
Aaron’s current attorney Michael A. Ventrella.
There is a conflict of interest with Mr.
Ventrella as Aaron’s attorney because on
May 29, 1999 Mr. Michael A. Ventrella was
Daniel Fotiathis lawyer. Daniel Fotiahis
(sic) is one of the victims in Aaron’s case.
Mr. Ventrella may not be in Aaron’s best
interest. I am requesting that if possible can
Aaron be appointed a new attorney so that
he could have a fair chance in his case. . . .
[Letter to Judge Vican from Mrs. Candida Martin,
12/13/11.]
Upon being made aware of this possible conflict,
we determined sua sponte to address this issue
without further proceedings at this time. A review of
the Monroe County Docket entries for Daniel Fotiathis
revealed that Attorney Ventrella did, in fact, represent
Mr. Fotiathis on simple assault and harassment
charges for an incident occurring on May 29, 1999.
[See Com. v. Daniel Kenneth Fotiathis, Monroe County
Docket No. 14 Criminal 2000.] Attorney Ventrella
confirmed that, in his capacity as a Public Defender,
he represented Daniel Fotiathis in connection with a
Protection from Abuse Petition and the assault/harassment charges filed by Mr. Fotiathis’ wife. However, he assured the court that the charges were not
the result of any drug activity, nor did they have any
relationship with Defendant, Aaron Tyson, or any of
his co-conspirators in the present case. Moreover, a
period of nine (9) years had elapsed from the time of

App.156a
Mr. Fotiathis’ murder in 2002 and the appointment
of Attorney Ventrella as Defendant’s P.C.R.A. counsel.
For these reasons, Attorney Ventrella did not perceive
a conflict of interest when he accepted the present
court-appointment. Nevertheless, while we believe
that Attorney Ventrella has effectively represented
Defendant in regard to this P.C.R.A. proceeding, we
feel it is prudent to dismiss Attorney Ventrella at
this time and appoint new counsel to represent
Defendant in any appeal that may be taken from this
Order. Accordingly, Bradley W. Weidenbaum, Esquire,
is hereby appointed to act as conflict counsel for
Defendant with respect to any future proceedings in
connection with this first P.C.R.A. Petition.

App.157a
TRIAL TRANSCRIPT VOLUME IV
RELEVANT EXCERPTS
(MAY 8, 2006)
COURT OF COMMON PLEAS OF MONROE
COUNTY 43rd JUDICIAL DISTRICT
COMMONWEALTH OF PENNSYLVANIA
________________________
COMMONWEALTH OF PENNSYLVANIA,
v.
AARON TYSON,

Defendant,
________________________
No. 817 CRIMINAL 2003

[May 8, 2006 Transcript, p. 613]
THE COURT: All right. Just for the jury’s information,
when there is a stipulation of facts, such as what
was now read before you, you are to consider
that as a fact if proven in the case which does
not require a witness come and tell you the same
thing. Whatever you decide to do with that fact,
how you choose to put it into the scheme of your
deliberations, is up to you. But it is a fact among
other facts in the case which you will find so you
don’t have to deliberate to the point of finding it
as a fact that has already been determined to be so.

App.158a
MR. MANCUSO: Your Honor, the Commonwealth rests
at this time.
MR. GAGLIONE: May we approach briefly, Judge?
(Sidebar discussion held on the record.)
MR. GAGLIONE: At this time I would like to put a
motion for judgment of acquittal on behalf of my
client with regard specifically to the count of homicide. The open count of homicide, the conspiracy to
commit homicide and accomplice liability. I believe
there’s been no testimony, direct testimony, that
there was any agreement either implicit or
expressed between any of the parties who were
alleged to have been involved in this homicide.
The fact that the testimony that Kasine George
gave on that issue was that there was no discussion in the car; that there was no agreement that
was reached between them as to what was going
to happen later on. I believe he did indicate that
there was a plan, they planned a confrontation;
that he believed that there was going to be one.
Again, he didn’t say there was even any discussion
on that issue as to whether there would be a
confrontation but he believed there would be one
based on what had taken place and what he
knew prior to getting into that car. But with the
absence of any express or real implied agreement
on the issue of whether or not these people are
going to, in fact, kill the Fotiathis brothers I
don’t think that this court can send out conspiracy
to commit the first degree murder charge on
accomplice liability.
So my motion for judgment is essential to the
charge of conspiracy to commit first degree murder

App.159a
and also to find my client guilty as an accomplice
to first degree murder.
MR. CHRISTINE: Judge, the conspiracy can be
inferred by action without oral or written agreement. There are many cases on this point.
Obviously you are looking at the facts presented
by the Commonwealth that can easily infer that
the three of them embarked upon a violent course
of conduct which resulted in the two innocent
victims.
THE COURT: That is correct. Conspiracy can be
inferred. It can be established by circumstance,
evidence, if such evidence in its entirety beyond
a reasonable doubt establishes that there was a
conspiracy and that one at least one of the
members of the conspiracy acted to further that
conspiracy. And the same would be true with
respect to accomplice liability if they acted in
concert to cause the death of these two individuals. But I thought there was testimony—and of
one of the things I thought there was testimony
was that Tyson’s gun was used. I remember
hearing that.
MR. CHRISTINE: That is correct, Judge.
THE COURT: And that was delivered by one of them.
Tyson gave that gun, I thought, to Powell.
MR. GAGLIONE: That is what Kasine George has
indicated. But, again, he did not indicate what
was to be done with that firearm.
THE COURT: Yes.
MR. GAGLIONE: Even if there is, there’s no testimony—

App.160a
THE COURT: They were not deer hunting. Considering what happened here that certainly is more
than enough evidence to establish by circumstantial evidence in the weight of that circumstantial
evidence that there was a conspiracy and they
acted in concert with each other to do that. Denied.
(Sidebar discussion concluded.)
(Back on the record.)
MR. GAGLIONE: The defense rests.
THE COURT: All right. Members of the jury, we are
going to take the lunch recess at this time.
When you come back, we will hear closing arguments from counsel. Our plan is at this stage
since I didn’t know to warn you to bring your
clothing for an overnight stay, we will do the
charge of the court tomorrow morning. So what I
want you to do now is go to lunch.
Remember the cautions of the court not to discuss
the case among yourself or with anyone else.
Don’t let anyone discuss anything about this
case with you or in your presence. Don’t read
about it. And don’t listen to any media such as
TV or radio.
We will start this at 2:00 today so the lawyers
have time to get their closing arguments together.
We will do the closing this afternoon. And when
they are done, we will adjourn for the day.
Topple morning you will hear the charge of the
court at 9:30. Bring your overnight bags tomorrow.
All right. We will see you at 2:00 p.m.
(Lunch recess taken.)
(Back on the record.)

App.161a
MR. CHRISTINE: Good afternoon, Your Honor.
THE COURT: Good afternoon. Are you ready to close?
MR. GAGLIONE: Thank you, Your Honor. May it
please the court and counsel.
MR. CHRISTINE: Mr. Gaglione.
MR. GAGLIONE: Ladies and gentlemen, good afternoon. It has been a long trial, and I am sure that
I can speak for the court and for opposing counsel
in thanking you for your attention during the
course of this past week. We understand that
these things not only are time consuming and take
a lot of time, but sometimes they can be a little
emotionally draining as well. So I thank you. And
my client thanks you. And I am certain that the
Commonwealth and the court thanks you as well.
You have now had an opportunity to listen to all
of the evidence that has been presented in this
case. And you now have the only information
that you are going to get. The part of the case
that we are now embarking upon is known as
the closing arguments. There is not going to be
anymore evidence going to be presented. This is
going to be my last opportunity to address you
about the facts of this case and what was actually presented to you in the course of the past
week and going to be the Commonwealth’s last
opportunity to do the same.
Now, you may have noticed that something has
changed here since the beginning of this case. I am
now going first. Throughout this case from the
beginning of it has always been the Commonwealth that is going first. And I have gone second

App.162a
or was asking the questions of the witnesses
second.
There’s a reason for that. It is because the
Commonwealth continues to bear the burden of
proof in this case. That has not changed throughout this trial. And indeed as we sit here now, the
Commonwealth still bears the burden of proof in
this case to you beyond a reasonable doubt. And
because they continue to have the burden our
rules of procedure allow them the last crack at
you essentially.
They get to come in and speak to you last because
it is their burden. They get the last opportunity
to try to convince you that they did their job.
And Mr. Christine I believe is going to be the
one closing for the Commonwealth. And he is a
very eloquent man. I’ve known him for a number
of years, for over a decade, and I can speak from
experience. He would make a great used car
salesman if he ever wants to change his profession.
He is going to do a wonderful job of coming in
here and summing up his side of the case. But,
ladies and gentlemen, while he is talking to you,
while he is giving his closing argument, want
you to be mindful of the things I tell you now.
Because, ladies and gentlemen, in this case, you
cannot buy what he is selling you. You just can’t
do it.
This case is too important for to you allow the
state to give them a free pass, if you will, on this
case, on these facts. Don’t let them. Don’t let
them sell you this lemon, ladies and gentlemen.
They need to provide proof to you. That was
their job. That has never changed. They need to

App.163a
convince you beyond a reasonable doubt. That is
their burden. It is not our burden to come in
here and prove anything to you.
There is no requirement under the law. And Judge
Vican will explain to you at the end of our
closing. He will provide you with the law in this
case. And he will tell you that it ‘is not our
burden, it is not Aaron Tyson’s responsibility to
come in here and to prove his innocence to you.
That it is his right to not have to come in here
and be compelled to testify or be compelled to
provide any evidence to you; that right is deeply
founded upon the Constitution. And Judge Vican
will explain that to you.
You cannot draw any inference of guilt; in fact, if
we did not present any it is not our job to do so.
And you cannot hold that against my client. And
Judge Vican will explain that to you.
You all took an oath in the beginning of this case
when you all stood up and raised your hands as
jurors. You took an oath to follow the rules that
the judge is going to hand down for you at the
end of this case tomorrow morning when he
reads you what is essentially the law in this
case. You took an oath to follow that. And that is
a very important aspect of the law in this case.
You cannot hold my client responsible in anyway
for not providing you any information. It is the
state’s job to provide the information. And they
have to provide to you enough information to
convince you beyond a reasonable doubt.
Now, what is a reasonable doubt? Judge Vican is
going to explain that to you as well tomorrow. He

App.164a
is going to define that for you and his reading of
the law to you in what actually is going to control
your deliberation in this matter. But listen to what
he says. Essentially what he is going to tell you
is that a reasonable doubt is the kind of doubt that
would make a reasonable person pause or hesitate
before acting upon matters of importance in their
own affairs.
Now, that is a nice definition, but what does it
mean? I am certain that very few, if any, of you
have ever been on a criminal jury before. And
because of that those are just words right now.
Judge Vican will explain them to you hopefully
in a little more detail. But I have found through
my 12 plus years trying only criminal cases here
in Monroe County that it is often easier for a
jury such as yourselves to understand what reasonable doubt is and what it is not through the
use of an analogy. So I am going to try that now,
hopefully, to get you to better understand what
kind of a burden the state actually has in this case.
Again, reasonable doubt is the kind of doubt that
would cause a reasonable person to hesitate or
pause before acting in matters of importance in
their own affairs Imagine you are planning on
spending a nice weekend out with your spouse
or boyfriend or girlfriend. And imagine you need
to find a babysitter for your children. Now, there
is no question that your children are a matter of
great importance to you. So you are going to want
to make sure that before you hire a babysitter,
you have no hesitation about the person who you
are going to hire.

App.165a
Now, imagine that you put an ad in the newspaper
looking for a babysitter. And in response to your
ad Mr. Christine, Mr. Mancuso, and Detective
Wolbert and Mr. Snell, they all appear at your
door and they say here we are. We saw your ad.
We would like to be your babysitter. And you
take a look at them and they are all dressed
nicely and they all speak well. And you initially
think to yourself this would be okay. I would
probably trust these people with my children.
But this is a matter of importance to you, great
importance. It is your children. So before you
just go ahead and hire them you are going to ask
them some questions. You are going to find out
about their qualifications. And when you do
that, you are going to find out that one is a police
officer, the other someone is an investigator, two
are prosecutors. And they are sworn to uphold
the law. You will find out about their background
a little bit. And in doing so you will realize that
none of them have ever been convicted of selling
drugs, let alone doing them. They have no prior
record of any kind. They seem to be genuinely
decent people. And you may say to yourself,
okay, I will hire these people without hesitation.
I want to kick it up a little bit now. Imagine if
you will instead of them showing up to your
door, imagine Kasine George, the man that came
in and testified for you last week. Imagine he
came to your door and he said I am here to be
your babysitter. And he is also dressed well like
he was last week when he came in. He is a soft
spoken young man. And you may even think to
yourself upon first meeting him, okay, maybe

App.166a
this will work. Maybe this guy wouldn’t be such
a bad babysitter for me. But, again, this is a
matter of importance to you.
You are reasonable people and reasonable people
in matters of importance are going to ask questions before they just go ahead and hire this
person. So you start questioning Kasine George.
And during the course of your questioning you
come to find out that he has been dealing drugs
since the age 13. And not just drugs, not just
marijuana. He has been dealing crack cocaine
since the age of 13. For over a decade.
You come to realize that he has been carrying guns
for virtually his entire life. He is familiar not
only with handguns but I believe he indicated
that he was familiar with an assault rifle of some
kind from a very young age. You come to find out
that he has a lengthy record. You come to find out
that he is not really there just because he wants
to be the babysitter. He is there because somebody
else told him to come. They said you go there
and you be their babysitter and we will give you
something in exchange for it.
Now, I ask you, ladies and gentlemen, are you
going to hesitate before you hire Kasine George
under those circumstances to babysit your
children? Are you going to hesitate before you act
in a matter of importance in your own affairs?
Would any reasonable person do so? If the answer
is yes, if the answer is yes, Kasine George causes
me to hesitate before I would act in a matter of
importance in my affairs, that is reasonable
doubt. That is what it is. It is the kind of doubt
that would cause a reasonable person to hesitate

App.167a
or pause before they act in a matter of importance
together.
Now, this case is a matter of great importance to
my client. The rest of his life is quite literally on
the line here based on your decision in this matter.
And the question here, ladies and gentlemen, is
whether the evidence that was presented or
more accurately the lack of evidence that was
presented proved to you without hesitation that
my client is guilty. That is the question that you
have got to answer. Did they prove their case to
you without hesitation? I submit to you, ladies
and gentlemen, that you cannot accept the word
of Kasine George without hesitation, ladies and
gentlemen. And the only way you can convict my
client is if you do. The only way you can remove
the presumption of innocence, the belief that my
client is, in fact, innocent, which is something
you must have at this point in time, you must
presume him to be innocent, that is the law. The
only way you can remove that is if you believe
Kasine George without hesitation.
Now, let’s examine what the evidence showed or
more accurately didn’t show in this case. Now,
we have to start with the understanding that
there is no physical evidence tying my client to
this crime. None. Trooper Phil Barletto came in,
and he testified for you last week. He was the,
for lack of better term, the CSI guy. The State
Police Forensic Investigator. He testified that he
went out to the scene of this crime and he was
very thorough and he described for you what he
did. He was basically trying to hunt down any
and all possible leads thinking any shred of evi-

App.168a
dence that he could find in anyway could tie any
individual to this case. That is what he was
looking for, and he was very exhaustive. And he
described what he did for you.
He testified that after this exhaustive search for
evidence he found nothing that in anyway would
tie anyone to this crime. He told you that.
There’s no blood evidence that can be tied back
to any particular perpetrator. There’s no DNA
evidence, no hair samples fibers, nothing along
those lines. There’s no fingerprints. There’s no
footprints. There is no nothing. Nothing about
the guns, the forensics regarding guns that may
have been used in this crime. Nothing can be
tied back to anybody. They never found a gun.
They don’t have one to match it against any particular person. So they have no physical evidence.
And Trooper Barletta admitted that. And I
believe Detective Wolbert during the course of
his testimony also acknowledged there’s no
physical evidence tying anybody to this crime.
The only other possible evidence that the Commonwealth is going to try to convince you is there is
the fact that my client’s car, this black Maxima
may have been the car that was, in fact, at the
scene of the shooting. That is the only other evidence that they have. But, ladies and gentlemen,
let’s think about that evidence for a minute.
Kasine George told you that there were a number
of people in his drug dealing operation that had
equal and unfettered access to that car. Remember
what he said.
He said that their drug operation was quite large.
They were dealing to as many as thousands of

App.169a
customers each and every single week. They had
many “spots” as he called them that they had to
reup on a regular basis. And he said “we” meaning
himself and my client and others.
And I believe you heard a lot of testimony about
a lot of other people with crazy street names—
Bam-Bam and Rowe and Heat and Murder and
Phenom—lots of different people were involved
in the distribution of these narcotics. And in
order to get this crack cocaine from its source to
the various spots Kasine George told you that
both he and the others involved in the drug
operation would routinely use each other’s cars.
That is what he said, and it makes sense.
He described, I believe, at least four different
vehicles: an Acura, this Maxima, and at least
two others, three others he described as being
cars that were being used by these principals in
this drug operation. And he even told you that
he himself would go out on runs by himself in
the Maxima, in the black Maxima. So simply
because a black Maxima was at the scene of the
crime does not in and of itself prove that my
client was there.
It is equally possible and plausible that Kasine
George was there either by himself or with others
but not my client. There’s nothing else that puts
him in that car other than Kasine George’s
testimony. Simply because the Maxima was
there and was his is not evidence of my client’s
presence. So no one else saw him there. If you
recall the first witness that you saw was the young
man on the street the night of this shooting and
only one came up. Not all of them up. And you

App.170a
have to ask yourself why. Because there’s something going on drug related in regard to them.
And you heard a little bit about that. Why only
one? But even that gentleman they put up on
the stand said it was not my client. He actually
looked at him and said that is not the guy who I
saw. He told you that. So there’s nothing tying
my client to that scene. There was nothing else
putting him in that car other than Kasine
George. Just because he owns the car is not evidence that he was there on that night.
Now, in my opening and throughout this case, I
have been trying to impart to you the context of
this story because if you understand the context
of this story and where the story came from it
really does begin to make this story sound
suspect. I also told you that the Commonwealth
is going to try to deflect attention away from
Kasine George. And that is what they tried to do
with the testimony of Detective Wolbert. Detective
Wolbert told you about his investigation. He told
it to you in great detail. He told you a story, a
sordid story, about a world of drugs and sex
and violence. And the Commonwealth has tried
to connect my client to that world and that is
successful in large measure because my client
was part that of world. He was part of the drug
dealing; he was part of the sex; he was on that
sex tape that they introduced. He was part of
that world. But if you notice they were not able
to connect him to any of the violence.
They talk a lot about a lot of shootings that had
been taking place over the years down in
Allentown, and here in the Poconos that led to

App.171a
people’s arrests, people whose street names were
things like Murder. They told you that Murder
got shot here in the Poconos back in 2001, I
believe. And he was found with crack cocaine
stuffed up his own rectum. He was convicted of
possessing that.
They told you about shootings that took place in
Allentown, but I asked Detective Wolbert was
my client tied to any of that violence, to any of
those shootings? He told you no. They want you
to convict my client based on these connections.
By you can’t do that, ladies and gentlemen,
because his connection, my client’s connection,
to drug dealing is not evidence of his involvement
in this crime.
They are going to try to argue that his connection
to these people, people like Kasine George, makes
it more likely than not that he was involved in
these killings. They are going to try to suggest
that he was even with these people after the
fact, after the homicides took place, he still continued to hang out with them. He still was seen
in pictures with them. He even made this sex
tape with Kasine George shortly after these
homicides took place. But think about that. Think
about that connection. Ask yourselves does it really
follow that their connection equals my client’s guilt
in this case? No. As a matter of fact, if anything,
it points out a larger problem in their case. And
think about it. I’ll explain that to you.
We know that Kasine George was involved in this
shooting. We know that. This is an uncontradicted
fact. And it is a verifiable fact. We know that
because he knows the circumstances surrounding

App.172a
the killing. Not only did he admit his own
involvement by pleading guilty, but he was able
to describe the circumstances surrounding the
killings. He was able to describe puncturing the
tire. And he was able to describe the interior of
the van accurately. So he quite clearly was
involved in the killing. Simply because he knows
the circumstances of the killing, of the crime,
doesn’t mean that my client was there. Just
because they continue to hang out after Kasine
George commits these crimes doesn’t prove
anything beyond their association.
It is simply proof that they were associates, longtime associates. There would be no reason for
them to no longer hang out together simply
because Kasine George was involved in the
killing. By their own accounts these guys probably
were involved in a lot of violent stuff. Kasine
George told you about that as did Detective
Wolbert. But simply because they were involved
in violence does not mean that my client all of a
sudden is going to say I am not going to hang
out with you guys anymore.
My client was a part of that life to a certain extent.
They can prove that he was a part of that drug
culture. And he admitted to his involvement in
that. Even if my client was aware of the fact that
Kasine George was involved in this double killing
doesn’t mean that all of a sudden he is going to
say oh, you are a bad guy, Kasine George. I am
not going to hang out with you anymore. It doesn’t
make sense that he would just stop hanging out
with him.

App.173a
Now, they introduced this sex tape. They introduced the tape that has my client and Kasine
George on it in a locality just across the river
into New Jersey about four miles and having sex
with three different girls. Now, what does that
show to you or what does that tell you beyond
merely their association? It tells you nothing
about the crime of homicide. It does not in anyway connect my client to the crime of homicide.
But what it does do is sheds some light on
credibility of Kasine George and credibility of the
Commonwealth’s case. Because remember Kasine
George testified that immediately after the
homicides he said that Aaron Tyson and Otis
Powell both hightailed it back to New York.
They came back to the house in the West End
for a period of time. And Kasine says I fell
asleep. And when he woke up the next morning
they were gone. And he says they were gone for
a couple or three weeks, two, three, weeks and
they were laying low in New York. And he says I
didn’t see the black Maxima after that. I didn’t
see the gun after that. I just know that they were
gone. And they called me. I think he indicated
that Aaron Tyson called them and said bring the
newspaper and my girlfriend into New York with
me. And he indicated he is going to be staying
there for a while.
Detective Wolbert tried to suggest that his investigation confirmed that. He says we didn’t see the
black Maxima around. We didn’t see Aaron Tyson
around. For at least a couple of weeks, three
weeks after these shootings.

App.174a
Ladies and gentlemen, their own evidence connects
that. The sex tapes connect that. Their evidence
shows that my client was only about four or five
or six miles way from the scene of the homicide
as few as three days after it happened. Remember,
the homicides in this case supposedly took place,
took place on April 24th, 2002. And they provided
evidence to you to suggest that my client was in
that hotel room four miles into New Jersey on
April 27th, 2002. Does that sound like he is laying
low in New York City as per the word of Kasine
George? Does it make’ any sense to you that if he
was laying low in New York City that he would
travel all the way back towards the Poconos to
have sex with three girls? They could have done
that in New York if they were laying low there.
But, no, according to their records, the verifiable
proof, that they have their records contradict
their own witnesses statement.
Ladies and gentlemen, I submit to you it would
be more strange if my client and Kasine George
were not any longer tight together after this
homicide. That would be even more strange. That
would even lead one to conclude more positively
that maybe he was involved in this case. The
fact that they continued to hang out after the
homicides does not in anyway show that he was
involved. If anything, my client’s connection to
Kasine George and Dimitrius Smith and these
others makes it more likely that they would
finger him falsely because it makes more sense
for them to finger him falsely. And it fits more
neatly into the police’s theory of the case.

App.175a
Think about it. If Kasine George had come in here
and tried to suggest that I, myself, Brian Gaglione,
was the one involved in the homicides the police
would never have believed him. There’s no connection between me and him. Nothing. If he tried to
finger somebody that he has got no connection
to, then he is useless to them. Because they would
know definitely that he is lying and he would not
have gotten a deal.
So instead of doing something like that, you would
have to have fingered someone he is close to. It
makes more sense. Think about how this case
started. Think about what got this whole ball of
wax rolling.
You have the shooting that takes place and the
police acknowledge they have no leads on the
shooting save this car. Just this black Maxima.
And then you all of a sudden another police
officer arrives on the scene and says hey, I got
some information about that black Maxima. I
stopped the black Maxima a couple of days before
and there is even a guy that was in it. And I got
his name because wrote him the ticket.
So all they have from the inception of this case is
the black Maxima and the name Aaron Tyson.
That is all they got. And that is the only lead
that the police ever pursue; they never try to
pursue any other. The Maxima and Aaron Tyson.
And within about one week after that you heard
testimony from Detective Wolbert that he came
upon the woman named Tiffany Brower and he
asked Tiffany Brower does Aaron Tyson or
Antiwan Tyson have permission to be driving
the Acura Legend, I believe it was, because they

App.176a
stopped Antiwan Tyson driving an Acura Legend.
And he asks this Tiffany Brower does he have
permission to do that? And she said yes. And
then he took it one step further. Detective Wolbert
took the step, the difficult step, of telling this
Tiffany Brower wait a moment. The reason why
I am asking you this, Miss Brower, is because
we want to know about if Aaron Tyson or
Antiwan Tyson was involved in a double homicide.
He told her that. And he even told you why he
told her that. He wanted that information to
filter its way back into this drug operation. He
wanted to plant that seed. And that is what he
did. He planted that seed in the devil’s garden,
ladies and gentlemen. And he led it through its
black vines. That is what he did.
The next thing that happens after he does that
May 24th, one month after the homicides, the
police arrest this woman named Bam-Bam. That
is the next break, so to speak, in the case. And
they arrest this Bam-Bam woman, who was
described as one of the drug pushers who was at
one of the spots on Second Street; she was a
seller for this drug operation. They arrest her
with a lot of crack cocaine. And you heard testimony that the amount of crack cocaine that she
had on her would have gotten her a lot of time,
especially in federal court. They capture her.
And keep in mind Detective Wolbert had already
planted that seed. We are looking for Aaron
Tyson on a homicide, and they start asking BamBam questions now about her knowledge about
this homicide.

App.177a
Now, again the only way that she can give them
any information that in any way can help her is
if the information can somehow be confirmed or
checked out or got at least to be consistent with
information they are looking for. So Bam-Bam
gives them information consistent with what they
are looking for it, turns out. And they acknowledge that Bam-Bam is a liar. She is so much of a
liar they didn’t even want to put her up on the
witness stand. They acknowledge to you that
they sent me a letter and they said we are not
going to put Bam-Bam up because we are concerned she is going to commit perjury. This is
the first person who actually connected Kasine
George and Aaron Tyson and maybe Otis Powell
to this double homicide. And they are concerned
she is going to commit perjury, so they don’t
bring her in here to show her to you. But he is
writing it down what she has got to say. They
write it all down.
Then what happens after that? They find this guy
named Rogelio Brown, another person they
conveniently did not bring in here to have you
hear from. They arrest him in September, I
believe, was the testimony, somewhere in that
range. And he is also found with a substantial
amount of crack cocaine on his person and also
in the house where he is operating out of. So he
has also got big problems. And Detective Wolbert
told you that when he found this Rogelio Brown
he was nervous because he knew that he was
looking at big time. And Rogelio Brown starts to
tell them also some information which may have
sounded consistent with the theory they were

App.178a
laboring under that Kasine George and maybe
Aaron Tyson and maybe Otis Powell were involved
in this crime.
They question Rogelio Brown four different times
and get essentially four different stories. One of
the stories they get is that he knows nothing
about any of these homicides. He actually told
them I know nothing about it. That is after he
told them what he told them initially was that
he had overheard Aaron Tyson bragging to some
girls in New York City about his involvement in
this double homicide.
Did they provide any girls to you from New York
City? Did they bring anybody in who also
supposedly heard my client brag about his
involvement? No. Could they find those girls?
Detective Wolbert told you no. They don’t exist.
But that is what Rogelio Brown told them. And
they wrote it down. And then he changed his
story and said in a later version he said he was
not in New York when heard this. I was actually
in the Poconos when I heard it. Aaron Tyson told
me himself.
And then in a later version he said no, I was actually in the house on Second Street just before
these people or just after these people were
murdered, the Defendant and other people. Aaron
Tyson and other people come back to the house
and they told me they did it. He is always all
over the map, and they know that. And Detective
Wolbert acknowledged we couldn’t really believe
him either, so we left him home, too. We didn’t
provide him to you, either. But we wrote down
what he had do say.

App.179a
That information was taken down and ultimately
all that information is provided to Kasine George
because, remember, Kasine George was also
arrested in September. He was arrested then, too,
for his involvement in the drug case. After he is
implicated in a drug case he is given discovery.
They talked about it; they told you about it. They
give him discovery on the federal drug case. And
in that discovery was included the statements
from the people that I have just mentioned, the
statements saying that Kasine George was himself
implicated in a homicide; and, in fact, he was
involved in the homicide. Again, we know that.
That is confirmed. He himself was involved. So
now not only does Kasine George know that he
committed the crime, but he also knows that the
cops are onto him. He has got that information.
Remember, the only charge initially with his
involvement with the drugs, was his involvement
with the drugs. The charge on homicide does not
come until much later. But he gets that information. And when the police question him about
his knowledge about the homicide, before they
question him they say by the way here is the
stuff these other people have been saying just,
you know, so you understand what it is we are
talking about this. This is what Rogelio Brown
and Bam-Bam and others have said about your
involvement in this homicide.
So what does Kasine George do? What does he
say? Well, that is interesting, isn’t it? He does
not immediately spill the beans so to speak. He
does not immediately confess to his involvement,

App.180a
does he? No. Instead what he says is what can
you do for me?
Now, he tried to come in here and suggest to you
that the only reason why he has come forward,
the only reason why he has said that my client
was involved and Otis Powell was involved and
tried to suggest to you that he is only doing that
because it is the right thing to do. That simply
does not comport with the facts and does not
comport with logic. And, ladies and gentlemen,
you do not check your common sense at the door
when you become a juror. Does that make any
sense to you that he is only coming in here and
telling you what he is telling you because it is
the right thing to do? No. He thinks about what
he should say and gets a lawyer up in there in
federal court and gets himself a deal. He gets
immunity. He gets less time in federal court for
his involvement in the drug case. And he gets
concurrent time here for the homicide.
Those are the only circumstances under which he
spoke to the authorities. That is it. Think about
that. He has already been caught with the drugs.
He knows that he has been identified as one of
the ringleaders of this drug operation. He knows
he is in trouble before the other one. How is he
going to get out? The cops give him a way out.
Ladies and gentlemen, he ended up—at the end
of the day—Kasine George has ended up better
off for having been implicated in this homicide
than if he had never been involved in it. He was
looking at serious time in federal court. And
unless he had something to give to the feds and
the state officials, he was looking at 20 to life.

App.181a
And they had him. They had him. And he knew
it. Everybody ended up taking pleas in the federal case because the feds had him. What did he
end up with? The least amount of time of any of
the higher ups. He got less time than everybody
else because of his cooperation. And he is getting
no time on the homicide. Not only does he get
two free killings, he is going to be out in about
six years.
By this time, ladies and gentlemen, by the time
Kasine George started telling Detective Wolbert
the story in February of 2003, by that time that
seed that Detective Wolbert had planted in that
garden of evil has turned into a big tree full of
lies. That is what has happened by February of
2003. That was the context in which this case
emanates. Their whole case is based solely and
completely on the testimony of corrupt and polluted sources.
Judge Vican is going to define for you there is
another aspect of the law and he is going tell you
about it. He will define what a corrupt and polluted source is. It is an actual term of art within
the law, and he will tell you how you are to view
the testimony of corrupt and polluted sources.
He is going to tell you that you must receive the
testimony of people like this with disfavor. You
have to question their motivation for their
testimony. He is going to tell you that. He will
tell you can only accept their testimony with
caring, with care and caution. And you must be
mindful of the source of the information that you
receive. And you have to determine whether

App.182a
their testimony is supported in anyway by any
independent actual evidence.
Now, think about Kasine George as a corrupt and
polluted source and ask yourself some questions
about him and you will find the answer is simple.
He has been convicted and not just of drugs. He
is a convict of many things. He has been charged
with tampering or fabricating physical evidence.
He essentially has been charged with covering
things up to the police in the past. And he has
been convicted based on that charge. That is
what tampering or fabricating physical evidence
is. Trying to cover up one’s own involvement in
something.
He has been convicted in conjunction with that
in the past. And I am certain that his involvement
in that case was not nearly as involved or as
important to him as his involvement in this double
homicide. He has been convicted of a firearms
weapon; he has been convicted of that. And what
was the weapon? It was a .9 mm handgun. Kasine
George has been convicted of possessing a .9 mm
handgun. The same caliber handgun that was
used in this case.
Now, he tells you I didn’t shoot anybody here. It
wasn’t me. It was Otis Powell. But of all of the
people you heard testimony about he is the only
one who we can prove actually has possessed the
very type of firearm that was used in this case.
Now, he tried to suggest to you, ladies and
gentlemen, he says I don’t carry guns anymore.
When I took off from a halfway house and I
came up to the Poconos, yeah, I got right back

App.183a
into the drug business. But I didn’t carry guns
anymore. I never touched them after that. Does
that make any sense to you whatsoever? That is
absurd. You heard him testify about the dangers
involved with drug dealing. And you also heard
him testify that the further along and higher up
you get in the food chain in the drug trade the
more dangerous it gets. And that makes sense.
So somebody who has access to firearms and has
a need for them because of the involvement in
drugs. He comes in and tells you it is not me. I
don’t carry a .9 mm anymore. I don’t carry any
guns anymore. Does that make sense? No. It is
absurd.
Now, what else did he tell us? He told us that
Dimitrius Smith—and you remember him.
Dimitrius Smith was the one that goes by the
name “Murder”. He tells us Murder’s sister had
gotten into it with some local drug dealers out at
the “Outer Limits”. That is what Kasine George
tells us. And he also told you if Murder told him
to do something he would do it.
We also know, because Detective Wolbert told us,
that Murder, the ringleader of this operation,
was mad at my client, Aaron Tyson. Because
while Murder was in jail serving the sentence
for having been shot and having been found with
drugs, while that is happening supposedly Aaron
Tyson is not keeping good books, I suppose. The
drug profits are not as good as they should be.
And Murder is mad at him.
Now, we know that Kasine George is looking for
a deal and you know he got a great one. And we

App.184a
also know that Kasine George and Murder spent
time together in jail before Kasine made his
statement to the cops because they told you,
these are the verifiable facts, the only facts that
are verifiable, the only ones that we know were
true, they all call into question the veracity of
Kasine George’s testimony. We know that he
was talking to Dimitrius Smith because he told
us he was talking to Dimitrius Smith. He told
you that. I asked him. Mr. George, isn’t it true
that you spoke to Dimitrius Smith during this
three or four months you were in jail together
about the homicide? Answer: He said yes. Question: Detective Wolbert told you I believe it was
today he said that he himself asked Kasine
George whether George and Smith had spoken
in the jail. And George told him no.
Ladies and gentlemen, what Kasine George told
the police was what the police wanted to hear.
The stuff they didn’t want to hear, the stuff that
does not fit with the theory of their case they
just put aside. They didn’t present it here to you.
They tried to bury it. They tried to deflect attention away from it because if you look at any of
those other things, it makes you hesitate. It
makes you pause before you can accept Kasine
George’s word. Kasine George came in here. He
was all dressed up in his nice suit with his soft
voice. He is a wolf in sheep’s clothing, ladies and
gentlemen. That is what he is. I guarantee you
that the Kasine George anyone would have
encountered on the street was not the person
who they paraded in front of you last week.

App.185a
Judge Vican will tell you that if you believe that
Kasine George testified falsely about any one
thing, any material fact in this case, if you believe
that he testified falsely to you about anything,
you can for that reason and that reason alone
choose to disregard everything that he has got to
say. That is the law. Judge Vican will explain
that to you. There was simply too many inconsistencies in this story. Too many things that were
unverifiable, and the things that were verifiable
contradicted his story.
Finally, ladies and gentlemen, there is another
person that the Commonwealth could have brought
in here. Ladies and gentlemen, you heard some
testimony about him. His name was Louis
Davenport. Louis Davenport was the gentleman
who Detective Wolbert spoke to in the jail. And
Detective Wolbert used Louis Davenport’s words
in order to get a search warrant. He testified he
told you I put down what Louis Davenport said
to me in an application for a search warrant. And
when I did that, I swore out an affidavit saying
all this stuff was true and correct to the best of
my knowledge and information and belief. So
Detective Wolbert essentially vouched for the
credibility of one Louis Davenport when he was
applying for the search warrant. Remember, he
was applying for a search warrant before he had
an opportunity to speak to Kasine George. So he
was still in the investigative period at this point
in time. He didn’t yet have Kasine George coming
in and fingering my client. So he puts in these
words from Louis Davenport. he says these words
are true.

App.186a
And what does Louis Davenport say? Louis Davenport told Detective Wolbert that Kasine George
knew of the whereabouts of the gun. The gun.
This is information that only someone who is, in
fact, familiar with the case would have known;
that there was only one gun involved. Louis
Davenport told Detective Wolbert I spoke to
Kasine George. He tried to get me to give a note to
Murder in the jail to tell him where the gun is.
If you remember, Kasine George says I don’t know
where the gun is. But supposedly he is in the jail
telling a guy named Louis Davenport I know
where it is and I need to get word to Murder for
when Murder gets out he can go take care of this.
Okay.
That is the inference that you can draw from that
statement. And Detective Wolbert believed that
at least one point in time because he put it in
the affidavit. What else did Louis Davenport tell
Detective Wolbert? He told him that while in jail
Kasine George and Louis Davenport got into a
wrestling match with one another. And during
the course of that wrestling match Kasine George
told Louis Davenport I am going to kill you just
like I killed those two white guys. Doesn’t say I
am going to kill you like Otis Powell killed them
or going to kill you like Aaron Tyson killed
them. I am going to kill you like I killed them.
And Detective Wolbert puts that in an application
for a search warrant, and he says this is all true.
Did he put Louis Davenport up here? No. In fact,
they came in here and said we don’t now believe
Louis Davenport. Why? Because it does not fit
with their theory of the case. Because it calls

App.187a
into question the testimony of Kasine George.
Instead of bringing in all these other people and
having to base your decision on what was really
said out in the street, they only put Kasine George
up. And they ask you to believe them without
hesitation.
Don’t do that, ladies and gentlemen, for God’s sake,
don’t do that. This case is too important. Apply
the law as Judge Vican is going to read it to you
in this case. Hold the District Attorney’s Office
responsible for providing you with evidence not
just the tainted words of the lies of the likes of
Kasine George. Hold them to their burden. If
you do that, and I am convinced that you can
draw only one conclusion from this evidence or
the lack thereof, is that my client is not guilty.
Thank you.
MR. CHRISTINE: May we approach, Your Honor?
(Sidebar discussion held off the record.)
(Back on the record.)
MR. CHRISTINE: I appreciate Mr. Gaglione’s kind
words, ladies and gentlemen. But I just turned
49 years old. I may not be as eloquent as I used
to be. Like Judge Vican I am in my 25th year as
a lawyer. And he is celebrating 25 years as a
judge. So I became a lawyer just about the time
he became a judge. And I will try to hold myself
up to Mr. Gaglione’s high standards.
First of all, I want you to remember to be calm
and focused. And you have been very attentive. I
have, as Mr. Gaglione also observed, we both
looked at you to try and figure out what you are

App.188a
thinking and doing. We really will never know
anything until your verdict comes in ultimately.
It is so frustrating to know that the most important thing about the trial has yet to happen.
But although you been very active in watching
what was going on, things really get very important soon because after a while when I am done
talking tomorrow morning the judge will give you
the charge. And then everything is in your hands.
And I know some of you, very understandably,
may be nervous. This is not a typical decision to
just sit in judgment of a person charged with a
murder. It is the most serious offense known
anywhere, including the Commonwealth of Pennsylvania.
But look at the courtroom. It has been here a
long time. My dad was a DA back in 1953. And
although the juries that he presented the Commonwealth’s case in front of were far different than
you, they had party lines in ‘53, he had no murders
in his time. And he did chicken stealing cases
often as the District Attorney in Monroe County.
Times have changed. Monroe County is not the
quiet, little, rural area that it used to be. And
now we have drugs where no drugs used to be;
murders where there weren’t murders. But you
are no different than the jurors who meted out
justice, whether the verdict was guilty or innocent,
in 1953; no more so than looking at the faces of
these judges peering down at you. They go back
as far as the 1840s and 1850s when Monroe
County jurors could not read or write. And yet
they meted out justice.

App.189a
So if you remain calm and act as the judge or act
as Mike Mancuso told you to, as persons of conviction and persons of real beliefs, whatever verdict
you reach will be fair and appropriate. Don’t let the
nervousness or your duty to render a decision,
which is important to both the Commonwealth
and the defense to allow you to raise in your mines
a reasonable doubt if it does not exist. If it does
exist, you must find the Defendant not guilty.
The judge will tell you do not find a reasonable
doubt out of thin air merely to avoid an unpleasant
duty and convict only if the evidence supports a
conviction. So keep that in mind when you go out
and you will find that when you conscientiously
review the evidence that whatever verdict you
reach will feel sensible to you and will be fair
and just regardless of what it will be.
As you remember what Mr. Mancuso told you in
his opening on behalf of the Commonwealth
about the tools of the trade you bring to the jury
deliberation room with you the most important
of which is your common sense, your beliefs,
your attitudes, the things you have learned over
the course of your individual lives, all diversions
and differences. This is an area you bring to
bear in this important issue in deciding what to
believe and what not to believe. And you know,
both as persons of common sense and as attentive
jurors, it has been proven beyond any doubt—
and I am not going to show you but these sad
and tragic pictures—and if you looked at the
pictures alone you would realize without being a
forensic scientist or forensic pathologist that the

App.190a
Fotiathis brothers died a horrible tragic death.
They were gunned down.
There is no question about that from your common
sense. And the evidence you have heard, beyond
any doubt, there’s no question that the killer,
the shooter, wanted them dead. Multiple gunshot
wounds. They didn’t have a chance. Somewhere
in the vehicle in the trash they located a BB
gun. One was able to get to the curb a little way
from the shooting but that was Keith. He passed
away. Dan, as you know, couldn’t barely get out
of the car, fell after the shots hit him. So we
know it is a shooting. We know it is a murder.
And it was senselessly done in a dark place on a
dark night, 11:30 or so. So that has all been
proven to you.
You know whoever was involved in this shooting
is a murderer. Either the shooter, or any helper,
who under Pennsylvania law, is an accomplice.
Because we have the system of justice for over
200 years. There’s a rule for everything ladies
and gentlemen, human nature refined over time.
In all of the juries that have sat in Pennsylvania
in over 200 plus years. They have given us rules
for every situation. Common sense rules you
even without the judge telling you when he gets
a chance to tomorrow morning. And one of the
those rules is if you help a shooter kill, you are
as guilty as the shooter. So in a bank robbery,
when there’s a look out sitting outside the bank
and he tells his friends who are armed now,
don’t go shooting any bank guards. Go and get
the money and come back out. And I am going to
stay in the car and we will drive off and live

App.191a
happily ever after. And the two friends go in and
shoot a bank guard. Guess what? He is as guilty
as they are even though he told them not to
shoot because the law can sometimes be sensible,
especially with a criminal. Over 200 years of
evolution. So anyone who is with the shooter on
South 6th Street either helped to drive a vehicle,
providing the vehicle, handing the gun over,
slashing the tire, any of those acts make those
people equally guilty of the criminal offense as a
helper, as an accomplice. That is beyond any
doubt whatsoever.
So a lot of what you have to do will come to you
as a matter of common sense even without the
judge telling you anything about it. By the way,
ladies and gentlemen, I am so glad we have a
brand new rule. You are the first jurors that can
use notes because the rule just changed. And I
always was guilty about having to have to use
notes, but now I feel no different than you. You
get to take notes, too. Please forgive me if I have
to refer to my notes, but I want to make sure I
get every one of the points said together for you.
There is something else you know that has been
proven beyond all doubt before you got here.
And a lot goes to the common sense just how evil
the drug world is. I bet none of you last Tuesday
ever thought when you got here to the courthouse
you were going to get a crash course in the world
of drugs in Monroe County.
We all try to live our lives and deal with our
families and be happy, and yet it is amazing
there’s another world out there with machine guns,
weaponry, evil, people turning against each other,

App.192a
trying to intimidate, trying to control territory,
intimidation, raking in $50,000.00 a week, tax
free. Bringing drugs in from Harlem. They can’t
even stay there. They have to come here and do
it after a test run in Allentown Pennsylvania.
It is amazing, isn’t it? I bet you never thought
that would be part of your exposure as a jury. But,
you know, all these things you knew them before
you got here, didn’t you? That drugs involve
violence. That when you are out on the street
dealing drugs you may not have a weapon on
you but you have got to be tough. What did Mr.
George tell you? Keep the wolves at bay he said.
Even the names of some of these people are there
to suggest risk to anyone who would interfere
with the operation. Murder, Damage. Interestingly,
Mr. George has somewhat of a benign nickname.
Casino. It is probably a result of his first name
of Kasine. And the Defendant has a benign
nickname Q. Maybe the more you pick a nasty
name the more likely you are to commit violence.
But you know with your own common sense that
all of these things—violence, intimidation, risk,
retaliation, extradition—are a part of the drug
world. You also got an excellent lesson in the
trial and how to bring down a drug organization.
How to destroy it by using state, federal, and
local resources. Listening to phone conversations
from the jail. Getting cell phone records. Having
snitches roam, trying to find targets in the
organization. Arresting people, squeezing them
and putting the screws to them until they reveal
what they know. Moving up the ladder as both
Detective Wolbert 16-month investigation and

App.193a
the use of the best hammer known to man, the
Federal Government, who with their power and
their resources, can sweep away for years those
who commit these kind of offenses with far more
ability than the humble resources of Monroe
County. You heard Special Agent Wevodau testify
to that.
That is what brought down this drug ring. That
type of old fashioned detective work. It does not
stop there, ladies and gentlemen. This is the
same way Rich Wolbert also pierced the veil of
these shootings. Another thing you learned in
this trial once again which maybe even comes
from your common sense is what you saw; that
luck plays a role in criminal investigation. No
matter how diligent the investigator, no matter
how committed, it is all about luck. If those kids
had not been on the street—I don’t care what
they were doing there. I wonder myself what
they were doing there at 11:30 at night. I live
four blocks from Main Street. I don’t know why
they were there, but they were there. And you
heard one of them testify. If they had not been—
and you also heard on the 911 tape about a black
Maxima on tape. If it was not just one person
that it was on the 911 tape. There would be no
crime to solve in terms of getting that evidence.
There would be no one who saw that black
Maxima. Because that is the only connection to
this event. The only connection.
It is amazing that you can walk up to someone,
shoot them dead. And if you take the gun away
with you, you get rid of it. And are not found
quick enough to see if you have DNA or GSR on

App.194a
you and weeks and months go by, you can get
away with murder. But there was bad luck for
these guys because that black Nissan Maxima
was seen with the tints. And we know there were
at least two people involved because the kid saw
the person come up the street, look both ways, go
down and heard the shots, get into the passenger
side. And that is the one lead the police used to
try and break the murder, using the same techniques that you saw with your own eyes that
solved the drug ring. They were tried and they
are all in jail now, 11 years, 12 years, 17 years.
So with your own eyes you can see how turning
people against each other, putting the hammer
to them, using snitches, listening to phone calls,
surveilling, following, can destroy the drug ring.
Keep an open mind to determine whether or not
the police investigation concerning the murders
are worthy of acceptance by you and, indeed, do
or do not prove the case beyond a reasonable
doubt. We will be getting to that right now.
I told you there’s a rule for everything. We have
been doing this for over 200 years as well. As Mr.
Gaglione told you, there’s a rule for accomplices
about how you treat their testimony, the coDefendants. There is no question that Mr. George
is an accomplice and a co-Defendant of Mr. Tyson
because they are accused of the same criminal
event as helpers.
Now, remember in this county not in one state is
there a rule which says, ladies and gentlemen of
the jury, you can disregard and treat as a lie all
that flows from the lips of an accomplice as part
of your acceptance. Remember, you won’t hear

App.195a
Judge Vican say that. Why? Because think of
how many crimes could not be solved if you could
not use someone who was involved in the crime.
What do you know about your common sense?
Criminals don’t like to be caught. If possible,
they prefer to commit their criminal offenses
and further their evil in secret. A veil of secrecy
at night somewhere where no one is seeing them
just like this event occurred. You got the kids on
the street. That was the risk the shooter and his
friends took. But criminals don’t like to be
caught. So if you have a case just like this where
there is no DNA, no fingerprints, no footprints,
no cigarettes, no fire or matches, no video camera
at the minimart like you see on the television.
So many robbers come in without a mask on and
are right on the video camera. Nothing like that.
Nothing that makes the Commonwealth’s job easy.
There is only one type of evidence you can resort
to, not just in this case but as to crimes everywhere. Using an inside person. So we don’t have
in this county that rule that you must disregard
what an accomplice says because it is an obvious
lie. And the opposite is also true with your common
sense. That, thank God, in our country, a free
country, a great country, ladies and gentlemen,
you must accept as true what a co-Defendant says.
That would be a crazy rule, wouldn’t it? Because
I agree with Mr. Gaglione. What do you think
Kasine George said that this is the right thing to
do. He meant the right thing to do for him.
These guys—and you know that by using your
common sense—are self-interested. They only
want something that gets them some sort of

App.196a
benefit. So you can use them and you can listen
to them as a juror but you have, as the judge will
tell you, to be very cautious. Mr. Gaglione used
the right words. Corrupt and polluted source.
Think about it when you hear that term because
we want to believe the opinions if there’s witness
testimony—that is the term. Look upon the
testimony. Judge it. Look at Kasine George with
suspicion and distrust. But it does not stop. He
will also tell you that although you must be very
cautious in regarding the testimony of an
accomplice to tell the truth, they may be telling
the truth. And therefore the rule as it exists is
just and reflected in the good common sense
between those two poles, believing everything a
witness says as an accomplice and believing
nothing of what they say—it is somewhere in
between. So be suspicious, be cautious when you
regard the testimony of Mr. George.
But how do you value or regard the way his
testimony was based upon that rule? You have
to answer two questions. And your answer to
those questions will reveal to you the verdict you
should reach, whether it be guilty or not guilty.
The first is what, ladies and gentlemen, is there
against Mr. George since these guys do nothing
unless you got your hand around their throat.
Know that these people when they are out on
the street did turn on each other like that; that
they will shoot. Could you keep track of the
number of shootings these guys were involved in
Smitty in Stroudsburg shot; you got a guy in a
shooting down in Allentown; Mr. Powell is the
shooter in this case and getting shot in North

App.197a
Carolina, and then shooting one or two guys in
Allentown. It seems like gun play violence is an
occupational hazard in the drug business. So you
have to look at whether or not and to what
extent there is leverage on Mr. George when he
was testifying because if there is leverage then it
is more likely that he is telling the truth. And
ask yourselves what is that leverage? It comes in
several parts.
First of all, this is not a case where the police
walked up to a suspect, say come over here. Sit
down. See this video. We know you are at the
AM/PM minimarket and we know you robbed it.
You didn’t wear a mask. We saw you on the
tape, so you better sit down now and tell us
what you know and who was involved or are you
going to do it alone, sit in jail alone for 10 years
or sit for five minutes and give up your friends.
This is not that case. And why is it not that case?
Because you heard and know beyond any doubt
that there is no physical evidence that connects
anybody to this offense except for the Maxima
that one saw a black Maxima with tints leave the
area. We know the caliber of the weapon. We know
how the Fotiathis brothers meet their tragic fate
but don’t know from the scene who did it because
no one actually can place a specific person. Except
Mr. Osman says that whoever was looking up and
down Main Street before going back down 6th
Street was not Mr. Tyson. That is not the case.
Mr. Kasine George convicted himself when he gives
his proffer. And, yes, he only gave his proffer
when he was going to get a deal because of what
the other things you know from common sense

App.198a
in these guys are not going to do anything
unless they are going to get something from it.
And that is the sad and unfortunate aspect of
trying to deal with people and in turn them and
pressure them to try and give up what they
know about crime and otherwise would not be
solved and deaths that will never otherwise be
corrected and those responsible brought to justice.
This is not that case.
The police knew that Kasine George might be
involved because he was a part of the crew that
used that black Maxima that was making all that
money in the area. But they had no fingerprints,
no DNA. No one was sitting at the table saying
to Kasine George here are the fingerprints of the
screen; here are footprints; here are the hairs.
DNA match, nothing. He knew that they were
suspicious of him. But they didn’t have enough
to arrest him. And yet he puts himself right in
the middle of the murder as an accomplice because
you know from your common sense when the
police are trying to figure out and interview
someone how involved they are. They are going
to try and minimize their involvement if they
can. And he did not admit he was the shooter.
He admitted he was an accomplice and therefore
is equally guilty. Had he not stabbed that tire;
had he not disabled that vehicle, they would
never have stopped in the dark side street and
the Fotiathis boys might be alive today.
Kasine George is a murderer because he is an
accomplice. He is a murderer. And yet he didn’t
tell the police—as you can imagine with your
common sense—he, knowing they don’t have more

App.199a
than suspicions against him, yes, Mr. Wolbert,
Detective Wolbert, I am a part of the crew. But I
want you to know that I was with my girlfriend
that night; I was at another spot that night. I
was whatever that night. I don’t know what they
did. It is Tyson’s black Maxima. He was in this
probably with Powell. I don’t know but they told
me about it. And they came back wherever they
came from. And they admitted to me they shot
these two white boys.
Wouldn’t that have gotten almost as far if he just
said they confessed but kept himself out of it?
And that is not typical leverage. He did not
minimize it—other than not being the shooter—
he did not minimize his role. He convicted
himself before the police had any evidence.
Suspicion is not enough to convict in Pennsylvania.
It is not even enough to charge. You have to
have more than that. He convicted himself and
did not minimize the behavior but put himself
right in the middle of the homicide. And that is
something you have to consider when you decide
whether or not his testimony is worthy of belief.
One other thing which is interesting which is a
real hammer on him is, you know—and this is
not coming from my extrapolation of the facts. It
is right here in the record. Somewhere in here is
the order of court where he entered a plea of
guilty to murder in the third degree. And you
will see when you get the paperwork he entered
a plea to murder in the third degree in front of
Judge Vican. The guy sitting right up there. And
you also know from the testimony he has not
been sentenced yet.

App.200a
Now, you know that Kasine George told you that
it is his hope—we all have hopes in this world—
it is his hope that he serve no more time than he
is serving already in the federal level because as
you know from the evidence the agreement the
Commonwealth made—yes, the deal was made—
and a deal will be made in any case where you
have to reach in behind the veil and find
someone to turn against those who committed a
crime with that person. The deal he was offered
is you cooperate. You sign a proffer agreement
with the feds and the DA’s Office which, of course,
includes that you have to tell the truth and the
Commonwealth will recommend to the court here
for sentencing that your time runs concurrent,
which means the same time.
Well, this now—this is the official plea agreement
that Mr. George signed. The original of this is
sitting right in the judge’s file or the Clerk’s
Office. I don’t know if the judge has the whole
file. But it is right here. This is a copy. And in
here it correctly indicates that he pled guilty to
third degree murder with a maximum sentence
of 40 years in jail. That is the maximum found
in murder in the third degree. We are talking
about heavy potential time here. And then it
says terms of the plea agreement, see attached
guilty plea No. 3. Right on the back is the official
agreement. Not what I think it is. Not what Mr.
Gaglione may have thought it was. Not the hopes
of Mr. George because that is his hope that he is
not going to serve. He told you that. Here is the
plea in black and white. What does it say? I will
read it to you. In return for the guilty plea the

App.201a
Commonwealth has agreed to the following.
That the Defendant’s sentence in this matter
run concurrent with the sentence he is serving
in the federal drug case against him. And it lists
the docket number up in federal court. I won’t
read that. This agreement is conditioned upon the
Defendant complying with the Commonwealth’s
proffer agreement entered into by the Monroe
County District Attorney and the Defendant
order on or about February 12th, 2003, which
specifically incorporated the proffer entered by
the US Attorney, Monroe County District attorney
and the Defendant dated December 16th, 2002.
That is it.
The agreement says that if he cooperates, which
includes telling the truth, his time will run
concurrent. It does not have a cap. It does not
say how much time he is going to serve. And his
signature. He is up on this stand knowing when
he is testifying that if he lies, if his testimony is
not consistent with what he believes happened,
that he remains at risk because Judge Vican has
not yet sentenced him. And that is important for
you to know. It is not like this guy gives some
swan song bull you know what story to Detective
Wolbert just to get out from some charges. And
he is stupid enough to think the Commonwealth
is just going to throw him up on the stand with
no consequence whatsoever and expect you to
believe him because I have more important
things to do with my time. And you have more
important things to do with your time.
This is not rocket science, ladies and gentlemen.
People all of the time are turning against others

App.202a
when they are trying to hide what they are
doing. You will decide on your own whether to
believe them or not. And that is your job. No one
decides the credibility other than the jury. But
remember well when you review this document.
I expect the judge will allow you to get some documents. And statements of a Defendant are not
allowed to go with the jury. They may not see it.
That is why I read it to you. But that is where it
is. There it is. There’s no cap with a 40 year
maximum sentence hanging down his head while
he testifies.
So the first of these two questions I ask you to ask
yourselves, is there a hammer; is there leverage?
The answer to that is yes. But we don’t stop
there. The second question you have to ask
yourself is what corroborative evidence is there
that supports the version given to you by Mr.
George? Because that corrupt and polluted source
says one of the things you should do in whether
to believe an accomplice is whether or not there
is corroborative evidence.
Now, we know—and I submit that Mr. Gaglione
has agreed there’s no question that George was
involved; no one could have all about the details
of the shooting. Only a madman would admit to
a murder he or she had not been involved in. He
knew the caliber of the weapon; he knew the
Fotiathis brothers had gone into “Kay’s Tavern”.
That was confirmed by the bartender’s interview
with the police. He knew about the “Outer Limits”;
he knew all that stuff and how the shooting
occurred; that the person shooting at the van
was pulling back.

App.203a
He got confused about the details and couldn’t
remember whether Powell got out before they
backed up on 6th Street before he got out and
shot the Fotiathis brothers or whether it was
before they backed up. There were some other
details he couldn’t remember. He screwed up
whether this was a week before the murder or
two weeks before the murder they were out at
the jail waving at Smitty. It couldn’t have been
two weeks before the murder because he doesn’t
have the damn Maxima yet.
So there are inconsistencies which are not of major
detail. And we all know that he was involved in
the shootings. And, indeed, other people could
not remember accurately what the shots were,
too. You heard the 911 tape. One of the persons
said they heard three shots. We know there were
eight shots because, of course, we saw the little
cartridges. One for each of the empty rounds.
There were eight all together. So the fact that you
could not remember exactly is not about whether
you can believe his testimony obviously this and
part of this tragic event.
Remember, believe all of his testimony. Obviously
he was there. You also know that his testimony
is completely corroborative with the drug world,
which I thought was fascinating. You may not
think it was, but I thought it was fascinating to
have a drug dealer tell you about the inner world
of drug dealing. I will never forget it. But I never
sat there and spent an hour asking someone like
when they started it and use of the weapon; how
much money they said they made. And T still
don’t know what they did with all of the money,

App.204a
making $50,000.00 a week. Who knows? Maybe
they have a stash somewhere.
But anyway he told you all about not only his
involvement with the drug ring but how close he
was to Mr. Tyson; how much he was involved in
the drug ring. And that testimony is corroborated
not only because Mr. Kasine basically admitted
he was involved with drugs. But the judge will tell
you lawyers only argue the case. We give you facts.
You have to decide based on the witness stand.
But rather than accept my extrapolation or Mr.
Gaglione’s extrapolation, let’s look at the facts.
Suzanne Kasteleba, court reporter, took word for
word transcription of Mr. Tyson’s plea in federal
court. And it was taken in front of Judge Kosik
on November 25, 2003.
Transcripts are great because—I feel sorry for her
because I am going real fast—but transcripts are
great because they take down everything that is
said. And Mr. Tyson pled guilty. And before you
plead guilty the government says what you are
pleading guilty to and what the factual basis of
the plea is; what would be proven that is just
your plea. And it is only a couple of paragraphs.
I want to read because it is important the cooperation is all about this case and there case is all
about corroboration.
This is the United States attorney telling Mr.
Tyson what he is pleading guilty to, the factual
basis. “Your Honor, the Government would present
approximately 15 cooperating witnesses that
would link this Defendant to a crack cocaine
trafficking operation that was headed by an

App.205a
individual named Dimitrius Smith, who had a
street name of Murder.
This operation was ongoing from approximately
1999 until September-October of 2002. The witnesses would indicate that Dimitrius Smith was
the top man in this operation, and that he and
Kasine George were running the operation, and
then in early 2002, this Defendant, who had
known Dimitrius Smith and Kasine George from
a time in Allentown and even before that in New
York joined, that operation, joined that conspiracy,
and that he began working with Dimitrius Smith
and Kasine George to supply street-level dealers
that were recruited from New York to distribute
crack cocaine to customers in the Stroudsburg
area of Monroe County.
In addition to those cooperating witnesses, Your
Honor, agents from the FBI and local police Made
approximately eight controlled buys of crack
cocaine from members of this organization.
For example, on May 7th of 2002, a confidential
informant made a phone call to a cell phone number that he was given by members of this group,
and in this particular case, the Defendant, Mr.
Tyson, answered that cell phone and directed the
confidential informant to go to a hotel room in
Monroe County where another associate distributed a quantity tea of crack cocaine to the informant.” So it is May 7th, 2002. This is business
as usual with the crew.
“The informant subsequently that substance over
to the police. It was testified by a lab positive for
crack cocaine.

App.206a
In another instance on July 25, 2002, a confidential
informant went to an individual named John
Henry Smith, another one of the street-level
dealers in this operation, who during this transaction made a phone call and had to get the okay
from Mr. Tyson to sell to the confidential informant, which happened.”
And then it goes onto one May 24th. “One of the
street-level dealers, who identified the Defendant
as being associated with Kasine George and
others, was seized in a motel in possession of
approximately 10 grams of crack cocaine, and on
September the 12th, 2002, a search warrant was
served at the residence of Christopher Foster
any Niasha Smith. police and agents seized
approximately 75 grams of crack cocaine, along
with two weapons in a Nike sneaker case that
was located in that residence that witnesses
linked to Dimitrius Smith and the operation.”
And finally the United States Attorney says “The
Defendant himself, Your Honor, after his arrest
was brought in and Mirandized, signed a written
Miranda waiver and gave a full confession to the
FBI regarding his involvement in this conspiracy.”
So there is no question out of the lips of the
Defendant when he admitted to the statement
of facts that there was a longstanding drug
conspiracy between these guys. And that is
important. Very important. Mr. Gaglione is correct
just because you are a drug dealer does not
mean you are a murderer. But if you are close
together the way you act when trouble comes
might reveal to you whether or not you should
believe Mr. George in this connection. Look to

App.207a
see if Kasine George’s testimony seems to fit
based on your common sense; does it seem to
agree with other facts in the case or does it not.
Because if it seems consistent with your knowledge
of how these drug dealers based upon common
sense and what you heard from the witness
stand then his testimony is worthy of belief. And
if the pieces of the puzzle don’t fit, there is not
conspiracy or a deal that what he is saying is
something believable based upon your common
sense, then he is unworthy of belief and you should
determine that a reasonable doubt now exists
and the Defendant should be found not guilty.
Listen to these factors in assessing and even the
nagging question about corroboration that I told
you about. Kasine George says he stays here and
that both Powell and Tyson are gone the next day
after the homicides and are back in New York. And
there is some discrepancy between Mr. Gaglione
and I about when he came back or when Detective Wolbert thought he came back or when
Kasine George said he came back. Your recollection is in control not lawyers.
I will rely on you rather than arguing back and
forth with Mr. Gaglione about whether what he
had said about that particular point. But we
know that the Maxima never is back in Monroe
County. That is pretty sensible, isn’t it? You
know this is the only thing for sure. You don’t
want it around Monroe County for the police to
try and track you down with it. So that was
sensible, wasn’t it? And these people are wiley.
You know that. The drug dealers they are risk
assessors and takers but also as risk assessors.

App.208a
They try to minimize whether shooting someone
they will then keep the wolves at bay, trying to
get in that case a hot piece of evidence out and
away from the hands of the police.
But the fact that he is the one that stays behind
at least for a while before Tyson comes back is
sensible, isn’t it, ladies and gentlemen? And why
is it sensible? Because he is the least connected
to the homicide. He is an accomplice and guilty
of it. Remember the altercation which occurred
out around the Exxon Station. It did not involve
Mr. George. He was in the car at the time. He,
according to his testimony, was not the shooter.
And he didn’t drive the vehicle. And it was—he
was in the back the whole time. The only role he
played which links him as an accomplice but
was the least open and observable motive was
slashing that tire. So wouldn’t it seem consistent
with his version that the two people who leave
are the shooter, the owner of the vehicle, the
person who supplied the gun to Mr. Powell, also
being Mr. Tyson? Doesn’t that seem more consistent? Why would Mr. George leave? Doesn’t it
seem consistent that he would stay, and they
leave? Another big one is this point. And I think
it is a big one. I am a drug dealer and been one
for many years. My good friend—I am Mr. Tyson.
My good friend, Kasine George, if I am indeed
innocent, decides to use my vehicle to blow way
some people.
Now, think about this. These guys as I told you
they are risk assessors. They try and hide their
evil doing in the world of drugs. They have—and
Mr. Gaglione agrees with me—a number of cars

App.209a
they can use to go to the spots to reup their street
leveler dealers. And there is only one car they
have tied to one of the main crew members. Every
other one is a girlfriend’s or some disconnected
person.
There is only one car in the testimony that you
have heard in this trial, one car and only one car
that is in the name of Aaron Tyson. And that is
the car they use to shoot up two white guys when
they are making all this money and pushing
their, drugs throughout Monroe County to thousands of customers.
What do you think Mr. Tyson is going to think if
as Mr. Gaglione would have you believe, he is
not involved in the murder and someone else,
obviously Kasine George is definitely involved in
the shootings by his own. Admission how do you
think he is going to react to his car being used?
The only thing that can link him to the shooting?
What you think he is going to do? What would
you do in that situation? What would a person of
common sense do? Wouldn’t you distance yourself
from anything that could bring further risk to
you until you could figure out whether the police
were on your trail? Because remember, ladies
and gentlemen, drug dealing is bad but getting
involved in a murder is a whole different ballgame.
You saw from the paperwork that murder three
can add up to 40 years in prison. You can
imagine—the judge will tell you about the law at
the appropriate time—but you can imagine how
a higher level of murder can bring even more
serious consequences. So if you are a drug dealer
making good money and you are not involved in

App.210a
a homicide and your bud, your friend, your crew
member uses your vehicle, the only one reason
they can implicate you, what are you going to
do? You are going to disengage from the operation until you can determine what the police
know or whether or not you are at risk.
Now, the one smart thing is they got the vehicle
out. And as you know it was stolen in New York.
And Mr. George told you it was. It was stolen in
New York. And then you heard from Detective
Kuhno and the SOS guy that the vehicle was at
the tow yard and they went to get it. And that is
a point I want to bring up right now.
This file was brought in the other day from the
M&R Motors people. And there is something in
here that is not in our file. I never saw this file
until him, the other day. It shows—sometimes
facts comes in odd ways—looking here there’s a
letter from Antiwan Tyson in there to M&R saying
the car was stolen in New York. I think this will
go out with you. It was stolen in New York, and
he would like copies of his paperwork because he
is trying to get control of that vehicle.
Now, what does that tell you? If you are a crew
member making $50,000.00 a week and your
idiot friend, high school or grade school friend,
decides to blow away someone in your car, it is
in the newspaper and people are looking for a
Maxima, do you want anything to do with that
car again? And if it was stolen in New York
because then the cops come to you are you going to
say, hey, yeah you are right. The car is registered
to me. But, hey, a friend drove it and said someone
stole it. And, you know, here is the paperwork. It

App.211a
was stolen in New York. I don’t know where it
is. Wouldn’t you want to disassociate yourself
with that if you were not involved in the murder
and someone without your permission used the
vehicle to blow some people away and now you are
linked in it because it is your black Maxima? He
doesn’t do that, does he? He does the opposite.
With Aaron Tyson it is business as usual, isn’t it.
You heard from Detective Kuhno that the SOS
people were so afraid from the way they were ill
treated the day before when Tyson and others
were there to get the vehicle they actually called
the detective to come there because they knew
they were coming back the next day. And who is
there? Antiwan Tyson, Mr. Powell, and some third
guy that Detective Kuhno could not identify. They
were belligerent like they wanted the car back.
Does that sound logical to you? If you are not a
part of the murder, if you have nothing to do
with it and are livid that your crew member used
it and exposed you and you want to get as far
from anything that will bring you down—because
like I said drug dealing is one thing. 14 years, 15
years, 18 years. Murder is something different. 40
years maximum sentence for murder in the third
degree from the Commonwealth of Pennsylvania.
And Mr. Tyson acted just like anyone would act
if they wanted that car and wanted business to
be as usual. He did everything he could do to get
the car back, including writing M&R Motors
because he needed the paperwork to prove ownership to the SOS people in New York. He wants
the car. And it was his car and he wants it back.

App.212a
What other things were business as usual, which
Mr. Tyson certainly would not want to be involved
in if his friend implicated him in the murder? He
was not—he is back three days later. There’s a
vicious murder, a senseless murder in Monroe
County, and he is having sex with his friend on
tape of all things. And where is the tape found?
It is found in the Acura. Guess who is driving the
Acura? Mr. Tyson. May 3, 2002. Tape was April
27th, 2002 at the Days Inn in New Jersey. It is in
the car. And on May 3, Mr. Tyson, the driver, is
stopped and if you remember they take the car.
They are trying to drill in to these people, and here
are the licenses. These have been brought before
you. There is Kasine George, copy of his license.
That was taken on May 3. There are two females.
And there’s Mr. Tyson, driver of the vehicle. Also
known as the driver of the vehicle on April 22,
but this time the black Maxima, two days before
the murder, driving with two African Americans, one of whom is identified by Mr. George as
himself.
Police, they don’t care. They were not worried
about processing the tickets on the driver. Business
as usual. Detective Wolbert will tell you that
this was the only time Mr. Tyson was stopped in
the Acura, pulled over on 3/12/2002, 4/15 in
2002. And what I told you, 5/3 of 2002.
As a matter of fact, has anyone else, from the
objective evidence you have been given, been
driving these vehicles other than Mr. Tyson? And
yet if he is not involved in this homicide and is
linked to it through no fault of his own because
of the idiot, Kasine George, using the car used to

App.213a
tie him why would he come back days later and
resume the operation as if nothing was wrong?
Think about it. Because it is much easier to
accept that extrapolation of the facts in measuring
the credibility of Kasine George. Use your common
sense rather than the version that Mr. Gaglione
would have you believe because in that version
basically Kasine George and Aaron Tyson are
buds for years, dealing drugs in Allentown and
dealing drugs here. Tyson goes to a halfway
house and gets him out in January of 2002 after
a two year and eight month sentence. He does
not want to stay in the halfway house. They are
making money; they have guns; they are driving
cars together. They have sex together with girls
and are dumb enough to put it on video. They do
all these thing. But if you believe the version
given to you by the defense magically in one
narrow window of time, 20—20 minutes I believe
Detective Wolbert estimated probably took from
the altercation and murder or actually more
time than that—but that very narrow window of
time that magically Mr. Tyson is not there. No
one know where he is. He is not there; he is
gone. He is part of the operation.
He acts like he is part of the action, acts like
nothing is wrong. But in his own proffer that he
pled guilty to on July 15, he is dealing. He is
dealing all the way up until the arrest; he is in
the area as well as out of the area. He wants to
have contact with the car, something which
would not want to have if he does not use it and
disassociate himself from the cops. I was not

App.214a
there; I didn’t have the car. It was stolen. I don’t
know what you are talking about.
Does that seem logical to you that Tyson is in
another time space continuum in that narrow
time. In every other respect he is a drug dealer,
crew member, a friend, comrade. You have to
decide and I think when I look at that, and answer
those two questions when you are assessing the
credibility of Kasine George. Is there a lever on
this man; is there a screw; is there a hammer over
his head? Yes. And is his testimony corroborated
by other evidence in the case and from what you
know from your own common sense.
The Commonwealth admits to you that you can
accept his testimony even though it has got to
gall you. It galls me. I would love to wave a
magic wand and have a man or a woman of the
cloth come in here or have a prominent citizen of
Monroe County saying they were walking by
and saw Kasine George and Aaron Tyson and
Mr. Powell shoot these poor boys. That is not—
you don’t convict someone because police have
no other way to get it done. You don’t disregard
a witness either when your common sense tells
you, as bad as he may be as a dealer—they may
be Kasine George—the facts as given by him are
corroborative and corroborated by other evidence
in the case. For that reason I am going to ask
you to find the Defendant guilty of being a
helper in these shootings and to be convicted of
homicide. Thank you, ladies and gentlemen.
THE COURT: All right. Members of the jury, we are
going to adjourn for today. Tomorrow morning at
9:30 when you come in you will have the closing

App.215a
as we call the charge of the court. And you will
go out to deliberate.
Bring your overnight bags in case we need them.
We will feed you, of course. Once you are here you
will be sequestered. We will feed you and house
you until we come to a decision in this case.
Remember—I say it again now because it is
important. Don’t read about this case in the
newspaper; don’t listen to radio or television
broadcasts; do not talk to anyone about this case.
Let no one speak with you or in your presence so
you may hear what is being said. Learn nothing
about this case other than what you hear in the
courtroom.
Does anybody have any questions? No? We will
see you tomorrow morning at 9:30.
(Sidebar discussion held on the record.)
THE COURT: Okay. We want to indicate that Commonwealth agrees and that the defense agrees
that there will be two charges in each case; one
being murder in the first degree and one being
murder in the third degree.
(Sidebar discussion concluded.)
(The proceedings concluded in the
above-captioned matter.)

App.216a
JURY INSTRUCTION TRANSCRIPT
RELEVANT EXCERPTS
(MAY 9, 2006)
COURT OF COMMON PLEAS OF MONROE
COUNTY 43rd JUDICIAL DISTRICT
COMMONWEALTH OF PENNSYLVANIA
________________________
COMMONWEALTH OF PENNSYLVANIA,
v.
AARON TYSON,

Defendant,
________________________
No. 817 CRIMINAL 2003
Trial Volume V
Before: Ronald E. VICAN, President Judge.

[May 9, 2006 Transcript, p. 680]
(Tuesday, May 9, 2006 at 9:00 a.m.,
Courtroom No. 1)
[***]
THE COURT: Good morning. Let the record reflect
that the court has reconvened outside of the
presence of the jury. Present are the Defendant
present with counsel as well as the Commonwealth.

App.217a
MR. GAGLIONE: Your Honor, there was some discussion at the close of the evidence yesterday
regarding whether or not we would agree to
allow the court to charge the jury on accomplice
liability with respect to murder of the third
degree. After discussion with my client we would
ask the court not to include an instruction on
murder in the third degree. Not only does it
logically not flow from the evidence, I think
legally speaking accomplice liability cannot flow
towards murder in the third degree. It has to be
a specific intent crime. I have explained to my
client that without that charge this is essentially
an all or nothing proposition. And he understands
that if the jury were to come back with a conviction that the court would have no option in this
matter but to impose a sentence of life imprisonment. And obviously if they come back with not
guilty then that is not—he is free on this case.
Do you understand that, Mr. Tyson?
THE DEFENDANT: Yes.
THE COURT: Mr. Tyson, I want to say this to you. I
agree with your analysis that certainly—in fact,
I explained to the lawyers yesterday I don’t
think third degree murder is a part of this case;
however, I have been trying—a defense lawyer
will always ask for the lesser charge, include the
lesser charge because the prospect of the chance
of a jury coming in and finding a conviction on
the first degree. They need something imposed
to be lesser. And a lawyer would be remiss if he
did not ask the court to have a third degree
charge in a case like this. I don’t think it fits.

App.218a
Frankly, I agree with you. But from a defense
standpoint it is not a wise thing to do. And most
lawyers will, nine out of ten times, would say
exactly this. It is not what you should be doing.
You should be having third degree simply because
it is beneficial for the defense not the Commonwealth.
Do you understand that?
MR. GAGLIONE: I explained yesterday, Judge, that
I thought it should be in there and I still think it
should be in there.
Mr. Tyson, do you think it should be?
THE DEFENDANT: If this is what you want to do.
THE COURT: I mean you say it is tactical but I said
you would be remiss if you did not ask for it. He
would have been criticized if he didn’t ask for
that. And if you were convicted of third degree
or first degree he would have been remiss.
THE DEFENDANT: I feel I am not guilty of none of
the crimes. I don’t feel I should be charged with it.
THE COURT: I am just telling you the common
defense that would be by most of the defense
lawyers. I have tried a lot of these cases over the
years and always the defense asks for every
possible lesser charge that would fit within the
scope of the evidence. It does not fit. Third, it
does not fit really but the Commonwealth or at
least they will not have to test that issue. If you
want it out we will take it out. I don’t have any
problem with that, thankfully.

App.219a
MR. GAGLIONE: Judge, we prefer to have it as per
my conversation yesterday. And, Mr. Tyson, are
you okay with that.
THE DEFENDANT: Yes.
MR. GAGLIONE: We prefer to have it in.
THE COURT: I note the defense lawyer wanted it,
but I don’t want him to feel he has to after he
agreed. It is his choice. I will take it out if he
wants that.
MR. GAGLIONE: I prefer to have it in.
THE COURT: He does not want it. It is his choice.
We will take it out.
MR. GAGLIONE: We would like to have it in.
THE COURT: Are you sure?
THE DEFENDANT: Yes.
THE COURT: All right.
MR. MANCUSO: Satisfactory, Judge.
THE COURT: It does not fit in the evidence. Once
you do it you cannot change your mind. If it goes
in, it is in.
Do you understand that?
THE DEFENDANT: Yes.
THE COURT: That is what is going to be in.
MR. GAGLIONE: Yes.
THE COURT: Bring in the jury.
(Jury seated.)

App.220a
THE COURT: All right. Let the record reflect that
the jury has now been brought into the courtroom
and the Defendant is present along with defense
counsel. The Commonwealth and the prosecutor
are also present.
Good morning. Well, now you have reached the
point in the trial which has been previously
referred to. You are going to get the instructions
of the court as to how you go about your business
of deliberations and come to a decision or a verdict.
As you know, this is a case involving criminal
homicide. And there are special rules that apply.
I first want to start off by giving some general
background instructions. And then I am going to
talk about the specific offenses that have been
charged by the Commonwealth and talk about
the rules that go into how you evaluate evidence
and ultimately what you should do in terms of
approaching a decision making verdict in this case.
Remember that this case opened by the Commonwealth and the District Attorney telling you what
they intend to prove to you during the course of
the trial and testimony that was offered. And then
the defense had an opportunity to address you,
also. And they told you what it was that they
intended to show during the course of the presentation of testimony. Then yesterday morning
it concluded with arguments of counsel. And I
want to draw your attention to that first of all.
One, when a lawyer stands before you and makes
a presentation he is not testifying. A lawyer is
not a witness in this proceeding in this nature.
And they are drawing your attention by, virtue

App.221a
of argument to the particular piece of testimony
in the case which they want you to accept or to
adopt as being factual. And then they are asking
you or suggesting to you that the combination of
a certain series and sets of facts should allow
you to conclude a particular result.
If the argument makes sense and it is based on
a factual scenario which you find you can accept,
then the argument has some weight to you as to
how you should deliberate and come to an agreement. But you notice I said that the argument
should have a basis in fact which you accept. And
that is the crux of the matter because the argument, if you will, will have a road sign of sorts.
It is a guidance system to help lead you in a
certain direction. But if the signs are not signs
which you will accept and are willing to follow,
then the argument may be in a direction which
makes no sense to you. But remember that in
the process the lawyers make arguments and
drawing your attention to testimony what they
believe to be facts elicited by their testimony
which they want you to accept and to adopt. And
in that process if they have been mistaken in
what a witness may have said or documents and
physical evidence that was introduced during
the course of the trial, then as the trier of facts
you must resolve any discrepancies or inconsistencies in favor of how you remember the
testimony as having been rendered during the
course of the trial here in the courtroom.
As the finders of fact, you are the sole judges of
the facts and no one may interfere in that process.
It is yours and yours alone to decide. And I say

App.222a
that to you also with respect to one other aspect
of the case as to the introduction of the law. It is
my obligation as the trial judge to explain to you
the law as it is regarding these charges. And you
may not like the law and you may be feeling that
it is not fair, or maybe you do think it is. But
whatever your personal feelings are about the
law you are bound to follow it because you took
an oath and said you would.
So you follow the law as I give it to you. If I make
a mistake or am incorrect on how I explained it
then appellate courts will make any remedial
changes that will be necessary in the course of
the appellate review.
I want to also make a reference to one other aspect
of this before we go into this. You asked in the
beginning if you could take notes, and we allowed
you to do that. And you should also know that
there are some—I don’t want to say binding
instructions—but there are some suggestions I
can make in that regard. Some may have taken
notes, some maybe extensive note taking, some
may not have taken any notes maybe less extensively in the taking. You are entitled to do that but
it is just as easy and you should remember this.
It is just as easy to write something incorrectly
as it is to write from memory. And while you are
entitled to use your notes as you deliberate it is
known to you that you have a certain memory
and may recollect what was said just as well as
someone who may have written it down and
maybe someone wrote it down incorrectly.
The point of it is that you have an independent
memory and an independent recollection. And

App.223a
when you are referring to your notes as you
deliberate, give it no more or no less weight to
the view of a fellow juror because that juror did
or did not take notes. You can use your notes as
you deliberate but remember the person next to
you may not have taken notes and may remember
just as well. I don’t want you to go there and
have a fight over the notetaking process and
basically say, well, my notes are better than
yours and therefore my opinion is worth more
than yours and try to get away from that.
This is an experienced process in Pennsylvania,
and the Supreme Court allows the taking of notes.
But it is going to be reviewed at some point in
the future as to whether it is the way it should
be. Historically it was not allowed because the
Supreme Court was of the opinion exactly as
what I have told you. And try to avoid something
which would have happen normally in the courtroom, in the deliberation room where someone is
taking good notes and someone may say my
opinion is more worthy. And that is not the way
it works.
You have an independent memory and recollection
of what happened in the courtroom collectively.
You will find that 12 of you sitting as you
deliberate will probably have almost total recall
of everything that happened during the course of
this trial. And it may seem strange to you now
as you sit here as you start to deliberate. But I
think you will find that to be true. So just keep
that in mind with respect to the notetaking
process as you go about the deliberations.

App.224a
The Commonwealth has brought criminal charges
in this matter, which is why we are here today.
And they filed basically what amounts to two
counts in the criminal information charging Aaron
Tyson as an accomplice in the murder of Daniel
Fotiathis and Keith Fotiathis. You are going to
get a verdict slip at the end of the trial, and it
basically encompasses these two separate events
because we design them separately.
That is why it is a two-count information. And
each essentially will have two charges that will
be laid out for you. By agreement of counsel you
will be considering charges in murder in the
first degree and third degree with respect to the
death of Keith Fotiathis; and first and third degree
murder with respect to the death of Daniel
Fotiathis.
The Criminal Information says in this language
that the Defendant agreed with Otis Powell and
Kasine George to kill Daniel and Keith Fotiathis;
that he supplied a firearm to Otis Powell who did
the actual shooting; that he operated a vehicle or
drove Powell and George from the scene of the
crime. So there’s these matters of events which
took place they claim and filed this information
which connects this Defendant, Aaron Tyson, to
the murder of Keith and Daniel Fotiathis. And
he is charged as an accomplice—not as a shooter—
but as an accomplice. We are going to talk about
the rules which govern all this conduct and which
go about during the course of the presentation
this morning.
Now, before you can understand how one can be
an accomplice I think it is incumbent upon me to

App.225a
explain what criminal homicide in this particular
venue actually means. So we are going to talk a
few minutes about criminal homicide itself and
how this plays out under the law so you have
some recognition of what it is that you are
looking for. But in the charge of criminal homicide
which in this case the Defendant is charged with
being an accomplice, taking the life of Keith and
Daniel Fotiathis by criminal homicide, there’s
actually four possible verdicts in this case.
You can find either not guilty or guilty with respect
to first degree murder and third degree murder
in the same for each of the two Defendants. So
you are not, charged, you are not here to analyze
whether he is actually a killer in this case or
not; that is not the question. The question is he
an accomplice to the killing in the commission of
the murder.
There are special elements which you should know
about and have a particular use in the law. And
that is called malice. You may have heard of malice
somewhere in your travels throughout life, the
term “malice.” It is not necessarily what you
might think it is. There’s a technical definition
in the law. But malice essentially means the
state of mind. And it does not mean simply
hatred, spite or ill-will.
Malice can be any one of three possible mental
states which the law regards as being bad enough
to make a killing a murder. The killing is with
malice if the killer acts first with the intent to
kill or, secondly, with an intent to inflict serious
bodily harm or, third—and this is the language
that dates back from the 19th century—that wick-

App.226a
edness of disposition, hardness of heart, cruelty,
recklessness of consequences, a mind regardless
of social duty and indicating an unjustified disregard for the probability of death or great
bodily harm or extreme indifference to the value
of human life.
So malice is an element that exists in first degree
murder and third degree murder. And it is what
makes murder something other than just a killing.
So you have to find the existence of malice.
With third degree murder the elements of the
offense that will be required that the Commonwealth must prove is that Daniel and Keith
Fotiathis are dead—and I think there’s not any
question that they are dead. And you see evidence
to that, so there’s not much of an issue to concern
yourselves. Secondly, that in this case—not this
Defendant—but Otis Powell killed them as an
accomplice with the Defendant, Aaron Tyson.
And this was done with specific intent to kill.
Malice. Specifically, specific intent to kill is a
fully-formed intent to kill. And one who does so
is conscious of having that intention. But also a
killing with specific intent is killing with malice.
If someone kills in that manner that is willful,
deliberate premeditated like in this case stalking
or lying in wait or ambush, that would establish
specific intent.
In third degree murder the killer must again act
in such a manner that there is malice that the
person who is the victim must be dead. And, again,
the connection with the person who did the
killing is such that there has to be that direct
connection. Remember what I said about malice?

App.227a
I will go over it again with you. It is a shorthand
way of referring to three different possible mental
states that the killer may have that the law
would regard making a killing a murder. Again,
we are talking about intent to kill. First, an intent
to kill or, secondly, an intent to inflict serious
bodily harm or, third, a wickedness of disposition,
a hardness of heart, cruelty, recklessness of consequences and a mind regardless of social duty
indicating an unjustified disregard for the
probability of death or bodily harm and an extreme
indifference to the value of human life.
If you find that the killer in this case used a
deadly weapon, in this case, a handgun or .9 mm
handgun, to a vital part of the human body, then
from that evidence you may, if you choose to
infer, that the killer acted with malice in this case.
Now, Mr. Tyson is not charged with being the one
who did the killing. He is charged with being an
accomplice. And that, in other words, Kasine
George testified here and tells you that he and
the Defendant and Otis Powell acted in concert
in this matter which has been laid out to police
about the killings of Keith and Daniel Fotiathis.
Now, experience shows that after having been
caught in the commission of a crime the person
may be polluted because of some corrupt and
wicked motive. But on the other hand, such a
person may also tell the truth about what he and
others did in the commission of a crime together.
In deciding whether or not you are going to believe
Kasine George, should be guided by these principles which you should use in view in his

App.228a
testimony. The testimony of Kasine George as
an accomplice, because of what he admitted to
having done should be looked upon with disfavor
because it comes from a corrupt and polluted
source. Examine Kasine George’s testimony
closely. Accept it only with caution and care. You
should consider whether with Kasine George’s
testimony that the Defendant committed this
crime in such a manner as I have described to
you in the information by the Commonwealth
whether that is supported by, in whole or part,
or contradicted by other evidence in whole or
part anything you heard during the course of the
trial. Because if this is supported by independent
evidence then this becomes more dependable.
You have the right to, if you choose, find the
Defendant guilty as an accomplice based on Kasine
George’s testimony alone even though you choose
to find maybe it is not supported by any independent evidence. Even though you decide that
Aaron Tyson is an accomplice. And Kasine George
has given you testimony to that effect, that
testimony standing alone is sufficient evidence
on which to find the Defendant guilty, if, after
the foregoing principles, you are convinced beyond
a reasonable doubt that Kasine George testified
truthfully and the Defendant committed the
crime as an accomplice.
You may find the Defendant guilty of the crime
without finding that he personally performed
the acts required for the commission of that
crime. The Defendant is guilty of a crime if he is
an accomplice of another person who commits
the crime. He is an accomplice if with the intent

App.229a
to promote or facilitate the commission of a crime
he encourages, requests or commands the other
person to commit it or agrees or aids or agrees to
aid or attempts to aid the other person in
planning, organizing, committing it.
You may find the Defendant guilty of a crime on
the theory that he was an accomplice as long as
you are satisfied beyond a reasonable doubt that
the crime was committed; that the Defendant
was an accomplice of the person who actually
committed the crime. And it does not matter
whether the person who you believe committed
the crime has been convicted of a different crime
or different degree of the crime or has immunity
from prosecution or conviction.
Now, there’s two kinds of evidence in a case of
this nature. There’s what we call direct evidence,
which is testimony from a witness who from his
own personal knowledge describes something
which he or she may have seen or heard. Let me
give you an example of this. If you look out the
window on a February day and you see snow
falling from the sky, you turn to your spouse
who may be in the other room and say it is
snowing outside. What you have basically done
is recite something that you personally saw and
observed. It is direct testimony.
If you are standing on a corner and see an accident
with two automobiles as they collide, you are
called later to testify in a proceeding in court at
which time you say what you have seen, you are
a direct witness. You tell what you saw. It is
something that took place in your presence. And
you can observe that and talk about it because

App.230a
you saw it and you can talk about the position of
the cars that were there and the speed. And the
first example you can talk about the intensity of
the snow and the time of day, and all of these
things because you are a witness that is contemporaneous in time with your observations. That
is direct evidence. Direct testimony.
But there’s another aspect of testimony and evidence in the law which we call circumstantial
evidence. And there is a lot of misunderstanding
about this term, a lot of confusion. I want to provide another way of looking at this because it is
recognized in the law as an appropriate way to
prove a particular point in fact or issue.
Circumstantial evidence is testimony about facts
which point to the existence of other facts which
are in question. For example, suppose again we
go back to February and it is 1:00 before you
retire. You are outside and you are walking the
dog. It is a bright, moon-lit night. The ground is
clear, and you go inside and go to bed. But when
you wake up at 6:00 the next morning you look
outside and there is a foot of snow on the ground.
You can say that between 11:00 and 6:00 a foot
of snow fell on the ground. And you would be
absolutely right. And you have slept through the
entire event and not witnessed a snowflake fall.
You can say with absolute certainty that event
happened. You didn’t watch it and see it and
don’t know how it came to be, but you do know
from your background experience and common
sense that certain events do take place because
you live in Northeastern Pennsylvania in February, and it snows. So your common background

App.231a
and life experience allows you to draw certain
conclusions from observations which you did not
witness but can still say with great accuracy how,
in fact, that happened.
Now, these are simple examples. But I want to
illustrate the point I am trying to make. There are
two kinds of evidence. There’s direct and circumstantial evidence. Whether or not circumstantial
evidence is proof of other facts in question depends
in part on the application of common sense and
human experience. You should recognize that it
is sometimes necessary to rely upon certain circumstantial evidence and criminal cases specifically
when the crime is committed in secret.
In deciding whether or not to accept circumstantial
evidence of proof of the facts in question you must
be satisfied, first, that testimony of the witness
is truthful and accurate. And, second, that the
existence of the facts which the witness testified
to leads to the conclusion that the facts in question actually happened.
Circumstantial evidence standing alone may be
sufficient to prove that the Defendant is guilty.
If there are several pieces that are separate of
circumstantial evidence it is not necessary that
each piece standing alone separately must convince
you of the Defendant’s guilt beyond a reasonable
doubt. Instead, before you may find the Defendant
guilty all of the pieces of circumstantial evidence
when considered in their entirety must reasonably
and naturally lead to the conclusion that the
Defendant is guilty and convince you of that
guilt beyond a reasonable doubt. In other words,
you may find the Defendant guilty by circumstan-

App.232a
tial evidence alone, but only if the total amount
of evidence convinces you of his guilt beyond a
reasonable doubt.
Now, Mr. Tyson did not testify in this proceeding
which is something which you are all aware. And
you should know this. It is entirely up to him at
a criminal trial to decide whether he wishes to
testify or not. He has an absolute right which is
founded in the Constitution to remain silent.
And I instruct you that you may not draw any
inference of guilt from the fact he did not testify.
In the preceding part of these instructions I have
given you a legal definition of the crime charged
for your consideration. And if you notice, motive
is not part of that definition. The Commonwealth
does not have to prove motive for the commission
of the crimes charged. That does not mean that
you are to reject without thought or discussion the
evidence which relates to motive. Knowledge of
human nature tells you that an ordinary person
is more likely to commit a crime if he has a motive
than if he does not. And you should weigh and
consider the evidence tending to show motive or an
absence of motive along with other all evidence
in the case in deciding whether the Defendant is
guilty or not guilty of this offense. It is entirely
up to you to determine which weight should be
given to the evidence concerning motive.
Now, it is a fundamental principle of our system
of criminal law that a Defendant before the court
is presumed to be innocent. And the mere fact
that he is arrested and is accused of a crime is not
evidence against him. Furthermore, the Defendant is presumed innocent throughout this trial and

App.233a
unless and until you conclude, based on careful
and impartial consideration of the evidence, that
the Commonwealth has proven him to be guilty
beyond a reasonable doubt.
It is not the Defendant’s burden to prove to you
that he is innocent or not guilty. Instead, it is
the Commonwealth that always has the burden to
prove each and every element of the crime
charged, and that the Defendant is guilty of that
crime beyond a reasonable doubt. The person
accused of a crime is not required to present evidence or prove anything in his own defense. But
if the Commonwealth fails to meet its burden of
proof, your verdict should be not guilty. It must
be not guilty if that is the case.
On the other hand, if the Commonwealth’s evidence does prove beyond a reasonable doubt that
the Defendant is guilty, then your verdict should
be guilty. When I say to you the Commonwealth
has the burden to prove that the Defendant is
guilty, it does not mean that the Commonwealth
must prove its case beyond all doubt or to a mathematical certainty, nor must it demonstrate the
complete impossibility of innocence.
Now, we are talking about a term in the law which
is called reasonable doubt. Reasonable doubt is
the kind of doubt that would cause a reasonably
careful and sensible person to hesitate before
embarking upon matters of importance in their
own affairs.
A reasonable doubt must fairly arise out of the
evidence that was presented or out of a lack of
evidence presented with respect to some element

App.234a
of the crime charged. Reasonable doubt must be
a real doubt; it is not imaginary. And it is not
the kind of doubt that you may manufacture in
your mind to avoid carrying out an unpleasant
responsibility such as a conviction if the evidence
warrants it.
You may not convict Mr. Tyson based on suspicion
of guilt. The Commonwealth has the burden of
proof to prove that he is guilty beyond a reasonable
doubt. If it meets that burden he is no longer
presumed to be innocent, and you should find
him guilty. If the Commonwealth does not meet
its burden then you must find him not guilty.
Now, I said to you during the first part of this
instruction that you are the sole judges of the
facts. That is a critical function in this case
because you have to assess the credibility of
witnesses and decide what you are going to believe
and not to believe. And as judges of the facts
that means you are the sole judges of credibility
of the witnesses and their testimony. That means
you must judge the truthfulness and accuracy of
each witness’s testimony and decide whether to
believe all or part or none of that testimony.
These are some factors that you may and should
consider when you decide credibility and whether
or not to believe testimony. Was the witness able
to see, hear and know the things about which he
testified? How well did the witness remember
and describe those things about which he testified?
Does the witness have the ability to see, hear
and know and remember or describe those things
affected by youth or old age or by any physical,
mental or intellectual deficiency? Was the witness

App.235a
convincing? Did he testify in a convincing matter?
How did he look and act while speaking and
testifying? Was his testimony uncertain, selfcontradictory or evasive? Does the witness have an
interest in the outcome of the case, bias, prejudice
or other motive that might affect his testimony?
And how well does the testimony of the witness
square with the other evidence in the case,
including testimony of other witnesses? Was it
contradicted or supported by other testimony
and evidence in the case? Does it make sense?
If you believe that some part of the testimony of
a witness may be inaccurate, consider whether
that inaccuracy casts doubt on what else was
testified to. This may depend on whether he has
been inaccurate in an important matter or a minor
detail and on any possible explanation. Does the
witness make an honest mistake, forget, or was
it deliberately falsified in trying to mislead you?
When you are judging the credibility of each witness you are likely to be judges of the credibility
of other witnesses or evidence. And if there
becomes a real or irreconcilable conflict, then it
is up to you to decide which of the conflicting
testimony to believe or disbelieve.
Remember as the sole judges of the credibility and
fact, you are, as the jury, responsible to give the
testimony of each witness such credibility and
all other evidence such credibility whatever weight
you think it deserves.
Now, if and when there’s conflict in testimony then
you have the duty to decide which to believe and
which to reject. But first try to reconcile, and by

App.236a
that I mean fit together, any conflicts in testimony
if you can fairly do so. Discrepancies and conflicts
between the testimony of different witnesses may
or may not cause you to disbelieve some or all of
their testimony.
Remember that two or more persons who witness
the same incident may see or hear it happen
differently; it is not uncommon for a witness to
be innocently mistaken in their recollection of
how something happened. If you cannot reconcile
conflicts of testimony it is up to you to decide
which testimony, if any, to believe and which to
reject as untrue or inaccurate.
In making this decision consider whether the
conflict involves a matter of importance or merely
details; whether the conflicts are brought by
innocent mistake or intentional falsehood. And
be mindful of the other factors which we have
already discussed which go into deciding whether
or not to believe what the witness says.
In deciding which of the conflicting testimony to
believe, you should not necessarily be swayed by
the numbers of witnesses on either side. You may
find the testimony of a few witnesses, even just
one witness, is perhaps more believable than the
opposing testimony of a greater number of witnesses. On the other hand, you should consider the
extent to which conflicting testimony is supported
by other evidence in the case.
If you conclude that a witness testified falsely and
intentionally about any fact necessary to your
decision in this case, then for that reason alone
you may, if you wish, disregard everything that

App.237a
the witness said. However, you are not required
to disregard everything that the witness said for
this reason. It is entirely possible the witness
testified falsely and intentionally in one respect
but truthfully about everything else. If that is
the situation, you may accept part of this testimony
which is truthful and which you believe and reject
the part which you find false and unworthy of
belief.
Do not decide this case based on which side
presented the greater number of witnesses or
the greater amounts of evidence. Instead you
should decide which witnesses to believe and
which evidence to accept on the basis of whether
or not the testimony or evidence is believable.
In deciding which of several witnesses to believe,
it is proper for you to consider whether or not
the testimony of each witness is supported by
other evidence in the case. However, you should
recognize it is entirely possible for a single witness
to give truthful and accurate testimony and that
his testimony may be believed, even though a
greater number of witnesses of apparently equal
reliability contradicted him. The question for you
to decide, based on all the considerations I am
discussing with you, is not which side produced
the most evidence but, instead, which evidence
you believe.
Before you retire to decide this case, I want to
give you some final guidelines as to how you
may go about your deliberations and properly
reach your verdict. Remember, it is a decision of
the court to instruct you on the law and the obligations to decide how to instruct you and to pro-

App.238a
vide rulings on questions of law. You must accept
the rulings of the court. Follow the instructions
of the law.
I don’t judge the facts. It is not for me to tell you
what the true facts are concerning these charges
against the Defendant. As jurors you are the sole
judges of the facts. It is your responsibility to
consider the evidence, find the facts and analyze
those facts as you find them to be and decide
whether the Defendant has been proven guilty
beyond a reasonable doubt.
Your decision in this case as in every case that
you hear is a matter of considerable importance.
Remember that it is your responsibility as jurors
to perform your duties in making your verdict
based on evidence as it is presented in the trial
and deciding by applying your common sense and
drawing from your every day, practical knowledge of life as each of you has experienced it.
Both the Commonwealth and the Defendant have
a right to expect that you will consider the
evidence conscientiously and apply the law as I
have outlined it for you.
In reaching your verdict, do not concern yourselves
with any possible future consequences of that
verdict including the penalty that may be assessed
if you should find the Defendant guilty. The
question of guilt and the question of penalty are
separately decided.
As you retire to deliberate, your first order of
business is to elect among yourselves a presiding
officer. He or she is the one who will announce
the verdict in the courtroom at the conclusion of

App.239a
the deliberations. That person, whoever it is, shall
govern over the deliberative process to keep it
orderly with a view to reaching an agreement.
Your verdict must be unanimous. That means in
order to return your verdict you all must agree.
You have the duty to consult with each other
and to deliberate with a view of reaching an
agreement that can be done without doing any
violence to your individual judgment. Each of
you must decide the case for him or herself, but
only after there has been impartial consideration
with your fellow jurors.
In the course of deliberations each juror should
not hesitate to re-examine his or her view and
change his or her opinion if convinced it is erroneous. However, no juror should surrender an
honest conviction as to the weight or effect of the
evidence solely because that opinion is not shared
by your fellow jurors. Or for the mere purpose of
returning a verdict.
Treat each other with courtesy and respect as you
go about the deliberative process as you would
with any other persons who you would be in
contact with in the ordinary, everyday activities.
Do you have the verdict slip?
THE CLERK OF COURTS: Yes.
THE COURT: I tried to break these down which would
make it easier for you to know what you have to
address. You are going to have four slip. And each
of these charges you have to render the decision
of guilty or not guilty.

App.240a
The way we broke them down for you is murder
in the first degree as an accomplice for the death
of Daniel Fotiathis; murder in the third degree
as an accomplice for the death of Keith Fotiathis;
murder in the third degree as an accomplice for
Daniel Fotiathis; and murder in the first degree
as an accomplice for Keith Fotiathis. So you need
to render a decision of guilty or not guilty on each
slip.
You will notice that there are 12 signature lines.
Each of you must sign your verdict slip. And
there’s a separate line at the very bottom of this
for the foreperson. That person will sign also as
presiding officer of the jury panel. Even though
that person will sign twice that person does not get
an extra vote. Everybody gets one vote. You must
be unanimous in your decision-making process.
Any corrections or additions?
MR. GAGLIONE: Yes, Your Honor. May we approach?
(Sidebar discussion held off the record.)
(Back on the record.)
THE COURT: I missed one point here. I want to bring
this to your attention. There was evidence that
Mr. Tyson is guilty of drug dealing. And actually
there is a transcript of that somewhere in the
testimony. And it was read to you yesterday, I
believe, indicating the fact he admitted to that.
And he was convicted in federal court. He is not
on trial for that. The evidence before you is for a
limited purpose. And that purpose is tending to
show that there was a relationship between him
and Kasine George and the drug dealing oper-

App.241a
ation, which there was substantial discussion
heard during the course of the proceeding as you
just sat through.
This evidence must not be considered by you for
any other purpose than that which I have just
stated. It is not to be regarded as evidence showing
that the Defendant is a person of bad criminal
characteristic tendencies, which you may be
inclined to infer guilt.
If you find he is guilty you must be convinced
that the evidence that he committed the crime
charged was enough to convince you beyond a
reasonable doubt that he did, in fact, act as an
accomplice in the death of Keith and Daniel
Fotiathis and not because you believe he is convicted or committed these drug offenses. Okay.
Any other corrections or additions?
MR. MANCUSO: No, Your Honor.
THE COURT: Are you satisfied?
MR. GAGLIONE: Yes.
MR. MANCUSO: Yes.
THE COURT: Swear the Tipstaves, please.
(Tipstaves sworn.)
THE COURT: You are going to get certain pieces of
evidence. Have you gone over that?
MR. MANCUSO: Not yet.
THE COURT: We will do that. Maybe the first order
of business is to get your lunch order together.
Have they done that yet? You already got the
lunch order together?

App.242a
THE TIPSTAFF: Yes.
THE COURT: So lunch will be brought to you about
noon or thereabout. I don’t want the alternates
in the jury deliberation room. I don’t want them
dismissed. We will separate the two alternates
for the time being. We will keep you somewhere
separate in the event there’s some reason we
have to substitute. We will do that. All right.
Do you want to come to sidebar with the evidence?
(Jury removed to deliberation room.)
(Sidebar discussion held on the record.)
THE COURT: What is not going out?
MR. MANCUSO: We believe that Mr. Tyson’s guilty
plea colloquy transcript is an admission because
he adopts the factual findings of the prosecutor.
So that doesn’t go out. Beyond that, there’s a
couple of defense exhibits.
MR. GAGLIONE: I know one is a search warrant application. What was the other one? I don’t think I
admitted the other one. I just had only No. 2,
which was a search warrant. And I don’t see any
reason to have that go out unless you want it to.
MR. CHRISTINE: No. It talks about the investigation
other than from the lips of a witness, so I don’t
think it should go out, either.
THE COURT: So what are we excluding then?
MR. CHRISTINE: Just two things.
THE COURT: Exhibit 2 and the transcript of the guilty
plea.

App.243a
MR. CHRISTINE: I have to think the tape should go
out so they can see it. If they ask we would agree
they should not view it. But I think in terms of
seeing that it was in the car.
THE COURT: There is no way they can view it.
There’s no machinery for that.
MR. GAGLIONE: And because of that I have no objection to them seeing the actual tape itself but not
seeing the contents. Not actually being able to
play it. That is fine with me.
THE COURT: If they come and ask for it, we will
have an explanation for it.
MR. GAGLIONE: If they want to see it.
MR. MANCUSO: They have to articulate a good faith
basis.
THE COURT: This is not the kind of tape—I have not
seen it but I am assuming it—
MR. CHRISTINE: We all agree about what was on
the tape.
THE COURT: All right. We will take our recess.
(Jury retires to jury deliberation room.)
(Back on the record.)
THE COURT: Let the record reflect that the Defendant
is in the courtroom with his attorney. The District Attorney and the prosecutors are also here.
And the jury has returned to ask a question.
Who is the presiding officer of the panel?
THE FOREPERSON: I am.

App.244a
THE COURT: I understand that you have a question,
sir. Tell us what it is.
THE FOREPERSON: Am I permitted to ask it?
THE COURT: You have to ask the question so I can
answer.
THE FOREPERSON: I want a clarification on the
difference between homicide in the first degree
as opposed to homicide in the third degree.
THE COURT: As you recall, the court gave you two
definitions of criminal homicide as to murder in
the first degree and murder in the third degree.
In murder of the third degree there’s three specific elements. And these refer to the killer who
actually committed the crime, the shootings that
we are here about. Mr. Tyson is not the shooter.
He is not charged with being the shooter. He is
only charged with being an accomplice to the
shooter. But you have to understand what homicide is. You have to understand what third degree
and first degree murder is.
First degree murder is when a killer has a specific
intent to kill. And there are three elements. The
first is that Keith and Daniel Fotiathis are dead.
These are two separate charges, one for Keith
and one for Daniel. But I am going to use the
two in the same sense. And the second is that
the killer actually killed them. That would not
be Mr. Tyson. But the killer actually killed these
people. Mr. Tyson is an accomplice, is what the
Commonwealth charges. And, thirdly, that these
killings were accomplished with a specific intent
to kill and with malice.

App.245a
A person has a specific intent to kill if he has
actually formed an intent to kill and is conscious
of his own intentions.
Malice is a state of mind that the killer has when
this is going on. The state of mind, malice, has
three possible components. They don’t all have
to exist. One can exist or they could exist for
that matter. But malice has a specific definition.
I am going to give that to you because this is a
part of the element of first degree murder.
Malice is a state of mind. If a killer acts with an
intent to kill—and I didn’t say specific intent. I
said an intent to kill—it is part of malice or,
secondly, an intent to inflict serious bodily harm
or, third—and this is that archaic language of the
19th century—a wickedness of disposition, hardness of heart, cruelty, recklessness of consequences,
and a mind regardless of social duty indicating
an unjustified disregard for the probability of
death or great bodily harm and an extreme
indifference to the value of human life.
Those are the three elements which must exist
and how you find the killing to have occurred in
order for there to be first degree murder. Specific
intent to kill is also accomplished by willful,
deliberate and premeditated conduct or by laying
in wait or by ambush. That is also—it is not an
element, but it is way to describe specific intent
to kill. And you are thinking what specific intent
means. It can be accomplished in a fashion.
Specific intent to kill including premeditation does
not have to happen over a long period of time. It
can actually be very quick, almost without any

App.246a
lengthy passage of time at all. All that is necessary is they have enough time so the killer does
actually form an intent to kill and is conscious of
that intention. But remember this is one other
thing about specific intent to kill. You can infer
that from the evidence if you find that the killer
used a deadly weapon in this case—the Commonwealth says it was a .9 mm firearm on a vital
part of the victims’ body—you can infer that was
also evidence of a specific intent to kill. So that
is it. I put that in a compartmentalized explanation the first degree murder.
Third degree murder is a lesser degree because it
does not require proof on the part of the Commonwealth that the killer acted with a specific intent
to kill but requires that the Commonwealth show
that the killer acted with malice. Same term again.
Malice being what I referred to in the previous
definition.
In this particular case because there is a charge
of an accomplice almost by definition it encompasses the concept of first degree murder by its
very definition, an accomplice with the planning
and the coordination if you, in fact, found to be
so indicate that was first degree murder. But
third degree murder offered as another possibility
even does not fit as well within the confines of
the explanation because counsel agreed you may
consider that as a possibility.
Again, there are three elements to third degree
murder. And the brothers are dead; that the
killer actually was responsible for killing them
and the killing took place with malice. Does this

App.247a
explanation assist you with the analysis of the
deliberation process?
THE FOREPERSON: Yes.
THE COURT: Okay.
MR. MANCUSO: Satisfactory, yes.
(Jury resumes deliberations.)
(Back on the record.)
THE COURT: Let the record reflect that the jury has
returned to render a verdict; that the Defendant
is present along with defense counsel and the prosecutor and the District Attorney are also present.
Mr. Foreman, have you reached a verdict in this
case?
THE FOREPERSON: Yes, we have, Your Honor.
THE CLERK OF COURTS: Members of the jury, rise,
please. Ladies and gentlemen of the jury have
you agreed upon your verdict?
THE JURY: Yes.
THE CLERK OF COURTS: To the charge of criminal
homicide murder in the first degree as accomplice
for Daniel Fotiathis, how say you guilty or not
guilty?
THE FOREPERSON: Guilty.
THE CLERK OF COURTS: To the charge of criminal
homicide murder in the first degree as accomplice
for Keith Fotiathis, how say you guilty or not
guilty?
THE FOREPERSON: Guilty.

App.248a
THE CLERK OF COURTS: To the charge of criminal
homicide murder in the third degree as accomplice
for Daniel Fotiathis, how say you guilty or not
guilty?
THE FOREPERSON: Not guilty.
THE CLERK OF COURTS: To the charge of criminal
homicide murder in the third degree as accomplice
for Keith Fotiathis, how say you guilty or not
guilty?
THE FOREPERSON: Not guilty.
THE COURT: Record the verdict.
THE CLERK OF COURTS: Ladies and gentlemen of
the jury, harken to your verdict as the court has
recorded it. In the issue joined between the
Commonwealth of Pennsylvania v. Aaron Tyson,
you say you find the Defendant guilty to the
charge of criminal homicide murder in the first
degree as accomplice for Keith Fotiathis; criminal
homicide murder in the first degree as accomplice
for Daniel Fotiathis; not guilty to the charge of
criminal homicide murder if the third degree as
accomplice for Daniel Fotiathis; and not guilty to
the charge of criminal homicide murder in the
third degree as accomplice for Keith Fotiathis.
So say you all and are all of you content?
THE JURY: Yes.
THE COURT: All right. Members of the jury, I want
to thank you for your service. I know when you
walked in here a few days ago you didn’t know
what you were getting into. And now you ever
seen the presentation of what happens to be the
most serious type of case that can be presented

App.249a
by the Commonwealth. I can tell by some of the
looks on your faces you are duly appreciative of
what you had to do.
I want to thank you for your service. You are
free to go about your business. You don’t have to
speak to the press or anybody else that you
choose not to. You don’t have to be accosted by
anybody. If you want some assistance in getting
out here, the sheriff’s department will provide
that to you.
You are now excused. You may go about your
business with the thanks of the court.
(Jury dismissed.)
THE COURT: Mr. Tyson, rise please.
ORDER
AND NOW, this 9th day of May 2006, the Defendant having been convicted after trial by jury of Murder
in the First Degree in the death of Keith Fotiathis,
imposition of sentence is deferred pending a presentence investigation report. Defendant is remanded to
the custody of the sheriff in lieu of bail. Defendant
shall appear for sentencing on July 17, 2006, at 2:00
p.m., Courtroom No. 1, Monroe County Courthouse,
Stroudsburg, Pennsylvania.
By the Court:
Ronald E. Vican
President Judge

App.250a
ORDER
AND NOW, this 9th day of May 2006, the Defendant having been convicted after trial by jury of Murder
in the First Degree in the death of Daniel Fotiathis,
imposition of sentence is deferred pending a presentence investigation report. Defendant is remanded to
the custody of the sheriff in lieu of bail. Defendant
shall appear for sentencing on July 17, 2006, at 2:00
p.m., Courtroom No. 1, Monroe County Courthouse,
Stroudsburg, Pennsylvania.
By the Court:
Ronald E. Vican
President Judge
(The proceedings in the
above-captioned matter adjourned.)

